APPENDIX TABLE OF CONTENTS
Proceedings in Federal Court
Order of the United States Court of Appeals for
the Third Circuit Denying Certificate of
Appealability (May 16, 2019)............................. la
Memorandum Opinion of the United States District
Court for the Middle District of Pennsylvania
(December 14, 2018)............................................ 3a
Report and Recommendation of the Magistrate
Judge in the United States District Court for
the Middle District of Pennsylvania
(July 5, 2018)....................................................... 17a
Order of the United States Court of Appeals for
the Third Circuit Denying Petition for
Rehearing (July 10, 2019)................................ 35a

Proceedings in Pennsylvania Courts
Order of the Superior Court of Pennsylvania
(September 12, 2017)................ .....................

37a

Order of the Court of Common Pleas of Monroe
County 43rd Judicial District Dismissing
PCRA Petition (October 8, 2016)..................... 45a
Order of the Supreme Court of Pennsylvania
Middle District Denying Petition for Allowance
(May 21, 2014).................................................. . 47a
Order of the Superior Court of Pennsylvania
(November 6, 2013)...................................

48a

APPENDIX TABLE OF CONTENTS (Cont.)
Order of the Court of Common Pleas of Monroe
County 43rd Judicial District on Defendant’s
Rule 720 Post-Sentencing Motion for a New
Trial or in the Alternative Resentencing
(March 20, 2012)................................................. 60a
Order of the Court of Common Pleas of Monroe
County 43rd Judicial District on Motion in
Limine (December 16, 2010)............................. 87a
Notice of the Court of Common Pleas of
Monroe County 43rd Judicial District of
Intent to Dismiss PCRA Petition
(September 15, 2016)................ ................

123a

Proceedings in New York Courts
Bench Ruling of the Court of Albany County,
New York, Transcript
(February 5, 2015)......................................

139a

Memorandum and Order of the State of New York,
Appellate Division, Third Judicial Department
176a
(October 20, 2011)
Order of the Court of Albany County, New York,
Denying Motion to Vacate Conviction
180a
(December 29, 2010)
Order of the Court of Albany County, New York
182a
to Unseal Records (June 29, 2010)

APPENDIX TABLE OF CONTENTS (Cont.)
Other Documents
Ritter Motion in Limine Filed in the
County Court of Albany, New York
(November 3, 2014)..........................

184a

Commonwealth of Pennsylvania Supplemental
Brief Filed in the Court of Common Pleas of
Monroe County, 43rd District of Pennsylvania
(June 2, 2010)
193a
Affidavit of Michael T. Rakaczewski
(June 2, 2010)..............................

215a

Letter from W. Gary Kohlman to Monroe County
219a
District Attorney (April 23, 2010)

App.la'

ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT DENYING
CERTIFICATE OF APPEALABILITY
(MAY 16, 2019)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
WILLIAM S. RITTER, JR.,
Appellant,
v.
JOHN R. TUTTLE; ET AL„
C.A. No. 19-1171
(M.D. Pa. Civ. No. 3-15-cv-01235)
Before: AMBRO, KRAUSE and
PORTER, Circuit Judges.
Ritter’s application for a certificate of appealability
is denied. See 28 U.S.C. § 2253(c). Jurists of reason
would agree without debate that the District Court
correctly concluded that Ritter was not entitled to a
new trial under the Full Faith and Credit Clause.
See US. ex rel. Cannon v. Maroney, 373 F.2d 908,
910 (3d Cir. 1967); see also Baker ex rel. Thomas v.
Gen. Motors Corp., 522 U.S. 222, 238 (1998) (“Michigan
lacks authority to control courts elsewhere by pre­
cluding them, in actions brought by strangers to the
Michigan litigation, from determining for themselves

App.2a

what witnesses are competent to testify and what
evidence is relevant and admissible in their search for
the truth.”); People v. Patterson, 587 N.E.2d 255, 256-57
(N.Y. 1991). Jurists of reason would also agree with­
out debate that the trial court did not violate Ritter’s
due-process rights by admitting evidence of his prior
acts under Pa. R. Evid. 404(b). See, e.g., United States
v. Knope, 655 F.3d 647, 657 (7th Cir. 2011).
By the Court,
/s/ Cheryl Ann Krause
Circuit Judge
Dated: June 5, 2019
MB/cc: William S. Ritter, Jr.

App.3a

MEMORANDUM OPINION OF THE
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF PENNSYLVANIA
(DECEMBER 14, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
WILLIAM S. RITTER, JR.,
Petitioner,
v.
JOHN TUTTLE, ET AL„
Respondents.
No. 3:15cvl235
Before: James M. MUNLEY, United States District
Judge, CARLSON, Magistrate Judge.
Before the court for disposition is a report and
recommendation (hereinafter “R&R”) filed by Magis­
trate Judge Martin C. Carlson. The R&R suggests the
denial of William S. Ritter, Jr.’s petition for a writ of
habeas corpus, and the denial of a certificate of appealability. Ritter (hereinafter “petitioner”) has filed objec­
tions to the R&R, and the matter is ripe for disposition.
Background
The Court of Common Pleas of Monroe County
convicted petitioner in 2011 of various offenses relating

App.4a

v

to an attempted sexual exploitation over the internet
of a person he believed to be a fifteen-year-old girl.
The Pennsylvania Superior Court summarized the
factual background of this case as follows:
On February 7, 2009, Detective Ryan Venneman of the Barrett Township Police Depart­
ment was conducting undercover operations
investigating the crime of internet sexual
exploitation of children in a Yahoo Instant
Messenger chat room. Detective Venneman
was acting as a young female named “Emily”
when he was contacted online by Ritter, posing
as “delmarm4fun,” a 44—year—old male from
Albany, New York. At the onset of the
online chat, “Emily” specifically identified
herself to Ritter as a 15—year—old female
from the Poconos.
The online conversation was sexual in nature.
During the conversation, Ritter provided
“Emily” with a link to his webcam, asking her
to share photographs with him. Ritter was
particularly interested in whether “Emily’s”
ex-boyfriend took “any traditional ex pics” of
her, by which he meant nude or provocative
photographs. In response to Ritter’s repeated
requests to send-additional photos, “Emily”
transmitted a photograph to which Ritter
replied, “that’l [sic] get a reaction.” Ritter then
stated that he was “waiting for [“Emily”] to
put up another pic so [he] can continue to
“react.” The webcam was operational at the
time and displayed a man’s face and upper
body area. When queried as to what he meant
by “react,” Ritter responded that he reacted

App.5a

“below the screen,” “where [his] hands are,”
indicating his hands are “down lower.” Ritter
then communicated to “Emily” that he was
having a “big reaction here” and asked “Emily”
if she would like to see more. Ritter then
adjusted the webcam to focus on his genital
area where he exposed himself to “Emily”
and proceeded to masturbate.
Ritter turned off the webcam for a period of
time. He, however, continued to engage in
sexually explicit communications with
“Emily,” including asking her if she tasted
her ex-boyfriend’s penis, her favorite sexual
position, if her ex-boyfriend ejaculated inside
her, if he used a condom, and if she performed
oral sex on him. “Emily” cautioned Ritter that
she was only 15 years old and she did not
want them to get in trouble because of their
respective ages. Unfazed by “Emily’s” age,
Ritter asked “Emily,” “you want to see it
finish?” Ritter then turned on the webcam
and ejaculated in front of the camera for
“Emily.” Detective Venneman then notified
Ritter of his undercover status and the under­
cover operation and directed Ritter to call
the police station.
Ritter was subsequently charged with unlaw­
ful contact with a minor (sexual offenses), 18
Pa. Cons. Stat. Ann. § 6318(a)(1), unlawful
contact with a minor (open lewdness), 18
Pa. Cons. Stat. Ann § 6318(a)(2), unlawful
contact with a minor (obscene and other
sexual materials and performances), 18 Pa.
Cons. Stat. Ann. § 6318(a)(4), corruption of

App.6a

minors, 18 Pa„ Cons. Stat. Ann. § 6301(a)(1),
criminal use of a communications facility,
18 Pa. Cons. Stat. Ann. § 7512(a), and indecent
exposure, 18 Pa. Cons. Stat. Ann. § 3127.
Prior to trial, the Commonwealth uncovered
information, via a Google search, of Ritter’s
prior arrests from online sex sting operations
in New York. The public internet search
yielded news articles reporting that, in
April 2011, Ritter communicated online in a
chat room with an undercover police officer
posing as a 14—year—old female and arranged
to meet the “girl” at a local business in
Albany. Ritter arrived at the designated
location and was questioned by the authori­
ties; however, he was released without any
charges being filed. Two months later, Ritter
was again caught in the same kind of sex
sting after he tried to lure what he thought
was a 16—year—old female to a fast food
restaurant. Ritter was subsequently charged,
but the Albany District Attorney placed the
case on hold.
Upon discovery of the publicly available
articles regarding Ritter’s prior engagement
in internet sex stings, the Commonwealth
requested and later received copies of those
records from the Albany County District
Attorney’s Office. The Commonwealth pro­
vided Ritter with copies of the records in
compliance with Pa. R. Crim. P. 573. Unbe­
knownst to the Commonwealth, the New
York state records were sealed at the time
they were forwarded to the Commonwealth,

App.7a

prompting the Commonwealth to return the
records to the Albany County District Attor­
ney’s Office. A petition to unseal the records
was subsequently filed and granted by the
trial court in Albany County.
Thereafter, the Commonwealth filed a notice
of prior bad acts as well as a motion in
limine seeking to introduce the New York
arrest records at trial. In response thereto,
Ritter filed a motion for dismissal/change of
venue as well as a motion in limine seeking
to preclude this evidence. The trial court held
a hearing on the motions. At the hearing, the
Commonwealth’s exhibits, consisting in part
of the New York arrest records, were admit­
ted under seal. After the hearing, the trial
court entered an order and accompanying
opinion granting the Commonwealth’s motion
in-limine, permitting evidence of-Ritter’s prior
bad acts in New York to be admitted at trial.
Following a jury trial, Ritter was found guilty
of all but one count. Prior to sentencing, the
Supreme Court of the State of New York,
Appellate Division reversed and vacated the
order of the Albany County court unsealing
Ritter’s records. Ritter then filed a motion
for a new trial pursuant to Rule 704(B) or in
the alternative to postpone sentencing. The
trial court sentenced Ritter on October 26,
2011. At the time of sentencing Ritter made
an oral motion for extraordinary relief. After
extensive argument regarding the New York
records, the trial court denied Ritter’s request
for a new trial and sentenced Ritter to an

App.8a

aggregate period of 18 to 66 months’ imprison­
ment.
Commonwealth of Pennsylvania v. Ritter, No. 975
EDA 2012, 2013 WL 11250812 *1-2 (Pa. Super. Ct. Nov.
6, 2013).
He appealed the case to the Pennsylvania Superior
Court, which affirmed his conviction on November 6,
2013. Id. Petitioner appealed to the Pennsylvania
Supreme Court, which denied the appeal on May 21,
2014. Commonwealth of Pennsylvania v. Ritter, 625
Pa. 658 (May 21, 2014). The instant petition followed
on April 20, 2015.
Petitioner, however, filed this case prematurely,
before exhausting his state court remedies. Specifically,
he had not filed a motion under Pennsylvania’s Post
Conviction Relief Act. See 42 Pa. Cons. Stat. Ann.
§ 9501 et seq. We stayed his petition to allow him
time to exhaust the state court procedures. He filed a
motion for post conviction relief in state court. The
Court of Common Pleas denied the petition on October
6, 2016, the Pennsylvania Superior Court denied it
on September 12, 2017, and the Pennsylvania Supreme
Court denied it on May 21, 2017. Thus, we lifted the
stay on December 6, 2017. (Doc. 40).
The instant petition asserts that the trial court
violated petitioner’s federal constitutional rights by
admitting at trial evidence of the two New York
arrests. The parties briefed their respective positions
and Magistrate Judge Carlson issued an R&R. Peti­
tioner filed objections to the R&R, bringing the case
to its present posture.

App.9a

Standard of Review
In disposing of objections to a magistrate judge’s
report and recommendation, the district court must
make a de novo determination of those portions of
the report against which objections are made. 28
U.S.C. § 636(b)(1)(c); see also Sullivan v. Cuyler, 723
F.2d 1077, 1085 (3d Cir. 1983). The court may accept,
reject, or modify, in whole or in part, the findings or
recommendations made by the magistrate judge.
Henderson v. Carlson, 812 F.2d 874, 877 (3d Cir. 1987).
The district court judge may also receive further evi­
dence or recommit the matter to the magistrate judge
with instructions. Id.
* As noted above, this case involves a petition for
habeas corpus relief filed pursuant to 42 U.S.C.
§ 2254 (hereinafter “section 2254”). We may grant a
petitioner’s section 2254 habeas corpus petition “only
on the ground that he is in custody in violation of the
Constitution or laws or treaties of the United States.”
28 U.S.C. § 2254.
Discussion
As set forth in the various opinions issued by the
state courts, before the prosecution at issue, the peti­
tioner had been arrested twice on similar charges
involving internet sex sting investigations.1 These
arrests, however, took place in New York state not
Pennsylvania. The Pennsylvania authorities became
aware of these arrests through an internet “Google”
1 It unclear if both of these incidents led to formal arrests. For
convenience, and as it doesn’t affect our analysis, we will refer
to both of these previous encounters with law enforcement as
“arrests”.

App.lOa

search of the petitioner. Commonwealth v. Ritter, No.
975 EDA 2012, 2013 WL 11250812 *1-2 (Pa. Super. Ct.
Nov. 6, 2013). The Commonwealth of Pennsylvania
requested from New York state the records of these
arrests. New York provided the records, but Penn­
sylvania officials later learned that the records were
sealed. Id. Accordingly, they returned the records and
filed a motion to unseal them. The trial court in New
York granted the motion to unseal the records. Id.
The Commonwealth then filed a motion in limine
to admit this evidence as “evidence of prior bad acts”
into the trial. Id. The court granted the motion, and
the evidence was indeed admitted at trial. After the
trial, but before sentencing, the New York Appellate
Court reversed the trial court and found that the
records should not be unsealed. Id. Evidently, the
court ordered the records re-sealed.
Because the records were eventually ordered re­
sealed, albeit after the trial, the petitioner argues
that they should not have been used during his trial,
or in any post-trial proceeding, and a new trial should
be held. The Pennsylvania courts have consistently
denied this claim. Now, petitioner makes this issue
the basis for his habeas corpus petition.
As noted above, we may only grant relief to the
petitioner under section 2254 if “he is in custody in
violation of the Constitution or laws or treaties of the
United States.” 28 U.S.C. § 2254.2
The petitioner argues that the state court’s actions
in admitting the New York state records violates the
Full Faith and Credit Clause of the United States
2 Apparently, petitioner is no longer in custody.

. .. App.lla ,

.

Constitution. Art. IV, Section 1, United States Consti­
tution. This clause requires that each state recognize
the laws, judicial decisions, and public records of
other states. Specifically, the Constitution provides
in pertinent part: “Full faith and credit shall be given
in each state to the public acts, records and judicial
proceedings of every other state.” Id.
Here, petitioner argues that Pennsylvania failed to
provide full faith and credit to New York’s determi­
nation that the records at issue should be sealed. In
failing to provide full faith and credit, petitioner
argues that they also denied him due process of the
law guaranteed by the Fourteenth Amendment to the
Constitution. We disagree.
Petitioner’s argument fails for several reasons.
First, at the time of the trial, the records were
unsealed. Thus, the state trial court did provide full
faith and credit to New York’s judicial determinations
at the time. It was only after the trial and verdict, when
the Pennsylvania record already contained information
on the New York arrests, that New York state court
re-sealed the records.
Then the question becomes whether a new trial
was necessary once the appellate court in New York
ruled that the records should be sealed. We conclude
that a new trial was unnecessary. The petitioner points
to no relevant case law which supports his position,
and our research has uncovered none.
Further, the information at issue, was publicly
available even when the records were officially sealed
by New York state. In fact, the prosecutors were only
put on notice of the arrests due to a “Google” search.
Even today an internet search reveals newspaper

App.l2a

articles which discuss the petitioner’s New York
state arrests.3 The Wikipedia entry on the petitioner
also discusses his New York state arrests. https://en.
wikipedia.orci/wiki/Scott_Ritter#Arrests_and_conviction
(last visited on December 13, 2018)
Additionally, it appears that admission of the
evidence itself would not be a violation of federal law.
In fact, the Federal Rules of Evidence allow for the
admission of such evidence. See Fed. R. Evid. 404(b)
(providing that evidence of a crime, wrong or other
act “may be admissible for . . . proving motive, oppor­
tunity, intent, preparation, plan, knowledge, identity,
absence of mistake or lack of accident.”).
Moreover, even if the evidence should not have
been admitted, petitioner has not been prejudiced. As
the Superior Court noted other “overwhelming evidence
of Ritter’s guilt” was presented. Commonwealth v.
Ritter, No. 975 ED A 2012, 2013 WL 11250812 *5 (Pa.
3 Without any substantive analysis, the petitioner argues that
such extrinsic evidence should not be considered by the court
because at his trial it would have been inadmissible hearsay.
Beyond noting the issue, the petitioner does not provide a full
analysis of this issue. Thus, it is difficult for us to respond to his
argument. Suffice it to say that even if the internet or
newspaper articles are hearsay, many exceptions to the hearsay
rule exist, and it is not unlikely that the evidence would have
been admissible.
Further, besides the articles, the prosecution could have poten­
tially called to the stand the undercover investigators used in
the previous stings to explain the investigations and how the
petitioner had attempted inappropriate conduct with minor
females over the internet. Thus, we are convinced that even if
the records had been sealed at the time of the trial, the prosecu­
tion could have found a way to present the evidence of the prior
arrests, or the facts surrounding them.

1 ,

App.l3a

Super. Ct. Nov. 6, 2013). The trial court reviewed
some of this evidence in its opinion.
The facts ascertained at trial established
that Detective, purporting to be a 15-yearold minor female, engaged in conversations
of a sexual nature with Defendant over the
Internet. Defendant displayed his-penis-overa-web camera and began to masturbate so
that Detective could witness. Defendant was
advised several times that Detective was a
‘15-year-old female’ yet continued to engage
in the act of masturbation over the Internet.

,

Commonwealth v. Ritter, No. 2238 Criminal 2009,
Court of Common Pleas Monroe County Pa, attached to
Commonwealth v. Ritter, 2013 WL 11250812 (Pa.
Super Ct. Nov. 6, 2013) at 16.
During the online chat, the undercover officer
obtained the telephone number of the person with
whom he was chatting. The detective called the number
and the person he talked to indicated his name was
William Scott Ritter Jr. of Delmar, New York. Id. at
6-7. Further investigation indicated that the telephone
number itself it was a wireless number assigned to
William Ritter of Delmar, New York. Id. at 7. The
detective acquired several photographs of the petitioner
and compared them with the web camera video obtained
during the masturbation. Id. The detective determined
that masturbator in the video matched petitioner’s
pictures. Id.
Thus, certainly overwhelming evidence, without
evidence of the other arrests, supports the conclusion
that the petitioner was the person who explicitly
masturbated online to a person who purported to be

[

App.l4a

a fifteen-year old female. These actions are the basis
for all the crimes which the jury convicted the peti­
tioner. Accordingly, even if the evidence was improperly
admitted it was, as the Pennsylvania court stated,
“harmless error” and the petitioner suffered no preju­
dice.4
For all of these reasons, we will overrule the
petitioner’s objections and deny his petition for a writ
of habeas corpus. We also find that the petitioner has
not made a substantial showing of the denial of a
constitutional right. Therefore, we will decline to
issue a certificate of appealability. An appropriate order
follows.
BY THE COURT:
/s/ James M. Munlev
Judge, United States District Court
Date: December 14, 2018

4 Petitioner also argues that the Pennsylvania courts and this
court should not have access to the documents at issue because
they are currently under seal in New York state. We find no
merit to this argument. The records are part of the record of
petitioner’s state court case. Without an examination of the evi­
dence, it would be impossible to provide a full analysis of the
petitioner’s claim.

App.l5a

ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE MIDDLE
DISTRICT OF PENNSYLVANIA
(DECEMBER 14, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
WILLIAM S. RITTER, JR.,
Petitioner,
v.
JOHN TUTTLE, ET AL„
Respondents.
No. 3:15cvl235
Before: James M. MUNLEY, United States District
Judge, CARLSON, Magistrate Judge.
AND NOW, to wit, this 14th day of December 2018,
it is hereby ORDERED as follows:
1)

The petitioner’s objections to the magistrate
judge’s report and recommendation (Doc. 44)
are OVERRULED;

2)

The magistrate judge’s report and recom­
mendation (Doc. 43) is ADOPTED in that
William S. Ritter, Jr.’s habeas corpus peti­
tion is DENIED;

App.l6a

3)

For the reasons set forth in the accompanying
memorandum, we decline to issue a certificate
of appealability; and

4)

The Clerk of Court is directed to close this
case.
BY THE COURT:
/s/ James M. Munlev
Judge, United States District Court

'

App.lTa

REPORT AND RECOMMENDATION OF THE
MAGISTRATE JUDGE IN THE UNITED
STATES DISTRICT COURT FOR THE MIDDLE
DISTRICT OF PENNSYLVANIA
(JULY 5, 2018)

i

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
WILLIAM RITTER.
Petitioner,
v.
JOHN TUTTLE, ET. AL.,
Respondents.
Civil No. 3:15-CV-1235
Before: Martin C. CARLSON,
United States Magistrate Judge, MUNLEY, Judge.
Introduction

I.

This is a federal habeas corpus petition lodged
by William Ritter, a man who was convicted in the
Court of Common Pleas of Monroe County in 2011 of
various offenses relating to his attempted sexual
exploitation over the internet of a person Ritter beli­
eved to be a 15 year old girl. In fact, the person that
Ritter attempted to exploit sexualty was an under­
cover police officer posing as a young girl.
!

I

4

App.l8a

Ritter’s attempt to exploit this child was not his
first attempted predatory foray on the Internet tar­
geting minor girls. Quite the contrary, Ritter had
twice previously been caught up in undercover sting
investigations in New York state when he endeavored
to solicit children to engage in sexually explicit
conduct, only to learn that he had been communicating
with undercover police officers.
Ritter’s sexual recidivism now forms the basis
for this habeas corpus petition, with Ritter arguing
that the admission of his prior, similar bad acts in
New York state, while expressly authorized by a New
York court at the time of his trial, later violated a
New York state court sealing order, and somehow
constituted conduct that was so egregious that it
offended constitutional due process.
For the reasons set forth below, we disagree and
recommend that Ritter’s petition for writ of habeas
corpus be denied.
II.

Statement of Facts and of the Case

The factual background of this case was aptly
summarized by the Pennsylvania Superior Court in its
decision affirming Ritter’s conviction on these attempted
child sexual exploitation charges. As the Superior Court
explained:
On February 7, 2009, Detective Ryan Vennemah of the Barrett Township Police Depart­
ment was conducting undercover operations
investigating the crime of internet sexual
exploitation of children in a Yahoo Instant
Messenger chat room Detective Venneman
was acting as a young female named “Emily”

App.l9a

when he was contacted online by Ritter,
posing as “delmarm4fun,” a 44-year-old male
from Albany, New York. At the onset of the
online chat, “Emily” specifically identified
herself to Ritter as a 15-year old female
from the Poconos.
The online conversation was sexual in nature.
During the conversation, Ritter provided
“Emily” with a link to his webcam, asking
her to share photographs with him. Ritter was
particularly interested in whether “Emily’s”
ex-boyfriend took “any traditional ex pies” of
her, by which he meant nude or provocative
photographs. In response to Ritter’s repeated
requests to send additional photos, “Emily”
transmitted a photograph to which Ritter
replied, “that’l [sic] get a reaction.” Ritter then
stated that he was “waiting for [“Emily”] to
put up another pie so [he] can continue to
‘react.’” The webcam was operational at the
time and displayed a man’s face and upper
body area. When queried as to what he meant
by “react,” Ritter responded that he reacted
“below the screen, ““where [his] hands are,”
indicating his hands are “down lower.” Ritter
then communicated to “Emily” that he was
having a “big reaction here” and asked
“Emily” if she would like to see more. Ritter
then adjusted the webcam to focus on his
genital area where he exposed himself to
“Emily” and proceeded to masturbate.
Ritter turned off the webcam for a period of
time. He, however, continued to engage in sex­
ually explicit communications with “Emily,”

App.20a

including asking her if she tasted her ex­
boyfriend’s penis, her favorite sexual position,
if her ex-boyfriend ejaculated inside her, if
he used a condom, and if she performed oral
sex on him. “Emily” cautioned Ritter that she
was only 15 years old and she did not want
them to get in trouble because of their
respective ages. Unfazed by “Emily’s” age,
Ritter asked “Emily,” “you want to see it
finish?” Ritter then turned on the webcam
and ejaculated in front of the camera for
“Emily.” Detective Venneman then notified
Ritter of his undercover status and the
undercover operation and directed Ritter to
call the police station.
Ritter was subsequently charged with unlaw­
ful contact with a minor (sexual offenses), 18
Pa. Cons. Stat. Ann. § 6318(a)(1), unlawful
contact with a minor (open lewdness), 18
Pa. Cons. Stat. Ann. § 6318(a)(2), unlawful
contact with a minor (obscene and other
sexual materials and performances), 18 Pa.
Cons. Stat. Ann. § 6318(a)(4), corruption of
minors, 18 Pa. Cons. Stat. Ann. § 6301(a)(1),
criminal use of a communications facility,
18 Pa. Cons. Stat. Ann, § 7812(a), and inde­
cent exposure, 18 Pa. Cons. Stat. Ann. § 3127.
Prior to trial, the Commonwealth uncovered
information, via a Google search, of Ritter’s
prior arrests from online sex sting operations
in New York. The public internet search
yielded news articles reporting that, in
April 2011, Ritter communicated online in a
chat room with an undercover police officer

App.21a
!

posing as a 14-year-old female and arranged
to meet the “girl” at a local business in
Albany. Ritter arrived at the designated loca­
tion and was questioned by the authorities;
however, he was released without any charges
being filed. Two months later, Ritter was
again caught in the same kind of sex sting
after he tried to lure what he thought was a
16-year-old female to a fast food restaurant.
Ritter was subsequently charged, but the
Albany District Attorney placed the case on
hold.
Upon discovery of the publicly available arti­
cles regarding Ritter’s prior engagement in
Internet sex stings, the Commonwealth
requested and later received copies of those
records from the Albany County District
Attorney’s Office. The Commonwealth pro­
vided Ritter with copies of the records in
compliance with Pa. R. Crim. P. 573. Unbe­
knownst to the Commonwealth, the New
York state records were sealed at the time
they were forwarded to the Commonwealth,
prompting the Commonwealth to return the
records to the Albany County District Attor­
ney’s Office. A petition to unseal the records
was subsequently filed and granted by the
trial court in Albany County.

(

1

Thereafter, the Commonwealth filed a notice
of prior bad acts as well as a motion in
limine seeking to introduce the New York
arrest records at trial. In response thereto,
Ritter filed a motion for dismissal/change of
venue as well as a motion in limine seeking

■

i

App.22a

1

- ;y.

to preclude this evidence. The trial court held
a hearing on the motions. At the hearing,
the Commonwealth’s exhibits, consisting in
part of the New York arrest records, were
admitted under seal. After the hearing, the
trial court entered an order and accompanying
opinion granting the Commonwealth’s motion
in limine, permitting evidence of Ritter’s
prior bad acts in New York to be admitted
at trial.
Following a jury trial, Ritter was found guilty
of all but one count. Prior to sentencing, the
Supreme Court of the State of New York,
Appellate Division reversed and vacated the
order of the Albany County court unsealing
Ritter’s records. Ritter then filed a motion
for a new trial pursuant to Rule 704(B) or in
the alternative to postpone sentencing. The
trial court sentenced Ritter on October 26,
2011. At the time of sentencing Ritter made
an oral motion for extraordinary relief. After
extensive argument regarding the New York
records, the trial court denied Ritter’s request
for a new trial and sentenced Ritter to an
aggregate period of 18 to 66 months’ imprison­
ment.
(Doc. 41-7.)
Thus, Ritter’s case comes before us cast against
this tawdry backdrop of repeated episodes of attempted
sexual exploitation of young girls. Notwithstanding
Ritter’s persistent attempts at sexual misconduct
targeting minors, in this case Ritter insists that the
state court’s reliance at trial upon evidence that was
lawfully obtained from New York authorities pursuant

. App.23a ,,f.

to a state court order which was later vacated was an
error of such profound and constitutional dimensions
that it justifies extraordinary federal habeas corpus
relief.
Ritter unsuccessfully litigated this claim when he
pursued a direct appeal of his conviction and sentence,
(Doc. 41-7 and 41-8), and then initially attempted to
advance these claims in a federal habeas corpus peti­
tion which he filed on April 20, 2015. (Doc.l.) How­
ever, it was apparent from the face of Ritter’s petition
that he had not fulfilled his basic responsibility of
exhausting his state remedies with respect to these
post-conviction claims by pursuing post-conviction relief
in state court. Therefore, the district court stayed
further consideration of Ritter’s petition until he
completed the exhaustion of these post-conviction
remedies. (Doc. 24.)
Protracted state post-conviction proceedings then
ensued over the next two years. (Does. 26-37.) These
post-conviction proceedings concluded in September
of 2017 when the Pennsylvania Superior Court affirmed
the denial of Ritter’s state post-conviction petition,
finding that Ritter was no longer in custody and
therefore was no longer entitled to state PCRA relief.
(Doc. 39, Ex. S.)l We then ordered renewed merits
1 Ritter’s amended habeas corpus petition devotes great time and
attention to what Ritter deems to have been unfair treatment in
the course of these state post-conviction proceedings. Ritter also
argues at great length that the fact that he has completed service
of his state sentence while these state proceedings were pending
does not render this federal habeas corpus petition moot. (Doc.
39.) Because we have chosen to fully consider the merits of
Ritter’s underlying claims, and have found that those underlying
claims are completely lacking in merit, we need not address
these other collateral issues presented by Ritter.

App.24a

briefing of Ritter’s claims, (Doc. 40.) This petition is
now fully briefed by the parties and is, therefore, ripe
for resolution.
For the reasons set forth below, we find that
Ritter’s conviction was supported by overwhelming
evidence, and that the admission of evidence of similar
acts committed by Ritter in New York does not offend
constitutional due process principles. On this score,
we note that the Commonwealth acted in complete good
faith in procuring and presenting this evidence, having
obtained a New York state court order unsealing the
records of Ritter’s prior sexual predatory behavior at
the time of his Pennsylvania trial. Therefore, regardless
of what rulings New York state courts may have made
on this question after-the-fact as a matter of New
York state law, the immutable fact remains that when
this evidence was presented in Ritter’s Pennsylvania
trial it had been lawfully obtained pursuant to court
order from a New York state court. Moreover, there
was nothing inherently improper about the use of this
evidence at trial. Quite the contrary, the evidence
seems plainly admissible, and Ritter may not convert
matters of statutory interpretation relating to New
York laws into errors of constitutional significance
which warrant federal habeas corpus relief. Therefore,
we recommend that Ritter’s petition for writ of
habeas corpus be denied.
III. Discussion
A. Substantive Standards for Habeas Petition
A state prisoner seeking to invoke the power of
this Court to issue a writ of habeas corpus must satisfy

App.25a

the standards prescribed by 28 U.S.C. § 2254, which
provides in part as follows:
(a) The Supreme Court, a Justice thereof, a circuit
judge, or a district court shall entertain an appli­
cation for a writ of habeas corpus in behalf of a
person in custody pursuant to the judgment of a
State court only on the ground that he is in
custody in violation of the Constitution or laws or
treaties of the United States.
(b)(l) An application for a writ of habeas corpus
on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
unless it appears that—
(A) the applicant has exhausted the remedies
available in the courts of the State;
[...]
(2) An application for a writ of habeas corpus
may be denied on the merits, notwithstanding the
failure of the applicant to exhaust the remedies
available in the courts of the State.
28 U.S.C. § 2254 (a) and (b).
As this statutory text implies, state prisoners must
meet exacting substantive and procedural benchmarks
in order to obtain habeas corpus relief. At the outset,
a petition must satisfy exacting substantive stan­
dards to warrant relief. Federal courts may “entertain
an application for a writ of habeas corpus on behalf
of a person in custody pursuant to the judgment of a
State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of
the United States.” 28 U.S.C. § 2254(a). By limiting
habeas relief to state conduct which violates “the

App.26a

Constitution or laws or treaties of the United States,”
§ 2254 places a high threshold on the courts. Typically,
habeas relief will only be granted to state prisoners
in those instances where the conduct of state proceed­
ings led to a “fundamental defect which inherently
results in a complete miscarriage of justice” or was
completely inconsistent with rudimentary demands
of fair procedure. Reed v. Farley, 512 U.S. 339, 354
(1994).
Thus, claimed violations of state law, standing
alone, will not entitle a petitioner to § 2254 relief,
absent a showing that those violations are so great as
to be of a constitutional dimension. See Priester v.
Vaughan, 382 F.3d 394, 401-02 (3d Cir. 2004). This
principle has particular relevance in the instant case.
At bottom, Ritter’s petition advances an evidentiary
argument grounded upon alleged violations of New York
state law. Specifically, Ritter seems to assert that
the use in a Pennsylvania criminal trial of evidence
obtained from a New York court pursuant to court order
violated his constitutional rights once another New
York state court subsequently vacated this unsealing
order based upon its interpretation of the applicable
New York state statute.
Such state law evidentiary claims typically are
not cognizable in federal habeas corpus proceedings
since it is well-settled that “[aldmissibility of evidence
is a state law issue. Cf. Estelle v. McGuire, 502 U.S. 62,
72, 112 S.Ct. 475, 116 L.Ed.2d 385 (1991) (declining
to pass, upon state evidentiary issue in habeas pro­
ceeding).” Wilson v. Vaughn, 533 F.3d 208, 213 (3d Cir.
2008). Simply put, “[a] federal court may not grant
habeas corpus relief for errors of state law.” Reinert
v. Larkin, 211 F.Supp.2d 589, 608 (E.D. Pa. 2002),

App.27a

affd sub nom. Reinert v. Larkins, 379 F.3d 76 (3d Cir.
2004).
B. Ritter’s Petition Fails on its Merits
Judged by these standards we find that Ritter’s
petition for writ of habeas corpus fails on its merits.
While Ritter has advanced his post-conviction petition
in a passionate and prolix fashion, his persistence
and passion do not alter the fundamental character
of his claims, At bottom, Ritter’s complaint is that
Pennsylvania authorities who were prosecuting him
for attempting to lure a minor through the Internet
to engage sexually explicit conduct learned through
pubhcly available accounts that authorities in a neigh­
boring state, New York, had caught Ritter twice
engaging in very similar conduct. While records relating
to this prior illicit activity by Ritter had been sealed
under New York state law, the Pennsylvania prose­
cutors sought, and obtained, a state court order in
New York releasing this information to them. They
then obtained a ruling from the Pennsylvania trial
court, which was subsequently affirmed by the Penn­
sylvania Superior Court, permitting them to introduce
this evidence at Ritter’s trial. In Ritter’s view, a sub­
sequent New York state court ruling which vacated
the initial state court order releasing this information
on state statutory interpretation grounds somehow
rendered this entire procedure so constitutionally
infirm that he was entitled to federal habeas corpus
relief vacating his conviction and sentence.
We disagree.
In our view, Ritter’s contention fails for several
core reasons.

App.28a

First, Ritter’s argument conflates state evidentiary
rulings with federal constitutional guarantees. Ritter
may not glibly assert a federal constitutional infraction
based solely upon some adverse state evidentiary ruling
regarding the admissibility of bad acts evidence.
Quite the contrary, it is well-settled that the “Due
Process Clause does not permit the federal courts to
engage in a finely-tuned review of the wisdom of state
evidentiary rules: ‘It has never been thought that
[decisions under the Due Process Clause] establish
th[e federal] Court as a rule-making organ for the
promulgation of state rules of criminal procedure.’”
Marshall v. Lonherger, 459 U.S. 422, 438, n.6 (1983).
“Nor do our habeas powers allow us to reverse [a]
conviction based on a belief that the trial judge incor­
rectly interpreted the [state] Evidence Code in ruling
that the prior [act] evidence was admissible as bad
acts evidence in this case.” Estelle v. McGuire, 502 U.S.
62, 72 (1991). Therefore, to the extent that Ritter
invites us to transmute these state court evidentiary
rulings into matters of constitutional due process
dimensions, we should decline this invitation.
Moreover, to the extent that Ritter asks us to set
aside state court evidentiary rulings, he ignores the
statutory mandate of 28 U.S.C. § 2254 which requires
federal courts to give an appropriate degree of deference
to the factual findings and legal rulings made by the
state courts in the course of state criminal proceedings.
There are two critical components to this deference
mandated by 28 U.S.C. § 2254. First, with respect to
legal rulings by state courts, under § 2254(d), habeas
relief is not available to a petitioner for any claim
that has been adjudicated on its merits in the state
courts unless it can be shown that the decision was

App.29a

either: (l) “contrary to” or involved an unreasonable
application of clearly established case law; see 28
U.S.C. § 2254(d)(1); or (2) was “based upon an unrea­
sonable determination of the facts,” see 28 U.S.C.
§ 2254(d)(2). Applying this deferential standard of
review, federal courts frequently decline invitations
by habeas petitioners to substitute their legal judg­
ments for the considered views of the state trial and
appellate courts. See Rice v. Collins, 546 U.S. 333, 33839 (2006); see also Warren v. Kyler, 422 F.3d 132,
139-40 (3d Cir. 2006); Gattis v. Snyder, 278 F.3d 222,
228 (3d Cir. 2002), In addition, § 2254(e) provides
that the determination of a factual issue by a state
court is presumed to be correct unless the petitioner
can show by clear and convincing evidence that this
factual finding was erroneous. See 28 U.S.C. § 2254
(e)(1). This presumption in favor of the correctness of
state court factual findings has been extended to a
host of factual findings made in the course of criminal
proceedings, and fatally undermines the claims made
here by Ritter. See, e.g., Maggio v. Fulford, 462 U.S.
Ill, 117 (1983) (per curiam); Demosthenes v. Baal,
495 U.S. 731, 734-35 (1990).
In fact, Ritter simply has not shown that the
Pennsylvania state court rulings entailed either an
unreasonable application of clearly established law
or an unreasonable determination of facts. Quite the
contrary, these state court rulings, which permitted
introduction of acts of a very similar nature in Ritter’s
attempted child exploitation case are entirely consistent
with settled case law which has long recognized the
relevance of such evidence, both in state and federal
court. Thus, the Pennsylvania rules of evidence express­
ly allow for introduction of such proof when it is

-s y -

App.SOa

relevant to questions of motive, intent, absence of
mistake, or shows the existence of a common scheme,
plan or design. See e.g., Commonwealth v. Cousar,
928 A.2d 1025, (Pa. Super. 2007); Commonwealth v
Athens, 990 A.2d 1181 (Pa. Super. 2010); Common­
wealth v. O’Brien, 836 A.2d 966 (Pa. Super. 2003).
“Moreover, the Federal Rules of Evidence expressly
allows such testimony in sex crime cases. In fact, Fed­
eral Rules of Evidence 413 and 414 provide that when
a criminal defendant is accused of child molestation
or sexual assault, ‘the court may admit evidence that
the defendant committed any other child molestation’
or sexual assault, and ‘[t]he evidence may be considered
on any matter to which it is relevant.’ Fed. R. Evid.
413, 414. No Court of Appeals which has considered
the constitutionality of Fed. R. Evid. 413 or 414 has
concluded that they violated due process, see United
States v. Schaffer, 851 F.3d 166, 177 n.56 (2d Cir.
2017) (collecting cases across Courts of Appeal, all of
which have held that Rule 413 or 414 do not violate
the Due Process Clause).” Allison v. Superintendent
Waymart SCI, 703 F. App’x 91, 97 (3d Cir. 2017).
Accordingly, it has been held that an argument by a
habeas corpus petitioner, like the claim advanced
here by Ritter, which is based on allegations that a
state court erred in introducing other similar sexual
misconduct evidence at a state trial, simply finds no
purchase as a federal constitutional claim warranting
habeas corpus relief. Id,
Notwithstanding this settled case law, Ritter
insists that the subsequent New York court decision
vacating this state court order that unsealed his prior
sex offense records based upon the court’s interpreta­
tion of a New York state statute somehow raises issues

y

»V*

App.31a

of constitutional dimension which compel federal habeas
corpus relief. We disagree. At bottom, Ritter’s argu­
ment invites us to equate an alleged error by a state
court in the interpretation of a state statute with a
federal due process violation. However, the equiva­
lence which Ritter attempts to draw is a false equiva­
lence. In fact, the Supreme Court has expressly
rejected the notion that alleged state court errors in
the application of state law present questions of a con­
stitutional dimension justifying federal habeas corpus
relief. For example, in Wilson v. Corcoran, 562 U.S. 1
(2010) a state prisoner brought a federal habeas corpus
claim which was premised upon alleged errors by the
state court in the application of state law. In terms
that are equally applicable here, the Supreme Court
rejected the argument that these alleged state court
errors in applying state law rose to the level of a cog­
nizable federal habeas corpus claim, stating that:
[l]t is only noncompliance with federal law
that renders a State’s criminal judgment
susceptible to collateral attack in the federal
courts. The habeas statute unambiguously
provides that a federal court may issue the
writ to a state prisoner “only on the ground
that he is in custody in violation of the Con­
stitution or laws or treaties of the United
States.” 28 U.S.C. § 2254(a). And we have
repeatedly held that ‘“federal habeas corpus
relief does not lie for errors of state law.’”
Estelle v. McGuire, 502 U.S. 62, 67, 112 S.
Ct. 475, 116 L.Ed.2d 385 (1991) (quoting
Lewis v. Jeffers, 497 U.S. 764, 780, 110 S.
Ct. 3092, 111 L.Ed.2d 606 (1990)). “[I]t is not
the province of a federal habeas court to

App.32a

reexamine state-court determinations on
state-law questions.” 502 U.S., at 67-68, 112
S.Ct. 475.
Wilson v. Corcoran, 562 U.S. 1, 5, (2010) (emphasis
in original). See also Estelle v. McGuire, 502 U.S. 62,
72 (1991) (“Nor do our habeas powers allow us to
reverse [a] conviction based on a belief that the trial
judge incorrectly interpreted the [state] Evidence
Code in ruling that the prior [act] evidence was
admissible as bad acts evidence in this case.”)
Finally, Ritter’s preoccupation with these matters
of statutory interpretation under New York law ignores
a transcendent, immutable and fundamental truth—the
compelling evidence of his guilt. The evidence discloses
that on three separate occasions Ritter trolled the
Internet, attempting to lure children to engage in
sexually explicit conduct in order to indulge his erotic
gratification. Such conduct is criminal and repre­
hensible, and in the absence of any viable constitutional
claim Ritter simply cannot be heard to complain that
the compelling, powerful evidence of his guilt has led
to his conviction. Recognizing that habeas relief will
only be granted to state prisoners in those instances
where the conduct of state proceedings led to a
“fundamental defect which inherently results in a
complete miscarriage of justice” or was completely in­
consistent with rudimentary demands of fair proce­
dure, Reed v. Farley, 512 U.S. 339, 354 (1994), we
find that these matters of state law presented by
Ritter in this petition simply do not rise to the level
of a federal claim warranting extraordinary habeas
corpus relief. Therefore this petition should be denied.

App.33a

IV. Recommendation
Accordingly, for the foregoing reasons, upon
consideration of this Petition for Writ of Habeas
Corpus filed pursuant to 28 U.S.C. § 2254, and the
Response in Opposition to this Petition, IT IS REC­
OMMENDED that the Petition be denied and that a
certificate of appealability should not issue. The Peti­
tioner is further placed on notice that pursuant to
Local Rule 72.3:
Any party may object to a magistrate judge’s
proposed findings, recommendations or report
addressing a motion or matter described in
28 U.S.C. § 636(b)(1)(B) or making a recom­
mendation for the disposition of a prisoner
case or a habeas corpus petition within four­
teen (14) days after being served with a copy
thereof. Such party shall file with the clerk of
court, and serve on the magistrate judge and
all parties, written objections which shall
specifically identify the portions of the pro­
posed findings, recommendations or report
to which objection is made and the basis for
such objections. The briefing requirements set
forth in Local Rule 72.2 shall apply. A judge
shall make a de novo determination of those
portions of the report or specified proposed
findings or recommendations to which objec­
tion is made and may accept, reject, or modify,
in whole or in part, the findings or recommen­
dations made by the magistrate judge. The
judge, however, need conduct a new hearing
only in his or her discretion or where required
by law, and may consider the record devel­
oped before the magistrate judge, making his

App.34a ^

or her own determination on the basis of that
record. The judge may also receive further
evidence, recall witnesses or recommit the
matter to the magistrate judge with instruc­
tions.
Submitted this 5th day of July, 2018.
Is/ Martin C. Carlson
United States Magistrate Judge

!

App.35a

ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT
DENYING PETITION FOR REHEARING
(JULY 10, 2019)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
WILLIAM S. RITTER, JR.,
Appellant,
v.
JOHN R. TUTTLE;
ATTORNEY GENERAL PENNSYLVANIA,
No. 19-1171
On Appeal from the United States District Court
for the Middle District of Pennsylvania
(M.D. Pa. No. 3-15-cv-01235)
District Judge: James M. Munley
Before: SMITH, Chief Judge,
MCKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, and MATEY, Circuit Judges.
The petition for rehearing filed by appellant in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other, available circuit judges of the

App.36a

circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition
for rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
/s/ Cheryl Ann Krause
Circuit Judge
Dated: July 10, 2019
MB/arr/cc: WSR

App.37a

!

ORDER OF THE
SUPERIOR COURT OF PENNSYLVANIA
(SEPTEMBER 12, 2017)
IN THE SUPERIOR COURT OF PENNSYLVANIA
COMMONWEALTH OF PENNSYLVANIA,
v.
WILLIAM SCOTT RITTER JR.,
Appellant.
1

No. 3333 EDA 2016

Appeal from the PCRA Order October 6, 2016
In the Court of Common Pleas of Monroe County
Criminal Division at No(s): CP-45-CR-0002238-2009
'

Before: BOWES, J., OTT, J. and
Ford ELLIOTT, P.J.E.

Memorandum by OTT, J.:

i

William Scott Ritter, Jr., appeals, pro se, from
the order entered October 6, 2016, in the Monroe
County Court of Common Pleas dismissing his first
petition for collateral relief filed pursuant to the Post
Conviction Relief Act (“PCRA”).1 Ritter seeks relief
from judgment of sentence of an aggregate term of 18
to 66 months’ imprisonment imposed October 26, 2011,
following his jury conviction of, Inter alia, indecent
1 42 Pa. C.S. §§ 9541-9546.
!

I

App.38a

exposure and three counts of unlawful contact with a
minor, based upon sexually explicit communications
he had with a police detective who was posing as a
15-year-old female. On appeal, Ritter contends the
PCRA court abused its discretion when it failed to
consider newly discovered evidence that would have
precluded the Commonwealth from presenting evidence
of Ritter’s prior arrests for similar crimes in New
York state. Because we conclude Ritter is no longer
eligible for PCRA relief, we affirm.
The facts underlying Ritter’s arrest and conviction
are well known to, the parties, and were summarized
by a panel of this Court in the memorandum decision
affirming Ritter’s* sentence on direct appeal. See
Commonwealth v. Ritter, 91 A.3d 1273 [975 EDA 2012]
(Pa. Super. 2013) (unpublished memorandum). There­
fore, we need not; reiterate them herein. The follo­
wing facts, however, are relevant to the issues raised
on appeal:
Prior to trial, the Commonwealth uncovered
information, via a Google search, of Ritter’s
prior arrests from online sex sting operations
in New York. The public internet search
yielded news articles reporting that, in
April 2011, Ritter communicated online in a
chat room with an undercover police officer
posing as a 14-year-old female and arranged
to meet the !“girl” at a local business in
Albany. Ritter j arrived at the designated loca­
tion and was questioned by the authorities;
however, he was released without any charges
being filed. Two months later, Ritter was
again caught in the same kind of sex sting
after he tried to lure what he thought was a

’>

'

App.39a
16-year-old female to a fast food restaurant.
Ritter was subsequently charged, but the
Albany District Attorney placed the case on
hold.
Upon discovery of the publicly available
articles regarding Ritter’s prior engagement
in internet sex stings, the Commonwealth
requested and later received copies of those
records from the Albany County District
Attorney’s Office. The Commonwealth pro­
vided Ritter with copies of the records in
compliance with Pa. R. Crim. P. 573. Unbe­
knownst to the Commonwealth, the New
York state records were sealed at the time
they were forwarded to the Commonwealth,
prompting the Commonwealth to return the
records to the Albany County District Attor­
ney’s Office. A petition to unseal the records
was subsequently filed and granted by the
trial court in Albany County [.] 1
Thereafter, the Commonwealth filed a notice
of prior bad acts as well as a motion in
limine seeking to introduce the New York
arrest records at trial. In response thereto,
Ritter filed a motion for dismissal/change of
venue as well as a motion in limine seeking
to preclude this evidence. The trial court
held a. hearing on the motions. At the
hearing, the Commonwealth’s exhibits,
1 Ritter filed a motion to vacate the order entered unsealing the
record in Albany County which was, denied. Ritter then appealed
that decision to the Supreme Court of the State of New York,
Appellate Division.

V A.

”

’ App.40a

consisting in part of the New York arrest
records, were admitted under seal. After the
hearing, the trial court entered an order and
accompanyingj opinion granting the Common­
wealth’s motion in limine, permitting evi­
dence of Ritter’s prior bad acts in New York
to be admittedI . at trial.
I

Following a jury trial, Ritter was found
guilty of all but one count. Prior to senten­
cing. the Supreme Court of the State of New
York. Appellate Division reversed and
vacated the Order of the Albany County
court unsealirlg Ritter’s records. Ritter then
filed a motion for a new trial pursuant to
Rule 704(B) or in the alternative to postpone
sentencing. The trial court sentenced Ritter
on October 26,r 2011. At the time of sentencing Ritter made an oral motion for extra­
ordinary relief. After extensive argument
regarding the; New York records, the trial
court denied Ritter’s request for a new trial
and sentenced Ritter to an aggregate period
of 18 to 66 months’ imprisonment. Ritter
filed post-sentence motions, which the trial
court denied. \
Id. at *2 (emphasis' added).
As noted supra, Ritter’s judgment of sentence
was affirmed on direct appeal. On appeal, Ritter argued,
inter alia, that the [trial court erred in failing to grant
a new trial when [the Supreme Court of New York
Appellate Division reversed the Albany County court’s
order unsealing Ritter’s arrest records. See id. at *3.
The panel determined the information regarding
Ritter’s prior arrests for Internet sex. crimes was

I

App.41a’" 'r

relevant and its “probative value outweighed any
prejudicial effect to Ritter.” Id. Moreover, because the
records were “unsealed at the time of their production
to the Commonwealth . . . and at that time of Ritter’s
jury trial[,]” the panel concluded the trial court did
not err in permitting the Commonwealth to admit the
records into evidence. Id. (emphasis in original). Sub­
sequently, on May 21, 2014, the Pennsylvania Supreme
Court denied Ritter’s petition for allowance of appeal.
Commonwealth v. Ritter, 92 A.3d 811 (Pa. 2014).
On April 6, 2015, Ritter filed a timely, pro se
PCRA petition, again challenging the trial court’s ad­
mission of his New York arrest records. Ritter argued
that a February 5, 2015, decision of the Albany County,
New York court, precluding any reference to the nowsealed arrest records during his New York state Sexual
Offenders Registration Act (“SORA”) hearing, must
be afforded “full faith and credit” in his Pennsylvania
proceedings. See PCRA Petition, 4/6/2015, at 12-18.
By order dated January 14, 2016, the PCRA court
denied Ritter’s motion without first conducting a
hearing.
Ritter filed a timely appeal. However, both the
PCRA court and the Commonwealth asked this Court
to remand the matter because the PCRA court failed
to provide Ritter with the requisite notice of its
intent to dismiss the petition without first conducting
an .evidentiary hearing pursuant to Pa. R. Crim. P.
907. On July 12, 2016, this Court entered a per curium
order vacating the order denying PCRA relief and
remanding for further proceedings. See Commonwealth
y. Ritter, 380 EDA 2016, Order, 7/12/2016. ':

v: * App.42a

On August 29, 2016, Ritter requested the PCRA
court conduct a Grazier2 hearing, so that he could
continue to proceed pro se. Three days later, Ritter filed
a pro se petition for an evidentiary hearing. Thereafter,
on September 9, 2016, the PCRA court conducted a
Grazier hearing, and entered an order granting Ritter’s
request to proceed pro se. Subsequently, on Septem­
ber 15, 2016, the court issued a Pa. R. Crim. P. 907
notice of its intent to dismiss Ritter’s petition without
first conducting an evidentiary hearing. Although
Ritter filed a 44-page response, the PCRA court
entered an order dismissing Ritter’s petition on Octo­
ber 6, 2016. This timely appeal follows.3
Before we may address the issues Ritter raises on
appeal, we must first determine if Ritter is statutorily
eligible for PCRA relief. Although not addressed by
the PCRA court or either party, it is well-established
that to be eligible for PCRA relief, a petitioner must
prove that at the time relief is granted he is “currently
serving a sentence of imprisonment, probation or parole
for the crimeU” 42 Pa. C.S. § 9543(a)(l)(i). “Case law
has strictly interpreted the requirement that the
petitioner be currently serving a sentence for the crime
to be eligible for relief.” Commonwealth v. Plunkett,
151 A.3d 1108, 1109 (Pa. Super. 2016), appeal denied,
A.3d
, 2017 WL 2081583 (May 15, 2017).
This Court’s decision in Plunkett is diapositive.
In that case, the defendant filed a timely PCRA petition
2 Commonwealth v. Grazier, 713 A.2d 81 (Pa. 1998).
3 Although the PCRA court did not direct Ritter to file a coiicise
statement of errors complained of on appeal pursuant to Pa. R.A.P.
1925(b), Ritter, nevertheless, filed concise statement on Novem­
ber 2, 2016.

App.43a

while on probation following a conviction of theft by
deception. See Plunkett, supra, 151 A.3d at 1109.
The PCRA court conducted a hearing on the issues
raised in the petition and, in June of 2015, entered
an order denying relief. The defendant subsequently
filed a timely appeal. Thereafter, in January of 2016,
while the appeal was pending in this Court, the trial
court entered an order terminating the defendant’s
probationary sentence. See id. On appeal, this Court
determined the defendant was not entitled to relief
because he was no longer serving a sentence for the
conviction at issue. The panel opined: “[W]e find the
statutory requirement that a PCRA petitioner be
currently serving a sentence is applicable to the
instant circumstance where the PCRA court’s order
was issued while petitioner was still serving the re­
quired sentence, but that sentence terminated prior to
the resolution of his appeal.” Id. at 1113. See also
Commonwealth v. Turner, 80 A.3d 754 (Pa.2013)
(“Because individuals who are not serving a state
sentence have no liberty interest in and therefore no
due process right to collateral review of that sentence,
the statutory limitation of collateral review to indi­
viduals serving a sentence of imprisonment, pro­
bation, or parole is consistent with the due process pre­
requisite of a protected liberty interest”), cert, denied,
134 S. Ct. 1771 (U.S. 2014); Commonwealth v. Stultz,
114 A.3d 865, 872 (Pa. Super. 2015) (finding appel­
lant was no longer eligible for relief on DUI convic­
tions for which he had completed his sentence, but
considering collateral claims with regard to convic­
tion of fleeing while DUI), appeal denied, 125 A.3d
1201 (Pa. 2015).

App.44a

Here, Ritter was sentenced to a maximum term of
66 months’ imprisonment on October 26, 2011. The
Sentencing transcript reveals that Ritter was taken
into custody immediately following the hearing. See
N.T., 10/26/2011, at 225. Although, in his post-sentence
motion, Ritter requested bail pending appeal, the court
denied his request. See Order, 3/20/2012. Accord­
ingly, Ritter’s sentence expired on April 26, 2017,
and he is statutorily ineligible for PCRA relief.4
Because Ritter is no longer serving a sentence for
the convictions that are the subject of this PCRA
petition, he is not entitled to PCRA relief, and we
affirm the order on appeal.5
Order affirmed.
Judgment Entered.
/si Joseph D. Seletvn. Esa
Prothonotary
Date: 9/12/2017
4 In fact, Ritter acknowledged this in two prior filings. See Motion
for Post-Conviction Collateral Relief, 4/6/2015, at 5 (stating
“Petitioner will complete his period of parole on April 2 [6],
2017”); Letter to PCRA court dated 8/25/2016, at 1 (requesting
the court “expeditiously process” his petition because his “parole
expires On April 26, 2017”).
5 We note that because Ritter was still serving his sentence at
the time the PCRA court issued its Rule 907 notice and accom­
panying opinion, the court addressed the merits of the issues
raised on appeal. However, it is well-settled that “we may affirm
a PCRA court’s decision on any grounds i f the record supports
it.” Commonwealth v. Benner, 147 A.3d 915, 919 (Pa. Super. 2016)
(quotation omitted).

\

App.45'a
ORDER OF THE COURT OF COMMON PLEAS OF
MONROE COUNTY 43RD JUDICIAL DISTRICT
DISMISSING PCRA PETITION
(OCTOBER 8, 2016)
COURT OF COMMON PLEAS OF MONROE
COUNTY FORTY-THIRD JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
COMMONWEALTH OF PENNSYLVANIA
v.
WILLIAM SCOTT RITTER, JR.,
Defendant.
No. 2238 CRIM 2009
PCRA
Before: Stephen M. HIGGINS, Judge.
AND NOW, this 6th day of October 2016, after
review of Defendant’s Response to Notice of intent to
Dismiss PCRA Petition, it is hereby ORDERED that
Defendant’s PCRA Petition is DISMISSED.
Defendant is hereby ADVISED of the following:
a)

b)

that he has the right within 30 days from
the date of this Order to file an appeal with
the Pennsylvania Superior Court;
that he has the right to assistance of counsel
in the preparation of the appeal; and,

App.46a

c)

if indigent, he has the right to appeal in
forma pauperis and to proceed with assigned
counsel.

It is further ORDERED that the Clerk of Courts
is directed to serve this Order on Defendant by certified
mail, return receipt requested.
BY THE COURT:
/si Stephen M. Higgins
Judge
cc: Michael Rakaczewski, Esquire, ADA
Wilham Scott Ritter, Jr., pro se, via certified mail,
return receipt
Public Defender’s Office
Clerk of Courts

App.47a
ORDER OF THE SUPREME COURT OF
PENNSYLVANIA MIDDLE DISTRICT
DENYING PETITION FOR ALLOWANCE
(MAY 21, 2014)
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
COMMONWEALTH OF PENNSYLVANIA,
Respondent,
v.
WILLIAM SCOTT RITTER, JR.,
Petitioner.
No. 936 MAL 2013
Petition for Allowance of Appeal
from the Order of the Superior Court
PER CURIAM
AND NOW, this 21st day of May, 2014, the
Petition for Allowance of Appeal is DENIED.

/

App.48a

ORDER OF THE
SUPERIOR COURT OF PENNSYLVANIA
(NOVEMBER 6, 2013)
IN THE SUPERIOR COURT OF PENNSYLVANIA
COMMONWEALTH OF PENNSYLVANIA,
Appellee,
v.
WILLIAM SCOTT RITTER, JR.,
Appellant.
No. 975 EDA 2012
Appeal from the Judgment of Sentence October 26, 2011
In the Court of Common Pleas of Monroe County
Criminal Division at No(s): CP-45-CR-0002238-2009
Before: PANELLA, J., ALLEN, J„ and PLATT, J.*
Memorandum by PANELLA, J.
Appellant, William Scott Ritter, Jr., appeals from
the judgment of sentence entered on October 26,
2011, in the Court of Common Pleas of Monroe
County. After careful review, we affirm.
On February 7, 2009, Detective Ryan Venneman of
the Barrett Township Police Department was con* Retired Senior Judge assigned to the Superior Court.

- '

App.49a

ducting undercover operations investigating the crime
of internet sexual exploitation of children in a Yahoo
Instant Messenger chat room. Detective Venneman
was acting as a young female named “Emily” when
he was contacted online by Ritter, posing as “delmarm4fun,” a 44-year-old male from Albany, New York.
At the onset of the online chat, “Emily” specifically
identified herself to Ritter as a 15-year-old female
from the Poconos.
The online conversation was sexual in nature.
During the conversation, Ritter provided “Emily” with
a link to his webcam, asking her to share photographs
with him. Ritter was particularly interested in whether
“Emily’s” ex-boyfriend took “any traditional ex pits”
of her, by which he meant nude or provocative photo­
graphs. In response to Ritter’s repeated requests to
send additional photos, “Emily” transmitted a photo­
graph to which Ritter replied, “that’l [sic] get a reaction.”
Ritter then stated that he was “waiting for [“Emily’]
to put up another pic so [he] can continue to ‘react.’”
The webcam was operational at the time and displayed
a man’s face and upper body area. When queried as
to what he meant by “react,” Ritter responded that
he reacted “below the screen,” “where [his] hands are,”
indicating his hands are “down lower.” Ritter then
communicated to “Emily” that he was having a “big
reaction here” and asked “Emily” if she would like to
see more. Ritter then adjusted the webcam to focus on
his genital area where he exposed himself to “Emily”
and proceeded to masturbate.
Ritter turned off the webcam for a period of time.
He, however, continued to engage in sexually explicit
communications with “Emily,” including asking her if
she tasted her ex-boyfriend’s penis, her favorite sexual

App.50il

position, if her ex-boyfriend ejaculated inside her, if
he used a condom, and if she performed oral sex on
him. “Emily” cautioned Ritter that she was only 15
years old and she did not want them to get in trouble
because of their respective ages. Unfazed by “Emily’s”
age, Ritter asked “Emily,” “you want to see it finish?”
Ritter then turned on the webcam and ejaculated in
front of the camera for “Emily.” Detective Venneman
then notified Ritter of his undercover status and the
undercover operation and directed Ritter to call the
police station.
Ritter was subsequently charged with unlawful
contact with a minor (sexual offenses), 18 Pa. Cons.
Stat. Ann. § 6318(a)(1), unlawful contact with a minor
(open lewdness), 18 Pa. Cons. Stat. Ann. § 6318(a)(2),
unlawful contact with a minor (obscene and other sex­
ual materials and performances), 18 Pa. Cons. Stat.
Ann. § 6318(a)(4), corruption of minors, 18 Pa. Cons.
Stat. Ann. § 6301(a)(1), criminal use of a communica­
tions facility, 18 Pa. Cons. Stat. Ann. § 7512(a), and
indecent exposure, 18 Pa. Cons. Stat. Ann. § 3127.
Prior to trial, the Commonwealth uncovered infor­
mation, via a Google search, of Ritter’s prior arrests
from online sex sting operations in New York. The
public Internet search yielded news articles reporting
that, in April 2011, Ritter communicated online in a
chat room with an undercover police officer posing as
a 14-year-old female and arranged to meet the “girl” at
a local business in Albany. Ritter arrived at the
designated location and was questioned by the author­
ities; however, he was released without any charges
being filed. Two months later, Ritter was again
caught in the same kind of sex sting after he tried to
lure what he thought was a 16-year-old female to a

App.51a

'■i

■

fast food restaurant. Ritter was subsequently charged,
but the Albany District Attorney placed the case on
hold.
Upon discovery of the publicly available articles
regarding Ritter’s prior engagement in internet sex
stings, the Commonwealth requested and later received
copies of those records from the Albany County District
Attorney’s Office. The Commonwealth provided Ritter
with copies of the records in compliance with Pa. R.
Crim. P. 573, Unbeknownst to the Commonwealth, the
New York state records were sealed at the time they
were forwarded to the Commonwealth, prompting the
Commonwealth to return the records to the Albany
County District Attorney’s Office. A petition to unseal
the records was subsequently filed and granted by
the trial court in Albany County 1.
Thereafter, the Commonwealth filed a notice of
prior bad acts as well as a motion in limine seeking
to introduce the New York arrest records at trial. In
response thereto, Ritter filed a motion for dismissal/
change of venue as well as a motion in limine seeking
to preclude this evidence. The trial court held a
hearing on the motions, At the hearing, the Common­
wealth’s exhibits, consisting in part of the New York
arrest records, were admitted under seal. After the
hearing, the trial court entered an order and accom­
panying opinion granting the Commonwealth’s motion
in limine, permitting evidence of Ritter’s prior bad acts
in New York to be admitted at trial.
1 Ritter filed a motion to vacate the order entered unsealing the
record in Albany County which was denied. Ritter then appealed
that decision to the Supreme Court of the State of New York,
Appellate Division.

L-:

App.52a

-

Following a jury trial, Ritter was found guilty of
all but one count. Prior to sentencing, the Supreme
Court of the State of New York, Appellate Division
reversed and vacated the order of the Albany County
court unsealing Ritter’s records. Ritter then filed a
motion for a new trial pursuant to Rule 704(B) or in
the alternative to postpone sentencing. The trial
court sentenced Ritter on October 26, 2011. At the
time of sentencing Ritter made an oral motion for
extraordinary relief. After extensive argument regard­
ing the New York records, the trial court denied Ritter’s
request for a new trial and sentenced Ritter to an
aggregate period of 18 to 66 months’ imprisonment.
Ritter filed post-sentence motions, which the trial
court denied. This timely appeal followed.
On appeal, Ritter raises the following issues for
our review.
1.

Did the trial judge err in allowing the prose­
cution to bring out at trial the Appellant’s
two police encounters involving like conduct
in New York in 2001?
a.

Should the trial judge have granted the
Appellant a new trial when it became
known that the New York courts had
ruled on October 20, 2011 that the evi­
dence of the Appellant’s police encoun­
ters in New York in 2001 should never
had been unsealed and made available
to Pennsylvania prosecutors?

b.

Did the trial judge abuse her discretion
in admitting the New York evidence
under Rule 404(b) and Rule 403?

App.53a
*

..

. •?

*

1

-'

c.

Should the trial judge have granted the
Appellant’s motion for mistrial at the
conclusion of the prosecutor’s crossexamination of the Appellant and his
closing speech to the jury which empha­
sized the New York evidence?

d.

Should the trial judge have granted the
Appellant’s motion for a mistrial during
the cross-examination of the Appellant
with a statement he allegedly made to
New York investigators?

e.

Has the Commonwealth established that
this error was harmless beyond a rea­
sonable doubt?

Appellant’s Brief, at 2-3.
“We review a trial court’s decision to grant... a
motion in limine with the same standard of review as
admission of evidence at trial.” Commonwealth v.
Flamer, 53 A.3d 82, (Pa. Super. 2012) (citation omitted).
“The admission of evidence is a matter vested within
the sound discretion of the trial court, and such a
decision shall be reversed only upon a showing that
the trial court abused its discretion.” Commonwealth
v. Weakley, 972 A.2d 1182, 1188 (Pa. Super. 2009).
“[If] the trial court overrides or misapplies the law,
discretion is then abused and it is the duty of the
appellate court to correct the error.” Commonwealth v.
Surina, 652 A;2d 400, 402 (Pa. Super. 1995) (internal
citations and quotations omitted). “In determining
whether evidence should be admitted, the trial court
must weigh the relevant and probative value of the
evidence against, the prejudicial impact of that evi­
dence.” Weakley, 972 A.2d at 1188 (citation omitted):

g

1

A

*

•

A

App.54a

t'7''"

After a careful review of the certified record, as
well as the briefs of the parties, we are confident that
the trial court did not err in allowing the admission
of Ritter’s New York records into evidence. The New
York records were unsealed at the time of their
production to the Commonwealth by the Albany County
Court and at the time of Ritter’s jury trial. The
records elicited a common scheme or plan as well as
Ritter’s propensity for crimes involving the Internet
sexual exploitation of children and their probative
value outweighed any prejudicial effect to Ritter.
The trial court ably and methodically reviewed and
analyzed all of the issues raised by Ritter related to
admissibility of the New York records in its opinion
filed on March 20, 2012. As such, we affirm Issues
l(a) and (b) on the basis of that well-written decision.
See Trial Court Opinion, filed 3/20/12.
Similarly, the issues presented by Ritter in
subsections (c), (d), and (e) supra, lack merit. Ritter
argues that the trial court erred in denying his motion
for a mistrial at the conclusion of the Commonwealth’s
cross-examination of Ritter and, the Commonwealth’s
closing argument to the jury as both elicited improper
testimony relating to statements Ritter made to New
York investigators. We disagree.
“The decision to declare a mistrial is within the
sound discretion of the [trial] court and will not be
reversed absent a flagrant abuse of discretion. A
mistrial is an extreme remedy . . . [that] . . . must be
granted only when, an incident is of such a nature
that is unavoidable effect is to deprive defendant of a
fair trial.” Commonwealth v. Bracey, 831 A.2d 678,
682-683 (Pa. Super. 2003) (internal quotation marks
and citations omitted; brackets in original).

App.SSa

Here, Ritter takes issues with the following
exchange during the Commonwealth’s cross-examin­
ation:
PROSECUTOR: So you’re saying that in Febru­
ary of ‘07 you must be back in this dark
place again that you were in in 2001; right?
RITTER: Not as severe, but, yes, I was.
PROSECUTOR: And you were back doing the
same thing in regard to masturbating and
so forth over the Internet; right?
RITTER: Yes, sir.
PROSECUTOR: And, obviously, that’s a problem;
correct?
RITTER: Yes, sir.
PROSECUTOR: You tried the best you could to
contain it but you couldn’t contain it; right?
RITTER: Yes, sir.
PROSECUTOR: Just one thing. Going back to
2001. You actually told Tom Breslin that you
needed help because your problem prog­
ressed to the point where you wanted to meet
underaged girls.
N.T., Trial, 4/13/11, at 123-124. Defense counsel,
Attorney Kohlman, objected to this hne of questioning
and immediately requested permission to approach the
bench where he motioned for a mistrial. See id., at
124. The trial court denied counsel’s request for a
mistrial, but permitted Attorney Kohlman to place
his reasons for requesting a mistrial on the record.
See id., at 124-125.

i

• App.56a 7

The crux of defense counsel’s reasoning was that
“40 some minutes” of cross-examination was “focused
solely on events in New York” and, in particular,
relative to out-of-court statements made by Ritter
during the course of investigations in New York. See
Id., at 125. Defense counsel argued that the out-ofcourt statements referenced by the Commonwealth on
cross-examination were not in the discovery provided
by the Commonwealth and that the “first time that
[the defense] had any notification whatsoever of
anything else to deal with other than the chats them­
selves, was approximately 11:30 in the morning on
Monday the day before trial.” Id., at 125-126. As such,
defense counsel argued that it was “extraordinarily
prejudicial” to allow the information to be used
during cross-examination. Id., at 126.
In contrast, the Commonwealth argued that Ritter
opened the door to such questioning on cross-examin­
ation by his own testimony that “he has a problem,
that he goes on the Internet, that there is a sexual
contact between adults.” Id., at 127. The Common­
wealth queried Ritter in an effort to elicit “what kind
of conduct” Ritter was referring to because Ritter said
“he masturbates in front of woman” and “the whole
reason he does this in ‘01 is to get caught by the
police because he has a problem, he needs help.” Id., at
127.
The trial co\irt denied defense counsel’s request
for a mistrial because “[Ritter] testified that he never
intended to enter in an adult chat room for the purpose
of having inappropriate conversations with a minor.”
Id. As such, the testimony elicited on cross-examination
was appropriate.

I

" * App.57a

We can find no abuse of discretion in this ruling.
Ritter opened the door to cross-examination on this
issue by his own testimony.
Lastly, we can find no abuse of discretion on the
part of the trial court in denying Ritter’s motion for
mistrial at the conclusion of the Commonwealth’s
closing argument.
It is well established that a prosecutor is per­
mitted to vigorously argue his case so long
as his comments are supported by the evi­
dence or constitute legitimate inferences
arising from that evidence.
In considering a claim of prosecutorial mis­
conduct, our inquiry is centered on whether
the defendant was deprived of a fair trial,
not deprived of a perfect one. Thus, a
prosecutor’s remarks do not constitute
reversible error unless their unavoidable
effect... [was] to prejudice the jury, forming
in their minds fixed bias and hostility
toward the defendant so that they could
not weigh the evidence objectively and
render a true verdict. Further, the allegedly
improper remarks must be viewed in the
context of the closing argument as a
whole.
Commonwealth v. Luster71 A.3d 1029, 1048 (Pa.
Super. 2013) (en banc) (internal quotation marks and
citations omitted).
Here, Ritter contends that the Commonwealth
“went way beyond, the boundaries of intent and mistake
and knowledge and for all the world was arguing
common schedule, plan and design” in his closing

T

1

* - v-*-rt

App.58a

argument. See N.T. Trial, 4/14/11, at 63. Specifically
Ritter takes issue with the following comments by
the Commonwealth: (l) that the New York cases were
important because in those incidents, Ritter twice
engaged in internet chats with what he should have
believed was an underage girl, see id., at 36; (2) that
the prosecutor referred to the screen name that Ritter
had used, “On Exhibit”, as supporting an inference
that he was an “exhibitionist.” see id., at 42; (3) that
in both New York chats, Ritter referred to mastur­
bation; see id:, (4) that in the New York cases in 2001
Ritter claimed he wanted to be caught; see id., at 4347; and (5) that since Ritter had been engaged in
similar chats in two previous occasions in New York,
he had to know that in his 2009 chat in Pennsylvania,
the other party could be a minor and that conversa­
tion would be illegal. See id., at 50, 53. See, Appel­
lant’s Brief at 17-19.
Based upon our review of the record, we are
confident that the Commonwealth’s closing arguments
were fully support by the evidence presented or were
suitable inferences derived therefrom. As stated pre­
viously, the admission of the New York evidence was
permissible as it was relevant under Rule 404(b) and
unsealed at the time of its admission. Therefore, any
reference to the New York information was proper. The
statements made by the Commonwealth were in no
means inflammatory to such a degree that it would
fix bias and hostility against Ritter in the minds of
the jury. For these reasons, and in light of the over­
whelming evidence of Ritter’s guilt, we find a new
trial is not warranted on this basis.
Judgment of sentence affirmed. Jurisdiction relin­
quished.

App.59a

Judgment Entered.

:
j:

Is/ Joseph D. Seletvn. Esq
Prothonotary

i

i

Date: 11/6/2013
!

i

i

App.60a
ORDER OF THE COURT OF COMMON PLEAS
OF MONROE COUNTY 43RD JUDICIAL
DISTRICT ON DEFENDANT’S RULE 720 POSTSENTENCING MOTION FOR A NEW TRIAL OR
IN THE ALTERNATIVE RESENTENCING
(MARCH 20, 2012)
COURT OF COMMON PLEAS OF MONROE
COUNTY FORTY-THIRD JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
COMMONWEALTH OF PENNSYLVANIA,
v.
WILLIAM SCOTT RITTER, JR.,
Defendant.
No. 2238 Criminal 2009
Before: Jennifer Harlacher SIBUM, Judge.
Opinion
Defendant, William Scott Ritter, Jr., has been
charged by Criminal Complaint with three separate
counts of Unlawful Contact with a Minor, 18 Pa. C.S.
§ 6318(a)(1), (2), (4); Criminal Use of Communication
Facility, 18 Pa. C.S. § 7512(a); Possessing Instruments
of Grime, 18 Pa. C.S. § 907(a); Indecent Exposure, 18
Pa. C.S. § 3127(a); five individual counts of Criminal
Attempt to commit the crimes of Unlawful Contact with
a Minor, Obscene and Other Sexual Materials and

r
%

/
r
App.61a v' >•

Performances, Corruption of Minors, Criminal Use of
a Communications Facility, and Indecent Exposure,
18jPa. C.S. § 901(a): and five individual counts of
Criminal Solicitation to commit the crimes of Unlawful
Contact with a Minor, Obscene and Other Sexual
Materials and Performances, Corruption of Minors,
Criminal Use of a Communications Facility, and Inde­
cent Exposure, 18 Pa. C.S. § 902(a).
The charges stem from an internet investigation
by the Barrett Township Police Department. As part
of the investigation, Detective Ryan Venneman (“De­
tective”) of the Barrett Township Police Department
was conducting undercover operations and investigating
the crime of Internet sexual exploitation of children
via the computer. While conducting the investigation,
Detective purported to be a 15-year-old minor female
named “Emily.” Detective was then contacted by an
individual identified as “delmarin4fun,” a 44-year-old
male from Albany, New York. The conversation was
initiated by “delmarm4fun” in a Yahoo Instant Messen­
ger chat room.
During the conversation, “delmarm4fun” was
advised that “Emily” was a 15-year-old female from
the jPoconos, Pennsylvania. The conversation was sexual
in nature, during which “delmarm4fun” requested
“Emily” to give him another picture so he could continue
to “react”. Shortly after, he provided the purported 15
year old a link to his web camera. The camera displayed
a male’s face and upper body area. “Pelmarm4fun” later
adjusted the camera to focus on his penis area and
began to masturbate. “Emily” asked him if he had a
phone number where “she” could call him. “Delmarm4fun” provided a cell phone number of 518-365-6530.

&

’ App.62a '*

“Delmarm4fun” continued to masturbate on web
cam arid again asked “Emily’s” age. He was advised
a second time that she was 15 years old. He stated he
didn’t realize that she was 15 and turned off his web
camera. He then stated he did not want to get in
trouble and said “I was fantasizing about fucking
you.” “Emily” replied “I guess u turned it off np”.
“Delmarm4fun” responded by asking “Emily” if she
wanted “to see it finish”. He again sent to “Emily” a
link to his web camera which showed him masturbating
and then ejaculating.
Detective then called the Nextel wireless phone
number provided by “delmarm4fun” and advised the
individual that he was a Police Officer with the Barrett
Township Police Department, During the conversation,
“delmarm4fun” provided his personal information as
William Scott Ritter Jr. of Delmar, New York (“De­
fendant”). Detective obtained several photographs of
Defendant, and compared them to the web camera
video obtained while “delmarm4fun” was masturbating
on camera. Detective determined that the photos and
video were of the same person
On April 22, 2009, Detective secured a Court Order
for Nextel Wireless to provide subscriber information
for the wireless number of 518-365-6530. On October
13, 2009, Detective received the subscriber information
confirming the wireless number was assigned to
William Ritter of Delmar, NY at the time of the incident
on February 7, 2009. Defendant was later charged with
the above stated crimes.
Defendant waived his right to. a preliminary
hearing and to a formal arraignment in. anticipation
of entering into a negotiated plea to one count of
Unlawful Contact with a Minor, 18 Pa. C.S. § 6318(a)(4),

App.63a

a felony of the third degree. The Commonwealth filed
a Criminal Information on January 11, 2010 charging
Defendant with a single count of Unlawful Contact
with a Minor. Defendant filed an Omnibus Pretrial
Motion and a Motion for Discovery on January 14, 2010.
Both motions were withdrawn on February 3, 2010.
Defendant thereafter did not enter a plea of guilty to
the Unlawful Contact charge.
On June 15, 2010, the Commonwealth filed a
Notice of Prior Bad Acts pursuant to Pa.R.E. § 404 as
well as a Motion In Limine seeking to allow testimony
of Defendant’s prior bad acts at trial. Specifically, the
Commonwealth sought to admit at trial evidence of
charges filed in New York State against Defendant
for offenses similar to those at issue before this
Court. A hearing on the Commonwealth’s Motion was
scheduled for June 28, 2010 and thereafter continued
generally at the request of counsel for the Common­
wealth with the concurrence of Defendant to be
relisted for hearing upon application of either counsel
On June 16, 2010, the Commonwealth filed a
Motion for Leave to Amend the Criminal Information
arguing that the Commonwealth should be permitted
to amend the Criminal Information to include all counts
charged in the Criminal Complaint. The Common­
wealth argued that it filed the one-count Information
in reliance on the earlier plea agreement reached
with Defendant in which Defendant agreed to waive
his preliminary hearing and plead guilty to the
Unlawful Contact with a Minor charge in exchange for
the Commonwealth withdrawing the remaining charges
alleged in the Criminal Complaint. In reliance on this
agreement, the Commonwealth filed a Criminal Infor­
mation with one count of 18 Pa. C.S. § 6318(a)(4)

App.64a

with the understanding .that if the case was not
resolved with a guilty plea, all charges in the Criminal
Complaint would be reinstated. The Commonwealth’s
Motion was granted. An Amended Criminal Informa­
tion was filed charging Defendant with Unlawful
Contact with a Minor (sexual offenses), 18 Pa. C.S.
§ 6318(a)(1); Unlawful Contact with a Minor (open
lewdness), 18 Pa. C.S. § 6318(a)(2), Unlawful Contact
with a Minor (obscene and other sexual materials
and performances), 18 Pa. C.S. § 6318(a)(4); Criminal
Attempt to Commit Obscene and Other Sexual Mate­
rials and Performances, 18 Pa. C.S. § 901; Criminal
Attempt to Commit Corruption of Minors, 18 Pa. C.S.
§ 901; and Criminal Use of a Communication Facility,
18 Pa. C.S. § 7512.
On August 10, 2010, Defendant filed a Motion for
Dismissal/Change of Venue as well as a Motion In
Limine to exclude evidence regarding past allegations
of misconduct pursuant to Pa.R.E. § 404. The Common­
wealth filed a second Motion In Limine on August 27,
2010 seeking to preclude the defense experts’ testimony
as to: (l) proper undercover procedures in conducting
online chat investigations; (2) the results of a forensic
review of the Defendant’s household computers; and
(3) the ability of consenting participants in adult
internet chat rooms to fantasize and assume that
other adult participants are doing likewise. A hearing
on all motions, including the Commonwealth’s first
Motion In Limine, was held on August 31, 2010.
At the hearing, counsel for both parties represented
to the Court that the Commonwealth had obtained
records of Defendant’s New York arrests which were
sealed by a court of that state in 2001. The records in
question were admitted as Commonwealth’s Exhibits

App.65a

1 through 11, and placed under seal pending a decision
by this Court on the parties’ respective Motions In
Limine. The Commonwealth’s Exhibits are comprised
of the following documents:
1.

Criminal Complaint filed in the present case;

2:

Transcript of chat log dated February 7, 2009;

3:

Wikipedia computer print outs re: Defendant

4.

January 14, 2010 letter from Monroe County
Assistant District Attorney Michael Raka■ czewski to Albany County, New York District
Attorney P. David Soares requesting New
York investigator’s name and file re: Defend­
ant;

5.

February 8, 2010 letter from Robert G. Muller,
Senior Criminal Investigator, Albany County,
New York District Attorney’s Office to Monroe
County ADA Rakaczewski forwarding Defend­
ant’s criminal file;

6.

April 23, 2010 letter from Defense Counsel
to Monroe County District Attorney David
Christine re: New York records of Defendant;

7.

June 2, 2010 letter from Monroe County ADA
Rakaczewski to Albany County, New York
Chief Assistant District Attorney David M.
Rossi returning records;

,
8.

June 2, :2010 letter from Monroe County
ADA Rakaczewski to Albany County, New
York Chief Assistant District Attorney Da vid
M. Rossi enclosing proposed Motion to unseal
records;

App.66a

9.

June 29, 2010 Order of the Albany County
Court, Stephen W. Herrick, Judge, unsealing
criminal records of Defendant;

10. New York State arrest records for Defendant;
11. August 24, 2010 letter from Defense counsel
Gary Kohlman, Esquire to Monroe County
ADA Rakaczewski re: Defense experts.
The Commonwealth further represented to the
Court that the Commonwealth came into possession of
Defendant’s New York records as a result of an internet
“Google” search Assistant District Attorney Raka­
czewski performed on Defendant’s name. The “Google”
search revealed the Wikipedia computer results set
forth in Commonwealth Exhibit #3. As a result of the
Internet search results, Attorney Rakaczewski sent a
letter to Attorney Soares of the District Attorney’s
Office in. Albany County, New York, advising Attorney
Soares that the Monroe County District Attorney’s
Office was “prosecuting [Defendant] in similar charges
to his arrest in Albany County in 2001” and requesting
that Attorney Soares’ Office “provide [ADA Rakaczew­
ski] with the name of the officer or detective who
investigated these cases, as well as copies of your
documents.” [See Exhibit 4.] Attorney Soares’ Office
responded by sending copies of their entire file as well
as the contact information for the Investigator on the
case. [See Exhibit 5.] The discovery received contained
police reports concerning alleged criminal incidents
involving Defendant that took place in 2001 in New
York State. [See Exhibit 6.]
After receipt and review of the records from New
York State, ADA Rakaczewski sent copies of the records
to counsel for Defendant. Thereafter, on April 23,

!App.67a

2010, defense counsel wrote to the Monroe County
District Attorney advising that the Defendant’s New
York records were subject to a New York sealing and
expungement order requiring that the records be sealed
and/or destroyed. [See Exhibit 6.] The letter further
stated that the Commonwealth’s possession of the
records was “illegal,” demanded that the Common­
wealth “turn-over” all copies of the records, “divulge”
how the Commonwealth came into possession of same,
and meet with defense counsel to discuss defense
counsel’s views on “where this case should go at this
point.” [Id]
In response, the Commonwealth returned the
original documents received to the Albany Chief Assis­
tant District Attorney. [See Exhibit 7.] The Common­
wealth also provided the Chief ADA in Albany with a
Motion to be filed in the New York State Supreme
Court for Albany County requesting to have the
records unsealed ex parte pursuant to New York State
Criminal Procedure Law § 160.60(l)(D). [See Exhibit
8[] The Office of the Albany County District Attorney
filed the ex parte motion on behalf of the Barrett
Township Police Department and the Monroe County
District Attorney’s Office. [*See Exhibit 9.] By Order
dated June 29, 2010, the Honorable Stephen W.
Herrick of the State of New York, Albany County
Court, ordered that the Albany County District Attor­
ney’s Office, as well as the Colonie Police Department
and the Colonie Town Court make their file pertaining
to Defendant available to the Monroe County District
Attorney’s Office and the Barrett Township Police
Department. [Id]
After hearing and consideration of both parties’
briefs, the Court issued an Opinion and Order on

i

: App.68a

December 16, 2010 denying the Commonwealth’s Mo­
tion to Exclude Expert Testimony as to Forensic
Review of Defendant’s Computers and denying Defend­
ant’s Motions to Dismiss, Exclude Prior Bad Acts
and for Change of Venue. The Court granted the
Commonwealth’s Motions to Allow Evidence of Prior
Bad Acts, Exclude Expert Testimony as to Undercover
police Procedures, and Exclude Expert Testimony
regarding fantasy based conversation. The Order also
directed that the Commonwealth’s Exhibits #1-11 be
unsealed.
Jury trial commenced on April 12, 2011. A verdict
was reached on April 14, 2011 convicting Defendant
of six of the seven charges, including: Unlawful
Contact with a Minor—Indecent Exposure, Unlawful
Contact with a Minor—Open Lewdness, Unlawful
Contact with a Minor—Dissemination of Obscene or
Sexually Explicit Materials or Performances, Criminal
Attempt—Corruption of a Minor, Criminal Use of a
Communication Facility, and Indecent Exposure. 1
| Sentencing in this matter was scheduled for May
17,j 2011, and Defendant was directed to undergo an
assessment with the Pennsylvania Sexual Offenders
Assessment Board pursuant to 42 Pa. C.S. § 9795.4
(relating to Registration of Sexual Offenders) for
purposes of determining whether Defendant is a
sexually violent predator. After various Motions for
Continuance, sentencing and hearing on Defendant’s
potential status as a sexually violent predator C'SVP
hearing”) were ultimately rescheduled to October 26,
20il.
'
!

1 [Defendant, was acquitted of Criminal Attempt—Dissemination
of Obscene or Sexually Explicit Materials or Performances.

. i' •.

App.69a

On October 21, 2011, Defendant filed a Rule 704(B)
Motion for New Trial or, in the Alternative, to Postpone
Sentencing. In his Motion, Defendant related that
while the case in Pennsylvania proceeded, Defendant
took steps to challenge the June 29, 2010 Order of
the New York Court granting the ex parte motion to
unseal the records pertaining to his 2001 arrests. On
November 8, 2010, Defendant filed a Motion to Vacate
the ex parte Order in the Albany County Court, which
was denied on December 29, 2010. In March of 2011,
Defendant appealed that Order. On October 20, 2011,
the Third Department of the Appellate Division of
the New York State Supreme Court reversed the
December 29, 2010 Order of the Albany County Court
denying Defendant’s Motion to Vacate and vacated the
Albany County Court’s June 29, 2010 Order. In its
decision, the New York Appellate Court held that the
Pennsylvania authorities did not seek the sealed records
for permissible purposes under New York State’s
sealing statute, C.P.L. § 160.50. As such, Defendant
asserted in his Motion that he was entitled to a new
trial, or in the alternative for sentencing to be
postponed.
Hearing on Defendant’s Motion for Extraordinary
Relief was scheduled for October 26, 2011, the same
date and time as sentencing and the SVP hearing, and
oral argument was heard by both parties. Counsel for
Defendant was permitted extensive opportunity to
argue his position, however, the Court informed Counsel
that Defendant’s fifing of its written motion for extra­
ordinary relief prior to sentencing was invalid, as
Rule 704 does not permit the fifing of a written
motion prior to sentencing. See Pa. R. Crim. P. § 704;
Commonwealth v. Askew, 907, A.2d 624 (Pa! Super.

’ "App.70a"
i

2006). As such, Defendant orally withdrew his written
Rule 704(B) Motion, and renewed same orally in
open court. Because the issue presented by Defend­
ant appears to one of first impression in this Common­
wealth, the Court found that Defendant’s right to the
requested relief was not clear and that the Court
was, therefore, required under Rule 704 to proceed
with the SVP hearing and sentencing.
At the hearing, the Court heard testimony from
Paula Brust of the Pennsylvania Sexual Offender’s
Assessment Board regaining Defendant’s assessment
and concluded that Defendant was a sexually violent
predator. Immediately following the hearing, and after
considering the arguments of Counsel and the PreSentence Investigation Report (“PSI”) prepared by
the Monroe County Probation Department, Defendant
was sentenced to undergo a period of incarceration in
a state correctional institution of not less than 18
months with a maximum not to exceed 66 months.
Defendant was also ordered to'comply with the regis­
tration requirements set forth at 42 Pa. C.S. § 9795.1
pertaining to Megan’s Law.
I
On November 7, 2011 Defendant filed a Rule 720
Post-Sentencing Motion for a New Trial or, in the
Alternative, Resentencing along with a brief. A hearing
on the Motion was held on December 8, 2011, at which
time Defendant reiterated his position from, the Rule
704(B) hearing, as well as made additional argument
that the Court should vacate Defendant’s convictions
due to a lack of sufficiency of the evidence and because
the weight of the evidence did;not, support the jury’s
verdict. On December 22, 2011, Defendant filed a
supplemental brief in support of his position; the
!

,App.7fa

.

Commonwealth filed a brief in opposition on January
12, 2012. We are now prepared to decide this matter.
DISCUSSION
By filing his Rule 720 Motion, Defendant moves the
Court to vacate Defendant’s convictions and order a
new trial, or, in the alternative, to resentence him
and, at the very minimum, to set forth conditions
that will allow him to be released on bail pending the
outcome of his appeal. We will deny Defendant’s
Motions for the reasons stated below.
Motion for New Trial
Defendant first argues that at time of trial, the
Commonwealth made extensive use of records, spe­
cifically two transcripts of online chats that Defend­
ant had with undercover New York police officers,
relating to two previous arrests of Defendant in 2001
in Albany County, New York. Defendant avers that the
transcripts had been sealed pursuant to a New York
Statute, and that the Commonwealth obtained an ex
parte order from the County Court unsealing the
records and extensively used the sealed material in
presenting its case at trial, Defendant argues that
since the Appellate Division of the New York State
Supreme Court ultimately vacated the Albany County
Court’s Order unsealing the records that were used
at trial, this Court, must give “full faith and credit” to
the New York Appellate Court’s decision and grant
Defendant a new trial at which the improperly-obtained
evidence of Defendant’s prior bad acts is not introduced.
We disagree for several reasons.
First, at the time we allowed the admission of
evidence of Defendant’s 2001 records, a valid Albany

•

; App.72a

County Court Order existed to which we gave “full
faith and credit,” At that time, we stated that we
would not usurp the power and decision of a New York
Court with respect to the interpretation of a New
York Statute. The fact that this Order was vacated
after Defendant’s conviction does not automatically
entitle Defendant to a new trial. We have found no
Pennsylvania law, or New York law binding upon this
Court, that requires the Court to hold a new trial
other than for issues of fundamental fairness or due
process. Under the circumstances at hand, we find
that a new trial is not warranted because the admission
of the records was, at worst, harmless error. Based
upon the evidence presented at trial, we conclude
that even if the New York records were deemed
inadmissible, the Commonwealth would still have
presented sufficient evidence of the offenses charged
for the jury to find Defendant guilty beyond a reason­
able doubt.
Second, even if certain records utilized by the
Commonwealth at trial should have remained sealed
as “official records and papers” as provided by the
New York unsealing statute,2 we find that the evidence
derived from such records could still have been obtained
from other sources. For example, we find nothing in
the New York statute that would have prohibited a
police officer with personal knowledge of the arrests
from testifying to their details.3 Moreover, the Attorney

2 N.Y Crim. Proc. Law § 160.50(l)(c).
3 Under New York State law, once a criminal action is. terminated
in favor of a person, “:[A]11 official records and papers, including
judgments and orders of a court but not including published
court decisions or opinions or records and briefs on appeal,

App.73£
■*

*

'

■*

'

for the Commonwealth acknowledged that a majority
of the documents he used at trial were found on the
Internet and were public information. Indeed, a Google
search for “William Scott Ritter New York arrests”
yields over 134,000 results, including links to news
stories, commentaries, and official records, all detailing
Defendant’s previous sexual crimes.
Finally, we find that the transcripts of the 2001
chat logs as well as information solicited from the
detective involved in the 2001 arrests are not “official
records and papers” subject to the New York sealing
statute. In Harper v. AngloGllo the New York Superior
Court stated:
[Ajlthough CPL 160.50 specifies judgments
and orders of a court as items “included” in
the category of official records and papers, the
statute is otherwise silent on the nature of
such “official” material (see, CPL 160.50[l][c])
further supporting the conclusion that bright
line rules are not wholly appropriate in this
area. Indeed, such records and papers are
not always subject to easy identification and
may vary according to the circumstances of
a particular case.
Thus, in Matter of Dondi, we held that “on
the facts of this case” certain “testimonial .
relating to the arrest or prosecution, including all duplicates and
copies thereof, on file with the division of criminal justice
services, any court, police agency, or prosecutor’s office shall be
sealed and not made available 10 any person or public or
private agency. N.Y Crim. Proc. Law § 160.50(l)(c). (McKinney
2004). However, no bright line test exists to determine what evi­
dentiary items are included in the category of “official records
and papers.” Harper v. AnoidlUJo, 680 N.E.2d 602,’604 (N.Y. 1997)

. ■*, >4App.74a
•V

evidence” consisting of an incriminatory tape
recording constituted an official record sub­
ject to CPL 160.50(l)(c). However, in Matter
of Hynes v. Karassik, we affirmed the
Appellate Division’s determination that “two
tape recordings introduced into evidence at
the criminal trial were not within the
definition of ‘official records and papers’ pro­
tected by the sealing statute.” Consequently,
while some recordings may qualify as an
official record under certain circumstances,
not all tape recordings will qualify as an
official record in every case. ...
680 N.E.2d 602, 604-05 (N.Y. 1997) (internal citations
omitted). Further, New York courts have held that
records such as investigative and audit reports prepared
by a prosecutor as well as tape recordings made in
the course of an investigation do not constitute “official
records and papers” within the meaning of CPL
160.50(l)(c).See People v. Neuman, 428 N.Y.S.2d 577,
579 (N.Y. App. Div. 1980); Hynes v. Karassik, 405
N.Y.S.2d 242, 243 (N.Y. 1978). Courts are clear that
there is no bright line test for determining w;hat are
or are not “official records and papers,” and that the
evidence must be viewed and a decision made on a case
by case basis. Id. Here, we find that the transcripts of
the 2001 chat logs as well as the information obtained
from the detective involved in the 2001 arrests are
not testimonial in nature and are more akin to tape
recordings and investigative reports than judicial
orders or official police records. Thus, the evidence at
issue does not constitute “official records and papers”
uiider the statute and was properly admitted at trial
as evidence of Defendant’s prior bad acts.

r \ ■

App.75a

Defendant equates this case to cases that arise
in the context of unlawfully obtained evidence under
the Fourth Amendment of the Constitution or Article
I, Section 8 of the Pennsylvania Constitution and
makes detailed arguments as to whether New York or
Pennsylvania law should apply to determine whether
or not the previous arrest records should be suppressed.
However, we need not address those arguments as the
issue here is not one of suppression, but rather one of
admissibility. There is no question that the Common­
wealth lawfully obtained the records in question,
regardless of whether they were provided by Albany
County or downloaded from the internet. While the
New York Appellate Division subsequently ruled that
the records should not have been unsealed, this ruling
in no way makes the Commonwealth’s use and
possession of the records unlawful.
While New York law may allow the Defendant to
have the official records sealed, in essence this is
mere formality. New York courts cannot purge accounts
of the arrests from the internet, newspapers, and the
minds of those who witnessed them. We ruled in our
December 16, 2010 Opinion that evidence of the
Defendant’s prior bad acts, including previous arrests,
was admissible and we stand by that ruling now. Even
if the records in question were never unsealed, there
were various avenues through which the Common­
wealth could still have introduced evidence of
Defendant’s previous arrests. As such, Defendant’s
Motion for New Trial under Rule 720 will be denied.
Motion for a New Sentencing Hearing
Defendant next argues that Due Process requires
that the Court hold a new sentencing hearing and order

App.76a

the preparation of new reports from the Pennsylvania
Sexual Offenders Assessment Board and the Monroe
County Probation Department because both reports
referred to evidence pertaining to the 2001 arrests
that should not have been considered at sentencing
under New York law. In the alternative, Defendant
argues that the Court should modify Defendant’s
sentence because five of the six offenses Defendant
was found guilty of should merge for the purposes of
sentencing, as they each involve identical conduct of
“inappropriate sexual conduct,” which was proven by
the same act, notwithstanding the fact that they are
stated in different words.
In addressing Defendant’s Motion for a New
Sentencing Hearing, for the reasons stated on the
record at time of hearing on Defendant’s post-sentencing
motion, and for the reasons stated above, we find
that the records of Defendant’s prior arrests in 2001
were still a part of the record at time of sentencing,
having been properly admitted at trial. As such, it
was appropriate at the time of sentencing for the
Monroe County Probation Department as well as Ms.
Brust of the Pennsylvania Sexual Offenders Assessment
Board to rely upon all evidence lawfully admitted at
time of trial. Moreover, regardless of whether evidence
of Defendant’s prior arrests were admitted, said records
were not the sole basis for this Court’s decision, as
other facts of record exist to support the sentence
imposed by this Court.
As to Defendant’s Motion for Modification of
Sentence, Defendant argues that the five offenses
that should merge are; (1) unlawful contact with a
minor, indecent exposure; (2) indecent exposure; (3)
unlawful contact with a minor, open lewrdness; (4)

iApp.77a
<

,A.'

js ,■

unlawful contact-with a minor, dissemination obscene
or sexually explicit materials or performances; and
(5) criminal attempt to Commit the offense of corruption
of a minor. We disagree.
42 Pa. C.S. § 9765, Merger of Sentences, provides
in relevant part as folkws:
No crimes shall merge for sentencing pur­
poses unless the crimes arise from a single
criminal act and all of the statutory elements
of one offense are included in the statutory
elements of the other offense. Where crimes
merge for sentencing purposes, the court may
sentence the defendant only on the higher
graded offense.
42* Pa. C.S. § 9765. The three offenses pertaining to
Unlawful Contact with a Minor of which Defendant
II
was convicted are as follows:
18 Pa. C.S.A. § 6318. Unlawful Contact with
a Minor—
(a) Offense defined —A person commits an
offense if he is intentionally in contact with
a minor, or a law enforcement officer acting
in the performance of his duties who has
assumed the identity of a minor, for the pur­
pose of engaging in an activity prohibited
Under any of the following, and' either the
person initiating the contact or the person
being contacted is within this Commonwealth:
(l) Any of the offenses enumerated in Chapter
31 (relating to sexual offenses).
(2) Open .lewdness as defined in section 5901
(relating to open lewdness).

App,[78a

(4) Obscene and other sexual materials and per­
formances as defined in section 5903 (relating
to obscene and other sexual materials and
performances).
18 Pa. C.S. § 6318.
Indecent exposure, as enumerated in Chapter 31
(relating to sexual offenses) requires a person who
commits indecent exposure to expose his or her genitals
in any public place or in any place where there are
present other persons under circumstances in which
he or she knows or should know that this conduct is
likely to offend, affront or alarm. 18 Pa. C.S. § 3127.
On the other hand, the offense of open lewdness
requires that a person commit any lewd act which he
knows is likely to be observed by others who would
be affronted or alarmed. Moreover, the offense of
obscene and other sexual materials and performances
prohibits any person who knows the obscene character
of the materials or performances involved to display
any explicit sexual materials where minors, as a part
of the genera] public or otherwise, are or will probably
be exposed to view all or any part of such materials.
18 Pa. C.S. § 5903(a)(1). Although Defendant’s convic­
tions for Unlawful Contact with a Minor arose from
the same set of facts, based upon the different statu­
tory requirements, and the fact that not all of the
statutory elements of one offense are included in the
statutory elements of the other offenses, these offen­
ses do not merge for purposes of sentencing.
Furthermore, Defendant was convicted of both
Criminal Attempt to Commit the Act of Corruption of
Minors, Criminal Use of a Communication Facility,
and indecent Exposure. As these offenses contain
various elements not coinciding with each other or.

App.79a
‘‘ ■

,-V W'* ts..

The offenses explained above, we find it super­
fluous to address whether they merge for purposes of
sentencing. Moreover, regardless of whether or not
the above offenses merged for purposes of sentencing,
this
Court ordered concurrent sentences for Counts 1,7
,| 1
2 and 3 relating to Unlawful Contact with a MinorInciecent Exposure, Unlawful Contact with a MinorOpen Lewdness, and Unlawful Contact with a MinorObscene and other Sexual Materials and Performances.
Xs| such, Defendant’s argument with respect to Counts
4 2 and 3 is moot. Defendant’s motion will be denied.

I!

Sufficiency of the Evidence Claim and Weight of the
Evidence
' Defendant cursorily alleges in his Motion that
there was insufficient evidence to support the charges
against Defendant and that the verdict was contrary
to the weight of the evidence. However, at no time
during hearing oh Defendant’s post-sentence motions,
or in any of Defendant’s elaborate briefs did Defendant
argue his position with respect to his sufficiency of
the evidence or weight of the evidence claims. As
such, we are unable to fully address his arguments at
tAils time. However, in the interest of judicial economy,
wje| will address his claims generally as they apply to
the Rules of Criminal Procedure.
A defendant may challenge the sufficiency of the
evidence to sustain a conviction of one or more of the
offenses charged in a motion for judgment of acquittal
made after sentence is imposed pursuant to Pa. R.
Crim. P, § 720(B). Pa. R. Crim. P. § 606. A defendant
shall also raise a . claim that the verdict was against
the weight of the evidence in a motion for a new trial
in a post-sentence motion. Pal R. Crim. P. § 607.

App.80a
*

■*

•

! '~v-

V

’

hHowever, Pa. R. Crim. P. § 720 provides in relevant
part as follows:
(B) Optional Post-Sentence Motion.
(l) Generally.
(a) The defendant in a court case shall have the
right to make a post-sentence motion. All
requests for relief from the trial court shall
be stated with specificity and particularity,
and shall be consolidated in the post­
sentence motion, which may include:
(i)

a motion challenging the validity of a
plea of guilty or nolo contendere, or the
denial of a motion to withdraw a plea of
guilty or nolo contendere,

(ii) a motion for judgment of acquittal;
(iii) a motion in arrest of judgment;
(iv) a motion for a new trial; and/or
(v) a motion to modify sentence.
(b) The defendant ,may file a supplemental
post-sentence motion in the judge’s discretion
as long as the decision on the supplemental
motion can be made in compliance with the
time limits of paragraph (B)(3).
(c) Issues raised before or during trial shall be
deemed preserved for appeal whether or not
the defendant elects to file a post-sentence
motion on those issues.
Pa. R. Crim. P. § 720(B)(1) (a)-(c). The Comments to
the Rule provide that “[ujnder paragraph (B)(1)(a),
the grounds for the post-sentence motion should be

i

I

•*

App.Slk
i

stated with particularity. Motions alleging insufficient
evidence, for example, must specify in what way the
evidence was insufficient, and motions alleging that
the verdict was against the weight of the evidence
must specify why the verdict was against the weight
of the evidence.” See Comment to Pa. R. Crim. P. § 720.
“Because the post-sentence motion is optional, the
failure to raise an issue with sufficient particularity
in the post-sentence motion will not constitute a
waiver of the issue on appeal as long as the issue was
preserved before or during trial.” See Pa. R. Crim. P.
§ 720(B)(1)(c).
Here, Defendant fails to state with particularity
in what way the evidence was insufficient, or why the
vierdict was against the weight of the evidence, with
the exception of the argument that the evidence of
Defendant’s prior offenses should be found inadmis­
sible. Inasmuch as we have addressed this issue above,
We are constrained to deny Defendant’s motions at
this stage. However, in the interest of judicial economy,
ahd in viewing the evidence in the light most favorable
to the Commonwealth as the verdict winner, we find
that there is more than ample evidence to support
Defendant’s convictions for all of the charges of which
he was found guilty, including Unlawful Contact with
a. Minor-Indecent Exposure, Indecent Exposure,
Unlawful Contact with a Minor—Open Lewdness,
Unlawful Contact with a Minor—Dissemination of
Obscene or Sexually Explicit Materials or Performances,
Criminal Attempt-Corruption of a Minor, and Criminal
Use of a Communication Facility.
j When reviewing a sufficiency of the evidence claim,
our appellate courts apply the following standard:

App.8^a

[vjiewing all the evidence admitted at trial
in the light most favorable to the verdict
winner, there is sufficient evidence to enable
the fact-finder to find every element of the
crime beyond a reasonable doubt. In apply­
ing the above test, we may not weigh the
evidence and substitute our judgment for
the fact-finder. In addition, we note that the
facts and circumstances established by the
Commonwealth need not preclude every
possibility of innocence. Any doubts regard­
ing a defendant’s guilt may be resolved by
the fact-finder unless the evidence is so
weak and inconclusive that as a matter of
law no probability of fact may be drawn
from the combined circumstances. The
Commonwealth may sustain its burden of
proving every element of the crime beyond a
reasonable doubt by means of wholly circum­
stantial evidence. Moreover, in applying the
above test, the entire record must be
evaluated and all evidence actually received
must be considered.

i

!

i

Commonwealth v. Hutchinson, 947 A.2d 800, 805-06
(Pa. Super. 2008) (emphasis and citations omitted).
The credibility of witnesses and the weight to be
afforded the evidence produced are matters within
the province of the trier of fact; the fact finder is free
to believe all, some, or none of the evidence.
Commonwealth v. Smith, 502 Pa. 600, 467 A.2d 1120,
1122 (1983). With respect to the weight of the evidence
argument, our Appellate Courts have explained:
the weight of the evidence is exclusively for
the finder of fact who is free to believe all,

i

~—App.83|

"sT:

part, or none of the evidence and to deter­
mine the credibility of the witnesses. An
appellate court cannot substitute its judg­
ment for that of the finder of fact. Thus, we
may only reverse the lower court’s verdict if
it is so contrary to the evidence as to shock
one’s sense of justice.
Commonwealth v. Moreno, 14 A.3d 133, 135 (Pa. Super.
2011) (quotation omitted).
Viewing the evidence in the light most favorable
to the Commonwealth as the verdict winner, we find
that it was well within the province of the jury to
conclude that there is sufficient evidence to enable
them to find every element of each of the crimes of
which Defendant was convicted beyond a reasonable
doubt. The facts ascertained at trial established that
Detective, purporting to be a 15-year-old minor female,
engaged in conversations of a sexual nature with
Defendant over the Internet. Defendant displayed his
penis over a web camera and began to masturbate so
that Detective could witness. Defendant was advised
several times that Detective was a “15-year-old female”
yet continued to engage in the act of masturbation
over the Internet.
After reviewing the record in considerable detail
and taking into consideration the testimony of all
the witnesses, the Defendant’s statements, and the
direct and circumstantial evidence presented at trial,
we believe it was well within the province of the jury
to conclude that Defendant was guilty of the crimes
charged. As the fact-finder, the weight and credibility
determinations were exclusively for the jury to make,
and there was more than ample evidence to support
the verdict, even without the evidence or records of

App.SlI} •

Defendant’s prior New York offenses. We do not find
the verdict so contrary ,to the evidence as to shock
one’s sense of justice. Defendant’s motion to vacate
his convictions due to a lack of sufficiency of the evi­
dence and because the weight of the evidence did not
support the jury’s verdict will be denied.
Bail Pending Appeal
Finally, Defendant requests that he be granted
bail pending appeal if the Court does not vacate his
convictions and provide him ja new trial. Defendant
argues that there are conditions of release that can
be fashioned in response to the!. Court’s stated concerns
placed on the record during hearing on Defendant’s
post-sentence motions in regards to releasing Defendant
on bail pending his appeal. Specifically, Defendant
suggests, for example, computer monitoring software
that blocks websites and monitors internet activity,
as well as continued treatment with Dr. Hamill who
will verify Defendant’s participation with the Probation
Department on a weekly basis,1 and Defendant surren­
dering his passport. Moreover, Defendant expressed
at the time of hearing that his wife would be willing
to closely monitor his actions. We disagree, and for
reasons placed on the record by this CoUrt at time of
hearing on Defendant’s post-sentencing motions, and
the law as provided in Pa. R. (brim. P. §§ 521 and 523
regarding bail after a findinjg of guilt and release
criteria, respectively, we stand by our position and
will not address this matter further.
i
.
■
Accordingly, we enter the following Order.

, S'

" -App.SSsW-r ^

ORDER OF THE COURT OF COMMON PLEAS OF
MONROE COUNTY 43RD JUDICIAL DISTRICT
(MARCH 20, 2012)
COURT OF COMMON PLEAS OF MONROE
COUNTY FORTY-THIRD JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
COMMONWEALTH OF PENNSYLVANIA,
v.
WILLIAM SCOTT RITTER, JR.,
Defendant.
No. 2238 Criminal 2009
Before: Jennifer Harlacher SIBUM, Judge.
And Now, this 20th day of March 2012, Defend­
ant’s Rule 720 post-Sentencing Motion for a New Trial
or, in the Alternative, Resentencing, is DENIED.
Defendant’s Motion for Bail Pending Appeal is
DENIED.
Defendant is advised that he has thirty (30) days
from the date of this Order within which to file an
Appeal with the Superior Court of Pennsylvania.
Defendant is further advised that he has the right to
assistance of counsel in the preparation of the appeal
and, if he is indigent, to appeal in forma pauperis
and to have counsel appointed to represent him free
of charge. See Pa. R. Crim. P, § 720(B)(4).

t

It'

App.86a

By the Court:
/s/ Jennifer Harlacher Sibum
Judge

• -App.87a" • ' v,
ORDER OF THE COURT OF COMMON PLEAS OF
MONROE COUNTY 43RD JUDICIAL DISTRICT
ON MOTION IN LIMINE
(DECEMBER 16, 2010)
COURT OF COMMON PLEAS OF MONROE
COUNTY FORTY-THIRD JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
COMMONWEALTH OF PENNSYLVANIA,
v,
WILLIAM SCOTT RITTER, JR.,
Defendant.
No. 2238 Criminal 2009
Before: Jennifer Harlacher SIBUM, Judge.
Opinion
Defendant, William Scott Ritter, Jr., has been
charged by Criminal Complaint with three separate
counts of Unlawful Contact with a Minor, 18 Pa. C.S.
§ 6318(a)(1), (2), (4); Criminal Use of Communication
Facility, 18 Pa. C.S. § 7512(a); Possessing Instruments
of Crime, 18 Pa. C.S. § 907(a); Indecent Exposure, 18
Pa. C.S. § 3127(a); five individual counts of Criminal
Attempt to commit the crimes of Unlawful Contact with
a Minor, Obscene and Other Sexual Materials and
Performances, Corruption of Minors, Criminal Use of
a Communications Facility, and Indecent Exposure,

18 Pa. C.S. § 901(a); and five individual counts of
Criminal Solicitation to commit the crimes of Unlawful
Contact with a Minor, Obscene and Other Sexual
Materials and Performances, Corruption of Minors,
Criminal Use of a Communications Facility, and
Indecent Exposure, 18 Pa. C.S. § 902(a).
The charges stem from an Internet investigation
by the Barrett Township Police Department. As part
of the investigation, Detective Ryan Venneman
(“Detective”) of the Barrett Township Police Department
was conducting undercover operations and investigating
the crime of internet sexual exploitation of children
via the computer. While conducting the investigation,
Detective purported to be a 15-year-old minor female
named “Emily”. Detective was then contacted by an
individual identified as “delmarm4fun,” a 44-year-old
male from Albany, New York. The conversation was
initiated by “delmarm4fun” in a Yahoo Instant Mes­
senger chat room.
During the conversation, “delmarm4fun” was
advised that “Emily” was a 15-year-old female from
the Poconos, Pennsylvania. The conversation was sexual
in nature, during which “delmarm4fun” requested
“Emily’ to give him another picture so he could continue
to “react”. Shortly after, he provided the purported 15
year old a link to his web camera. The camera displayed
a male’s face and upper body area. “Delmarm4fun” later
adjusted the camera to focus on his penis area, and
began to masturbate. “Emily asked him if he had a
phone number where “she” could call him. “Delmarm4fun” provided a cell phone number of 518-365-6530.
“Delmarm4fun” continued to masturbate on web
cam and again asked “Emily’s” age he was. advised a
second time that she was 15 years old. He stated he

. , App.89a

didn’t realize that she was 15 and turned off his web
camera. He then stated he did not want to get in trouble
and said “I was fantasizing about fucking you,” “Emily”
replied “I guess u turned it off np”. “Delmarm4fun”
responded by asking “Emily” if she wanted “to see it
finish”. He again sent to “Emily” a link to his web
camera which showed him masturbating and then
ejaculating.
Detective then called the Nextel wireless phone
number provided by “delmarm4fun” and advised the
individual that he was a Police Officer with the Barrett
Township Police Department. During the conversation,
“delmarm4fun” provided his personal information as
William Scott Ritter Jr. of Delmar, New York
(“Defendant”). Detective obtained several photographs
of Defendant and compared them to the web camera
video obtained while “delmarm4fun” was masturbating
on camera. Detective determined that the photos and
video were of the same person.
On April 22, 2009, Detective secured a Court Order
for Nextel Wireless to provide subscriber information
for the wireless number of 518-365-6530. On October
13, 2009, Detective received the subscriber information
confirming the wireless number was assigned to
William Ritter of Delmar, NY at the time of the incident
on February 7, 2009. Defendant was later charged with
the above stated crimes.
Defendant waived his right to a preliminary
hearing and to a formal arraignment in anticipation
of entering into a negotiated plea to one count of
Unlawful Contact, with a Minor, 18 Pa. C.S. § 6318(a)(4),
a felony of the third degree. The Commonwealth filed
a Criminal Information on January 11, 2010 charging
Defendant with a single count of Unlawful Contact

i
■i

t
,r App.90a^K r>
with a Minor. Defendant filed an Omnibus Pretrial
Motion and a Motion for Discovery on January 14, 2010.
Both motions were withdrawn on February 3, 2010.
Defendant thereafter did not enter a plea of guilty to
the Unlawful Contact charge.
On June 15, 2010, the Commonwealth filed a
Notice of Prior Bad Acts pursuant to Pa.R.E. § 404 as
well as a Motion In Limine seeking to allow testimony
of Defendant’s prior bad acts at trial. Specifically, the
Commonwealth sought to admit at trial evidence of
charges filed in New York State against Defendant
for offenses similar to those at issue before this
Court. A hearing on the Commonwealth’s Motion was
scheduled for June 28, 2010 and thereafter continued
generally at the request of counsel for the Common­
wealth with the concurrence of Defendant to be
resisted for hearing upon application of either counsel.
On June 16, 2010, the Commonwealth filed a
Motion for Leave to Amend the Criminal Information
arguing that the Commonwealth should be permitted
to amend the Criminal Information to include all counts
charged in the Criminal Complaint. The Common­
wealth argued that it filed the one-count Information
in reliance on the earlier plea agreement reached
with Defendant in which Defendant agreed to waive
his preliminary hearing and plead guilty to the
Unlawful Contact with a Minor charge in exchange for
the Commonwealth withdrawing the remaining charges
alleged in the Criminal Complaint. In reliance on
this agreement, the Commonwealth filed a Criminal
Information with one count of 18 Pa. C.S. § 6318(a)(4)
with the understanding that if the case was not resolved
with a guilty plea, all the charges would be reinstated.
The Commonwealth’s Motion was granted and an

!ii!'!
App.9la

Amended Criminal Information was filed charging
Defendant with Unlawful. Contact with a Minor (sexual
offenses), 18 Pa. C.S. § 6318(a)(1); Unlawful Contact
with a Minor (open lewdness), 18 Pa. C.S. § 6318(a)(2),
Unlawful Contact with a Minor (obscene and other
sexual materials and performances), 18 Pa. C.S.
§ 6318(a)(4); Criminal Attempt to Commit Obscene and
Other Sexual Materials and Performances, 18 Pa. C.S.
§ 901; Criminal Attempt to Commit Corruption of
Minors, 18 Pa. C.S. § 901; and Criminal Use of a
Communication Facility, 18 Pa. C.S. § 7512.
On August 10, 2010, Defendant filed a Motion for
Dismissal/Change of Venue as well as a Motion In
Limine to exclude evidence regarding past allegations
of misconduct pursuant to Pa.R.E. § 404. The Common­
wealth filed a second Motion In Limine on August 27,
2010 seeking to preclude the defense experts’ testimony
as to: (l) proper undercover procedures in conducting
online chat investigations; (2) the results of a forensic
review of the Defendant’s household computers; and
(3) the ability of consenting participants in adult
internet chat rooms to fantasize and assume that
other adult participants are doing likewise. A hearing
on all motions, including the Commonwealth’s first
Motion In Limine, was held on August 31, 2010.
At hearing, counsel for both parties represented to
the Court that the Commonwealth had obtained records
of Defendant’s New .York arrests which were sealed
by a court of that state in 2001. The records in question
were admitted as Commonwealth’s Exhibits 1 through
11, and placed under seal pending a decision by this
Court on the parties’ respective Motions In Limine.
The Commonwealth’s Exhibits are comprised.of the
following documents:
t

App.92a
t'r’r' . f. ; ’

1.

Criminal Complaint filed in the present case;

2.

Transcript of chat log dated February 7, 2009;

3.

Wikipedia computer print outs re: Defendant

4.

January 14, 2010 letter from Monroe County
Assistant District Attorney Michael Raka­
czewski to Albany County, New York Dis­
trict Attorney P. David Soares requesting
New York Investigator’s name and file re:
Defendant;

5.

February 8, 2010 letter from Robert G. Muller,
Senior Criminal Investigator, Albany County,
New York District Attorney’s Office to Monroe
County ADA Rakaczewski forwarding Defend­
ant’s criminal file;

6.

April 23, 2010 letter from Defense Counsel
to Monroe County District Attorney David
Christine re: New York records of Defendant;

7.

June 2, 2010 letter from Monroe County
ADA Rakaczewski to Albany County, New
York Chief Assistant District Attorney
David M. Rossi returning records;

8.

June 2, 2010 letter from Monroe County
ADA Rakaczewski to Albany County, New
York Chief Assistant District Attorney David
M- Rossi enclosing proposed Motion to unseal
records;

9.

June 29, 2010 Order of the Albany County
Court, Stephen W. Herrick, Judge, unsealing
criminal records of Defendant;

10. New York State arrest records for.Defendant; ,

V

~~ App.93a---- T' .
11. August 24, 2010 letter from Defense counsel
Gary Kohlman, Esquire to Monroe County
ADA Rakaczewski re: Defense experts.
The Commonwealth further represented to the
Court that the Commonwealth came into possession of
Defendant’s New York records as a result of an internet
“Google” search Assistant District Attorney Raka­
czewski performed on Defendant’s name. The “Google”
search revealed the Wikipedia computer results set
forth in Commonwealth. Exhibit #3. As a result of the
internet search results, Attorney Rakaczewski sent a
letter to Attorney Soares of the District Attorney’s
Office in Albany County, New York, advising Attorney
Soares that the Monroe County District Attorney’s
Office was “prosecuting [Defendant] in similar charges
to his arrest in Albany County in 2001” and requesting
that Attorney Soares’ Office “provide [ADA Raka­
czewski] with the name of the officer or detective who
investigated these cases, as well as copies of your
documents.” [See Exhibit 4.] Attorney Soares’ Office
responded by sending copies of their entire file as
well as the contact information for the Investigator on
the case. [See Exhibit 5.] The discovery received con­
tained police reports concerning alleged criminal
incidents involving Defendant that took place in 2001
in New York State. [See Exhibit 6.]
After receipt and review of the records from New
York State, ADA Rakaczewski sent copies of the records
to counsel for Defendant. Thereafter, on April 23,
2010, defense counsel wrote to the Monroe County
District Attorney advising that the defendant’s New
York records were subject to a New York sealing and
expungement order requiring that the records be sealed
and/or destroyed. [See Exhibit 6.] The letter further

. App,94a-.*-----

stated that the Commonwealth’s possession of the
records was “illegal,” demanded that the Common­
wealth “turn-over” all copies of the records, “divulge”
how the Commonwealth came into possession of same,
and meet with defense counsel to discuss defense
counsel’s views on “where this case should go at this
point.” [Id\
In response, the Commonwealth returned the
original documents received to the Albany Chief Assis­
tant District Attorney. [See Exhibit 7.] The Common­
wealth also provided the Chief ADA in Albany with a
Motion to be filed in the New York State Supreme
Court for Albany County requesting to have the records
unsealed ex parte pursuant to New York State Crim­
inal Procedure Law § 160.50(l)(D). [See Exhibit 8.]
The Office of the Albany County District Attorney
filed the ex parte motion on behalf of the Barrett
Township Police Department and the Monroe County
District Attorney’s Office. [See Exhibit 9.] By Order
dated June 29, 2010, the Honorable Stephen W.
Herrick of the State of New York, Albany County
Court, ordered that the Albany County District Attor­
ney’s Office, as well as the Colonie Police Department
and the Colonie Town Court make their file pertaining
to Defendant available to the Monroe County District
Attorney’s Office and the Barrett Township Police
Department. [Id[
After the hearing, both parties were given the
opportunity to file briefs. Both parties have since
filed briefs to all motions and we are now prepared to
render our decision in this matter.

i

App.95a

DISCUSSION
1.

Motion to Dismiss for Egregious Misconduct and
Motions In Limine re: Prior Bad Acts

Defendant filed a Motion to Dismiss seeking to
have all the charges dismissed on grounds that the
Commonwealth committed egregious misconduct by
obtaining, ex parte, Defendant’s sealed New York
criminal records. Defendant argues that the Common­
wealth’s egregious misconduct is in violation of Defend­
ant’s constitutional and statutory rights and will
cause Defendant to suffer prejudice if the charges are
not dismissed. Defendant also filed a Motion to
Exclude Evidence of Prior Bad Acts, arguing that
inclusion of Defendant’s prior actions would prejudice
Defendant. The Commonwealth filed a Motion seeking
to admit such evidence as being more probative than
prejudicial. We will begin by. determining whether the
criminal records were properly obtained, and if so,
whether they are admissible at time of trial.
New York statute, N.Y. Crim. Proc. Law § 160.50
(McKinney 2004), pertaining to the sealing and
subsequent unsealing of criminal records, provides in
relevant part as follows:
§ 160.50 Order upon termination of criminal
action in favor of the accused,
(l) Upon the termination of a criminal action or
proceeding against a person in favor of such
person, as defined in subdivision three of
this section, unless the district attorney upon
motion with not less than five days notice to
such person or his or her attorney demon­
strates to the satisfaction of the court that

App.96a

the interests* of justicei-;i>egture otherwise, or
the court on its own motion with not less
than five days notice to such person or his
or her attorney determines that the interest
of justice require otherwise and states the
reasons for such determination on the record,
the record of such action or proceeding shall
be sealed and the clerk of the court wherein
such criminal action or proceeding was
terminated shall immediately notify the
commissioner of the division of criminal
justice services and the heads of all appro­
priate police departments and other law
enforcement agencies that the action has
been terminated in favor of the accused, and
unless the court has directed otherwise,
that the record of such action or proceeding
shall be sealed. Upon receipt of notification
of such termination and sealing:
(b) any police department or law enforce­
ment agency, including the division of
criminal justice services, which trans­
mitted or otherwise forwarded to any
agency of the United States or of any
other state or of any other jurisdiction
outside the state of New York copies of
any such photographs, photographic
plates or proofs, palmprints and finger­
prints, including those relating to actions
or proceedings which were dismissed
pursuant to section 170.56 or 210.46 of
. this chapter, shall forthwith formally
request in writing that all such copies
be destroyed or returned to the police

App.97a '

department or law enforcement agency
which transmitted or forwarded them,
and, if returned, such department or
agency shall, at its discretion, either
destroy or return them as provided
herein .. .;
(c)

all official records and papers, including
judgments and orders of a court but not
including published court decisions or
opinions or records and briefs on appeal,
relating to the arrest or prosecution,
including all duplicates and copies
thereof, on file with the division of
criminal justice services, any court,
police agency, or prosecutor’s office
shall be sealed and not made available
to any person or public or private agency;

(d) such records shall be made available to
the person accused or to such person’s
designated agent, and shall be made
available to (i) a prosecutor in any pro­
ceeding in which the accused has moved
for an order pursuant to section 170.56
or 210.46 of this chapter, or (ii) a law
enforcement agency upon ex parte
motion in any superior court, if such
agency demonstrates to the satisfaction
of the court that justice requires that
such records be made available to it....
N.Y. Crim. Proc. Law § 160.50 (McKinney 2004)
(emphasis added).
Under New York State Law, once a criminal action
is terminated in favor of a person, “all official records

App.98a
■"-m

and papers, including judgments and orders of a
court. . . relating to the arrest or prosecution,
including all duplicates and copies thereof, on file
with . . . any court, police agency, or prosecutor’s
office shall be sealed and not made available to any
person or public or private agency. ...” § 160.50(l)(c).
However a defendant’s interest in preventing the dis­
closure of official records and papers in a terminated
proceeding is not absolute. Matter of Tony Harper v.
Angiolillo, 680 N.E.2d 602, 605 (N.Y. 1997). Such
records may be unsealed in a limited number of cir­
cumstances, including being unsealed and provided to
a law enforcement agency upon ex parte motion in
any superior court, if such agency demonstrates to
the satisfaction of the court that justice requires the
records be made available. § 160.50(l)(d)(ii).
In order to obtain records under section 160.50
(l)(d)(ii), a request must “set forth facts indicating
that other avenues of investigation ha[ve] been
exhausted or thwarted or that it [is] probable that
the record [s] contain information that [is] both
relevant to the investigation and not otherwise available
by conventional investigative means.” Matter of Dondi,
472 N.E.2d 281, 285 (N.Y. 1984). Section 160.50(l)(d)(ii)
permits a law enforcement agency to move ex parte
for an order unsealing records upon a proper showing.
Here, the Albany Court has deemed the ex parte
Motion appropriate in as much as they have granted
the unsealing of the records, and we will not disrupt
their findings.
Upon a plain reading of the New York statute, a
thorough review of the facts of this case, and the
actions taken by both the Monroe County District
Attorney’s Office as well as the Albany County District

App-9^
Attorney’s Office, we find that the Commonwealth has
not acted with bad motive or committed egregious
misconduct in seeking the unsealing of Defendant’s
records. In presenting the Motion to the Albany District
Attorney’s Office, the Commonwealth presented all
the facts of the case, disclosed that charges were filed
against Defendant in Monroe County, and disclosed
that the Commonwealth was seeking information to
assist in the prosecution of Defendant. The Albany
District Attorney’s Office was made fully aware of
the on-going prosecution in Monroe County prior to it
filing the ex parte motion on behalf of the Common­
wealth, as was the Albany County Court prior to the
issuance of its Order unsealing Defendant’s records.
We will not usurp the power and decision of a
New York Court with respect to the interpretation of
a New York Statute. As such, we will not overturn a
New York Court’s decision with respect to its own
law, especially when the court, as is the case in this
matter, was accurately apprized as to the factual
basis for the motion and order in question. To the
extent Defendant argues that the Albany County and
Monroe County DA’s Offices’ requests for unsealing
the records were improperly granted, he must challenge
the propriety of the New York Court’s decision in the
New York Court System. We will give full faith and
credit to the Albany County Court’s June 29, 2010
Order.
Having determined that the criminal records were
properly obtained, we must now consider whether the
evidence and records of Defendant’s prior bad acts
are admissible at time of trial. Pennsylvania Rule of
Evidence § 404(b) provides as follows:
(a) Other Crimes, wrongs, or acts.

App.lOOa

(1) Evidence of other crimes, wrongs, or
. acts is not admissible to prove the
character of a person in order to show
action in conformity therewith.
(2) Evidence of other crimes, wrongs, or
acts may be admitted for other purposes,
such as proof of motive, opportunity,
intent, preparation, plan, knowledge,
identity or absence of mistake or accident.
(3) Evidence of other crimes, wrongs, or
acts proffered under subsection (b)(2) of
this rule may be admitted in a criminal
case only upon a showing that the pro­
bative value of the evidence outweighs its
potential for prejudice.
(4) In criminal cases, the prosecution shall
provide reasonable notice in advance of
tri al, or during trial if the court excuses
pretrial notice on good cause shown, of
the general nature of any such evidence
it intends to introduce at trial.
Pa.R.E. 404(b). Generally, evidence of prior bad acts is
not admissible solely to demonstrate a criminal
defendant’s propensity to commit crimes. Common­
wealth v. Russell, 938 A.2d 1082, 1092 (Pa. Super.
2007). However, such evidence may be admissible
“where it is relevant for some other legitimate pur­
pose and not utilized solely to blacken the defend­
ant’s character.” Id. It is well-established that refer­
ence to prior criminal activity may be introduced
where the evidence is relevant to demonstrate motive,
opportunity, intent, preparation, plan, knowledge,
identity, or absence of mistake or accident. Id. How-

;

App.lpla'7 7

ever, determining that the evidence is relevant does
not end our inquiry. Evidence, even if relevant, may
be excluded if its probative value is outweighed by its
potential for prejudice. Pa.R.E. § 404(b)(3).
Resolution of the present case first turns on
whether Defendant’s prior convictions have a legitimate
purpose under Rule 404(b) and are not simply being
used to demonstrate Defendant’s propensity to commit
crimes. In this case, Defendants prior actions are sub­
stantially similar to the present charges. All three
incidents involved female minors who disclosed their
ages to Defendant as being under 18 years of age.
Each situation further involved communication over
the internet with three individual undercover police
officers and Defendant’s desire to masturbate in the
presence of a minor while she watched him..
Defendant’s prior bad acts demonstrate intent on
the part of Defendant and negate any defense of
mistake or accident. The information reflected in the
chat logs entered into evidence at the August 31,
2010 hearing relays that Defendant questioned each
“minor” about then' age. Upon learning that each female
was under the age of 18, Defendant continued to engage
in sexual conversation, attempting to get the girls to
watch him masturbate either in person or via web
camera. Defendant’s past episodes in communicating
with female minors via the internet, both executed in
a similar manner to this incident, confirms his intent
to engage in this similar behavior a third time. Fur­
thermore, Defendant’s prior bad acts can be offered as
proqf of absence of mistake or accident. Each minor
female directly told Defendant her age and that she
was under 18 years old. The facts as presented
demonstrate that any argument that Defendant did not

---- .App.lO^a.-^,.
h

believe the victim was a minor and never intended to
expose himself to a minor by entering an “adult” chat
room is not overwhelmingly persuasive and is rebutted
by the evidence since Defendant has engaged in this
behavior twice before.
Defendant’s prior bad acts also demonstrate
Defendant’s knowledge. His prior conduct, in which
he engaged in this type of behavior on two prior
occasions and was caught by police officers performing
the sting operations, is evidence that Defendant knew
his conduct with a minor was in violation of the law.
The evidence also tends to show that Defendant knew
that minors utilized the “adult” chat rooms occasioned
by Defendant. As such, evidence of Defendant’s prior
arrests is admissible.
Having determined that evidence of Defendant’s
prior bad acts is admissible for various evidentiary
bases under. Rule 404(b), we must also determine
whether its probative value outweighs the potential
for unfair prejudicial effect. Pa.R.E. § 404(b)(3);
Commonwealth v. Aikens, 990 A.2d 1181, 1185 (Pa.
Super. 2010) (holding “In determining whether evi­
dence of other prior bad acts is admissible, the trial
court is obliged to balance the probative value of such
evidence against its prejudicial impact.”) The Court
should balance the relevancy and evidentiary need for
the evidence of distinct crimes against the potential
for undue prejudice. Commonwealth v. O’Brien, 836
A.2d 966, 972 (Pa. Super. 2003). This does not re­
quire a court to sanitize a trial to eliminate all
unpleasant facts from the jury’s consideration where
those facts are relevant to the issues at hand and
form part of the history and natural development of
the events and offenses for which the defendant is

App.l03a
KtV. -

charged. Commonwealth v. Page, 965 A.2d 1212, 1220
(Pa. Super. 2009). Evidence will not be prohibited
merely because it is harmful to the defendant. Id.
Our Superior Court has adopted the following
factors to be considered in performing the probative
value-prejudice balancing test:
In deciding whether the danger of unfair
prejudice and the like substantially out­
weighs the incremental probative value, a
variety of matters must be considered, inclu­
ding the strength of the evidence as to the
commission of the other crime, the simi­
larities between the crimes, the interval of
time that has elapsed between the crimes,
the need for the evidence, the efficacy of
alterative proof, and the degree to. which the
evidence probably will rouse the jury to
overmastering hostility.
Id.
Defendant argues that the allegations of Defend­
ant’s prior bad acts arose over nine years before the
present charges and are so remote in time that then.'
probative value does not outweigh their prejudicial
effect on Defendant. However, the case cited by
Defendant bolstering this argument is distinguishable
from this case. Defendant cites to Commonwealth v.
Shively, 424 A.2d .1257, 1259 CPa. Super. 1984) to sup­
port his. contention that Defendant’s prior bad acts in
New York State are too remote in time to be admissi­
ble. We disagree and find Shively distinguishable
from the present case.
. .
The Shively case involved the prosecution of
defendant on rape and related charges that occurred

App.l04a
;«;v

in 1975. At trial, the Commonwealth was permitted
to present evidence of defendant’s criminal record
from a 1972 case in which he pled guilty to sodomy
and which had facts similar to those of the rape trial
case, defendant was incarcerated on the sodomy case
on April 28, 1972 and served a three year sentence.
The 1975 rape occurred six days after the defendant’s
release from incarceration on the sodomy charge. On
appeal to the Supreme Court, the Commonwealth
argued that the evidence of defendant’s prior criminal
conduct was admissible to establish defendant’s identity
by showing the similarity between the two incidents.
Defendant, on the other hand, argued that the threeand-one-half-year gap between the two incidents made
the original incident too remote to be of any use to
the Commonwealth.
The Supreme Court, in a plurality decision, held
that the time span was too great for the prior crime
to be admissible to establish the identity of the
perpetrator. The Court held that “use of prior criminal
conduct to establish identity requires significant
similarities between the two acts to show that it is
more likely than not that the same individual com­
mitted both acts.” Id. at 416, 424 A.2d 1259. The
Court further held that even if evidence of prior
criminal activity is admissible, said evidence will be
rendered inadmissible if it is too remote. The Court
further explained, in the limited context of . identity,
that:
'
. ■ Remoteness . . ; is but another factor to be
considered in determining if the prior crime
tends to show that the same person committed
both crimes. The degree of similarity between
the two incidents necessary to prove common

App. 105 a

identity of the perpetrator is thus inversely
proportional to the time span between the
two crimes. Even if the time span instantly
is only seven months, we fail to perceive
enough similarity between the two episodes
to allow admission of the prior activity.
Shively is distinguishable because that case dealt
with the admissibility of prior bad acts for the purpose
of establishing a perpetrator’s identity, while identity
is not at issue in the case pending for us. We further
note that Shively was a plurality decision, and
therefore, find that Shively does not require us to
hold Defendant’s bad acts inadmissible for remoteness.
However, since remoteness is not the only factor in
determining whether evidence of Defendant’s prior
bad acts is more prejudicial than probative, we must
consider the other factors as well.
Here, the two prior events were substantially
similar to the present crime charged. Such similarities
include Defendant engaging in sexual behavior by
exposing himself to an undercover police officer posing
to be a minor female. In all three incidents, Defendant
was told that the minor female was under the age of
18. Despite this knowledge, Defendant continued to
pursue each girl.
In light of the above rationale, we find that
Defendant’s criminal , records were properly obtained
from the New. York Court System, and that his prior
bad acts are more probative than prejudicial and are
therefore admissible for the limited purpose of showing
intent, knowledge, and absence of mistake or accident.
At time of trial, the jury will be instructed accordingly.

*•. .

App.l06a
X:

.

We feel further compelled to address Defendant’s
remaining argument that his prior arrests never
resulted in a conviction and therefore do not fall
under the term “prior bad acts.” Defendant specifically
argues that he was not convicted of either prior act,
and in one case, the New York authorities did not
bring charges against him. Defendant, therefore, argues
that evidence of these acts cannot be admitted into
evidence. We disagree.
Pa.R.E. § 404 specifically references evidence of
other “crimes, wrongs, or acts”. It does not state that
a defendant must have been charged or convicted of
these other acts for them to be admissible, and we
find no case law which provides so. Furthermore, this
evidence is being used for the specific and limited
purpose of illustrating Defendant’s intent, knowledge
and/or absence of mistake. Defendant may not have
been convicted but he was arrested on two prior
occasions for substantially similar activity. The evi­
dence that the other crimes were committed may be
weaker than evidence of a prior conviction but the
burden will be on the prosecution to fill in the gaps
and prove how the prior acts relate to Defendant’s
intent or knowledge. Such evidence is relevant to the
issues involved in the pending criminal charges, and
we will not disregard such evidence merely because
Defendant was not officially charge or convicted.
2.

Defendant’s Motion for Change, of Venue

Defendant seeks a change of venue in this matter
asserting that there has been sustained, pervasive
and sensational pretrial publicity in Monroe County
that will prevent Defendant from receiving a fair and
impartial trial. Defendant contends that local police

ft

App.lQZa***,.—
'

1

.

•

V. **

*

.

and prosecutors held a press conference and have issued
press releases that revealed information related to
Defendant’s prior sealed criminal history and, since
that time, the press coverage of Defendant’s arrest
has been inflammatory. Specifically, Defendant argues
he has been referred to as a “pervert” and a “predator”
and has been identified as the most “high-profile”
suspect local officials’ sex sting operation has yielded
to date.
The Commonwealth, on the other hand, argues
that the articles at issue in this case were factual and
objective and were not sensational or inflammatory.
Furthermore, the Commonwealth proffers that any
issue of prejudicial media coverage can be adequately
addressed during the voir dire process. Having consid­
ered the arguments of both parties, we are now ready
to address Defendant’s Motion for Change of Venue.
Pennsylvania Rule of Criminal Procedure § 584
provides, in relevant part, as follows:
(A) All motions for change of venue or for change of venire shall be made to the court
in which the case is currently pending.
Venue or venire may be changed by that
court when it is determined after hearing
that a fair and impartial trial cannot other­
wise be had in the county where the case is
currently pending.
Pa. R. Crim. P. § 584(A). “A change of venue becomes
necessary when the trial court determines that a fair
and impartial jury cannot be selected in the county in
which the crime occurred.” Commonwealth v. Weiss,
776 Pad 958, 964 (Pa. 2001). Pretrial publicity results
in prejudice where:

i

App.lOSa

(l) The publicity is sensational, inflammatory,
and slanted toward conviction rather than
factual and objective; (2) the publicity reveals
the defendant’s prior criminal record, or if it
refers to confession, admissions or reenact­
ments of the crime by the accused; and (3)
the publicity is derived from police and
prosecuting officer reports.
Id.: see also Commonwealth v. Mulholland, 702 A.2d
1027, 1036 (Pa. 1997).
These three factors must be applied to the instant
matter. However, even if we find that “there has been
inherently prejudicial publicity which has saturated
the community, no change of venue is warranted if
the passage of time has significant^ dissipated the
prejudicial effects of the publicity.” Commonwealth v.
Pappas, 845 A.2d 829 (Pa. Super. 2004). The critical
factor is the recent and pervasive presence of inherently
prejudicial publicity. Commonwealth v. Casper; 392
A.2d 287, 293 (Pa. 1978). Thus, if there has been a
sufficient “cooling-off’ period between the publicity
and trial, if the community has not been saturated
with the publicity, or if the publicity was not pervasive,
a change of venue will not lie. Id. Furthermore, our
Supreme Court has indicated that a determination
made prior to trial that pretrial publicity has rendered
a fair and impartial trial impossible is only guesswork;
it is only at the voir dire stage that such a determination
may be positively and definitively made. Common­
wealth v. Romeri. 470 A.2d 498, 504 (Pa. 1983).
In the instant matter, Defendant has submitted the
following documents for the Court’s consideration:

App.l09a
'

•f

*■

1.

Exhibit 1—copy of Poconos area court blotter,
Pocono Record, December 23, 2009, available
online

2.

Exhibit 2—copy of Pocono Thursday: sex
sting, bank robber and earthquake, Pocono
Record, January 14, 2010, available online

3.

Exhibit 3—copy of Pocono Creepy Thursday
Midday: More on sex sting, mischief on the
Mountain, Pocono Record, January 14, 2010,
available online

4.

Exhibit 4—copy of Barrett, Monroe County
officials discuss online sex sting that nabbed
former U.N. weapons inspector (with press
conference video), Pocono Record, January
14, 2010, available online

5.

Exhibit 5—copy of Andrew Scott, Sex sting
in Poconos nets former chief U.N. weapons
inspector, Pocono Record, January 14, 2010,
available online

6.

Exhibit 6-—copy of Former U.N. inspector
Facing Child Sex Charges, WNEP-TV, Jan­
uary 14, 2010, available online

7.

Exhibit 7—copy of Pocono Friday: Cop who
catches perverts, supervisors teeing off
power line moves ahead, Pocono Record,
January 15, 2010, available online

8.

Exhibit. 8—-copy . of Andrew Scott, Small
Pocono police force casts wide, net in search
ofsexual predators, Pocono Record, January
15, 2010, available online

>•

I

i'i

|ll

AppJllOa.

9.

-

1

Exhibit 9—copy of Adam McNaughton, Ritter
faces trial in Monroe County on Internet sex
charge, Pocono Record, January 15, 2010,
available online

10. Exhibit 10—copy of Raegan Medgie, Investi­
gating Child Sex Predators, WNEP-TV,
January 18, 2010, available online
11. Exhibit 11—copy of Highlights in Poconos
news, Jan. 13-20, Pocono Record, January
22, 2010, available online
12. Exhibit 12—copy of Editorial, Protect kids
from Internet predators, Jan. 13-20, Pocono
Record, February 26, 2010, available online
13. Exhibit 13—copy of Pocono Wednesday:
Quick freeze; school lawsuit and yes,
another fugitive, Pocono Record, March 31,
2010. available online
14. Exhibit 14—copy of Andrew Scott, Man
sentenced in Barrett sex offense case, Pocono
Record, March 31, 2010, available online
15. Exhibit 15—copy of Pocono Monday Slick
roads; Water Gap Diner update; murder
and sex offender trials, Pocono Record, May
3, 2010, available online
16. Exhibit 16—copy of Scott Ritter trial re­
scheduled for July 7, Pocono Record, May 3,
3010, available online
17. Exhibit 17—copy of David Kidwell (visual ed.),
Video: Press Conference; Officials discuss
Scott Ritter online sex sting, Pocono Record,

?V

App.llla
■tax *-•
January 14, 2010, available online [also pro­
vided by DVD]
18. Exhibit 18—-copy of Video: Former UN.
Inspector Facing Child Sex Charges: A
former United Nations inspector was caught
last year in a sex sting, WNEP television
broadcast, January 14, 2010, available
online
19. Exhibit 19—copy of Video: Investigating
Child Sex Predators: The Barrett Township
Police Department in Monroe County is
actively looking for child predators online,
WNEP television broadcast, January 18,
2010, available online [also provided by
DVD]
20. Exhibit 20—Copy of Tuesday Helping fire
victims; Scott Ritter sex trial update, Jon
Gosselin in the Poconos, Pocono Record, June
22, 2010, available online
21. Exhibit 21—copy of Trial delayed for former
U.N. chieffacing sex charges, Pocono Record,
June 22, 2010, available online
22. Exhibit 22—copy of the Affidavit of Probable
Cause as posted on the Pocono Record website
23. Exhibit 23—copy of the Criminal Court Docket
as posted on the Pocono Record website
24. Exhibit 24—copy of the photo gallery of Scott
Ritter as posted on the Pocono Record website
25. Exhibit 25—copy of the press release issued
On November 17, 2009 by Chief Steven R.

!«•

App.ll2a
>*

*.V'

Williams of the Barrett Township Police
Department
26. Exhibit 26—copy of the letter regarding the
return of Mr. Ritter’s sealed records dated
June 2, 2010 by Assistant District Attorney
Michael T. Rakaczewski
We shall first address the copies of news articles
that appeared in the Pocono Record during the
months following Defendant’s arrest on November 9,
2009. Defendant has submitted copies of 16 articles,
the last of the articles having appeared on June 22,
2010, two months prior to the filing of Defendant’s
Motion for Change of Venue on August 10, 2010 and
the August 31, 2010 hearing on the Motion. We have
reviewed all of the articles and find that they are
factual, objective accounts of the investigation, arrest
and proceedings in this case. Moreover, it appears
that only a small portion of the publicity contained in
the articles has been derived from police and prose­
cuting officer reports. The main source of the infor­
mation appears to have been obtained from court
records that are available to the public. We find,
therefore, that the articles are a factual and objective
account of, the investigation and/or updates of the
continuation of scheduled hearing and trial dates. We
do not beheve the newspaper articles are sensational,
inflammatory, or in anj' way slanted toward conviction
of Defendant.
Defendant has also provided the Court with copies
of three television broadcasts including a video of a
press conference where, officials and the prosecuting
attorney briefly commented on the case. Upon review
of the television, broadcasts, we note that two of the
broadcasts, including the press conference, were aired

App.lX3a
\>
•

t

on January 14, 2010 and the other broadcast was aired
on January 18, 2010, almost sever months prior to
the filing of Defendant’s Motion.
As to the press conference, the Monroe County
ADA spoke generally about the Affidavit of Probable
Cause and the charges filed against Defendant which
are all of public record. Furthermore, the ADA com­
mented that the police are being proactive in per­
forming these investigations and trying to avoid
having actual minors victimized by predators. Although
the ADA uses the term “predator,” we do not find this
generalized characterization to be inherently prejudicial
to Defendant. Defendant will have in opportunity to
rebut any reference to his character at time of trial.
The ADA also states that the Commonwealth fully
intends on going forward with the charges and that it
is not appropriate for Defendant jto plead to ARD
because he does not meet the qualifications of the
ARD program because he allegedly Sis not a first time
offender. While we recognize that the press conference
does briefly insinuate that Defendant has a prior
criminal record, it does not provide jany further infor­
mation than that. We do not believe that this refer­
ence will interfere with impaneling a fair and impartial
jury.
Upon review of the WNEP television broadcasts,
the videos provide only limited information on the
case. The video entitled “Former U.h. Inspector Facing
Child Sex Charges ...” emphasizes Defendant’s history
as a former U.N. Weapons Inspector while the video
entitled “Investigating Child Sex Predators ...” focuses
on the Barrett Township Police Department’s efforts
and investigations in arresting “suspected child
predators” over the internet. In both videos, Defend-

i

App.ll4a'

ant’s case is referred to as “high profile”. Even if true,
this statement has no effect on whether Defendant
receives a fan’ trial. An unfair trial turns upon whether
the publicity was so extensive and pervasive that the
community must be deemed to have been saturated
by it. Such language is not inflammatory nor does it
slant towards a conviction.
As stated above, we recognize that the pretrial
publicity in this case does briefly refer to Defendant’s
prior criminal record, yet we do not believe that the
references will interfere with impaneling a fair and
impartial jury. We will be a minimum of six months
and in some cases more than a year removed from the
writing of these articles and the broadcasting of
these videos by the time this case goes to trial, thus
allowing a sufficient “cooling off period.
For purposes of argument, even if we wrere to
determine that some of the items contained in the
articles or broadcasts were “inherently prejudicial,”
our inquiry would not end there. We would next have
to determine whether such publicity had been so
extensive, so sustained and so pervasive that the
community would be deemed saturated by such pub­
licity. Commonwealth v. Rued, 670 A.2d 1129, 1141
(Pa. 1996). We conclude that the pretrial publicity in
This Instance case was not so extensive, sustained,
and pervasive that the community must be deemed to
have been saturated by it.
Moreover,, “even if there had been inherently pre­
judicial publicity which has saturated the community,
no change of Avenue is warranted if the passage of
time has significantly dissipated the prejudicial effects
of the publicity.” Commonwealth v. Chambers, 685
A.2d 96, 103 (Pa. 1996) (citations omitted). Consequent-

•:

App.ll5a

ly, the effect from any prejudice would be diminished
when the passage of time between the pretrial publicity
and the time of trial would provide a sufficient “cooling
off’ period to ameliorate the resultant effects of any
prejudicial publicity. Commonwealth v. Counterman,
719 A.2d 284 (Pa. 1998). In the case at bar, the last
media coverage/article provided by Defendant occurred
on June 22, 2010.1 Defendant’s trial will not com­
mence until, at earliest, March 2011.
In Counterman, the Pennsylvania Supreme Court
found that a seven month delay between the complained
of pretrial publicity and defendant’s trial was a suffi­
cient “cooling off period. Id. at 294. A seven month
“cooling off’ period was also held to be sufficient in
Commonwealth v. Beasley, 678 Pad 773, 778 (Pa.
1996). Similarly in Commonwealth v. Leighow, 605
A.2d 405. 408 (Pa. Super. 1992), our Superior Court
held that a seven month delay between the inherently
prejudicial media reports and jury selection was a
sufficient period of time for the prejudice to dissipate.
We conclude that an adequate “cooling off period
will have occurred to overcome any presumption of
prejudice by the time this case goes to trial. We fur­
ther note that counsel for Defendant will have the
opportunity to voir dire prospective jurors on the
issue of pretrial publicity when the trial commences.
At such time, members of the jury panel who have read
or learned about.this case can be adequately screened
on an individual voir dire basis at time of jury selection.
Accordingly, Defendant’s Motion for Change of Venus
will be denied. If during the process of voir dire it is
1 Defendant has not submitted any articles or transcripts from
any broadcasts after the filing of its Motion on August 10, 2010.

i

>
:»

App.ll6a
’ -x'.

V-v.. «*/.,

determined that the jury pool may be tainted, Defen­
dant may then renew its Motion for Change of
Venue.
3.

Commonwealth’s Motion to Exclude Expert Tes­
timony

The Commonwealth has objected to the proposed
testimony of two expert witnesses who the defense
intends to call at trial: (l) Marcus Lawson, a specialist
in Internet crimes and computer forensics examination
procedures and (2) Dr. Richard M. Hamill, a clinical
psychologist for sexual offenders. The Commonwealth
objects on several grounds including Marcus Lawson’s
ability to opine on the proper undercover police
procedures in conducting online chat investigations
and his forensic examination of Defendant’s home
computers.2 The Commonwealth further objects to Dr.
Richard Hamill’s proposed testimony on Defendant’s
ability to fantasize in adult chat rooms. We will begin
with an overview of expert testimony and then address
each of the Commonwealth’s objections in turn.
The Pennsylvania Supreme Court has defined an
expert witness as one “who possesses knowledge not
within ordinary reach of understanding, and who,
2 Defendant’s counsel, through a letter dated August 24, 2010,
also advised the Commonwealth of its intention to have Mr.
Lawson testify as to details about Yahoo chatrooms, i.e. what they
are, how they are. created; how they work, etc. The Common­
wealth does not object to Mr. Lawson generally testifying about,
what they are, how they are created, how users acquire profiles,
how chatrooms are accessed by the users once they have profiles,
and the terms of the yahoo Service Agreement. Mr. Lawson will
be allowed to testify to such information with any limitations as
provided in this-opinion and order.

*

■

f

App.ll7a

because of this knowledge, is„specially qualified to
address a particular subject.” Bergtnan v. United Servs.
Auto. Assn, 742 A.2d 1101, 1105 (Pa. Super. 1999)
citing Steele v. Shepperd, 192 A.2d 397 (Pa. 1963). If
a witness possesses neither experience nor education
in the subject matter under investigation, the witness
should be found not to qualify as an expert. Dierolfv.
Slade, 581 A.2d 649, 651 (Pa. Super. 1990). The decision
to allow a witness to testify as an expert rests within
the sound discretion of the trial court. Bergman, 742
A.2d at 1105. Rule 702 of the Pennsylvania Rules of
Evidence governs the admissibility of expert witnesses.
Rule 702 provides:
If scientific, technical or other specialized
knowledge beyond that possessed by a layper­
son will assist the trier of fact to understand
the evidence or to determine a fact in issue,
a witness qualified as an expert by knowl­
edge, skill, experience, training or education
may testify thereto in the form of an opinion
or otherwise.
Pa.R.E. § 702. To be competent, expert testimony must
be stated with reasonable certainty. Peerless Dyeing
Co. v. Industrial Risk Insurers, 573 A.2d 541, 547
(Pa. Super. 1990). Although an expert need not
testify with absolute certainty or rule out all possible
causes of a condition, his testimony must at least
express the requisite degree of professional certainty.
Eaddy v. Hamaty, 694 A.2d 639, 642 (Pa. Super.
1997). “An expert fails this standard of certainty if he
testified that the alleged cause “possibly,” or “could
have” led to the result, that it “could very properly
account” for the result, or even that it was “very
highly probable” that it caused the result.” Id.

-*

App.ll8a

a. Undercover Police Procedures
» T•
The Commonwealth objects to the Defense pre­
senting testimony from proposed expert Marcus
Lawson concerning Detective’s failure to abide by
certain national standards while conducting his inves­
tigation. In his report, Mr. Lawson discusses the
implementation of the Internet Crimes Against
Children Task Force Program (ICAC) which “helps state
and local law enforcement agencies develop responses
to cyber enticement and child pornography cases.”
[Lawson’s Report, pg. 10.] The ICAC contains protocol
for conducting undercover ICC investigations, however,
such protocol does not apply to law enforcement
agencies, such as Barrett Township Police Department,
who are not ICAC members. Furthermore, this Court
is not aware of any mandatory protocol that must be
followed by a police department such as the Barrett
Township Police Department when conducting an
online investigation such as the one at issue in this
case. Absent such a requirement, it is irrelevant
whether Detective followed or did not follow any of
ICAC’s rules, regulations, protocol, or procedures.
Defendant falls to cite any authority that requires all
law enforcement agencies across the country, specif­
ically including Barrett Township Police Department,
to follow ICAC protocol. In the absence of any such
authority, this testimony has no relevance. Detective
may testify as to the procedures he utilized to
undergo this investigation; however, Mr. Lawson will
not be allowed to testify as to Detective’s failure to
adhere to ICAC rules or protocols dr its impact upon
Defendaht’s case.

i

-

■

App.ll9a

b. Forensic Review of Defendant’s Home
Computers
The Commonwealth objects to Defendant calling
Mr. Lawson to testify about his forensic examination
of Defendant’s personal computers as it pertains to
whether there was any evidence that Defendant had
previously interacted with minors online or whether
he had viewed child pornography online. The Common­
wealth does not object to the actual forensic review or
the methodology utilized; however, the Commonwealth
argues that Lawson goes further than that assess­
ment in his report. Specifically, the Commonwealth
avers that Lawson opines that because of his forensic
examination, and the absence of child pornography or
any other chats with minors, Defendant has no predis­
position to engage in illegal behavior with minors.
Defendant was not charged with possession of child
pornography. He is charged with trying to engage in
sexual exploitation with a minor. Whether there is or
is not evidence of child pornography on Defendant’s
home computers is irrelevant to the charges facing
Defendant. It is also irrelevant whether Defendant
had, in the past, interacted in appropriate manners
with other minors online. Accordingly, Defendant may
present expert testimony regarding the forensic review
of Defendant’s computer, including the methodology
used to do so..Defendant, however, will be prohibited
from presenting any evidence of whether he had child
pornography on his computer or had viewed same on
line.
c. Ability to Fantasize in Adult Chat Rooms
The Commonwealth proffers that Defendant
intends to' call Dr. Richard Hamill to testify as to the

I

_ App.l20a

ability of consenting participants in adult internet
chatrooms to fantasize and assume that other
adult participants are doing likewise. The Defendant,
however, responds that the Commonwealth mischaracterizes Dr. Hamill’s testimony: “He will not testify
about the ability of adults to fantasize, but instead
about whether—in his clinical experience and medi­
cal training—there is a correlation between engaging
in fantasy-based conversation online with other adults
and an interest in minors.” [Defendant’s brief, pg.
10.] Therefore, Defendant argues that it cannot be
presumed that Dr. Hamill’s testimony in this regard
is within the knowledge of a lay juror.
Similar to our analysis above, Defendant is not
charged with a criminal offense arising from having
online chats of a sexual nature with other adults. He
is charged with trying to engage in sexual exploitation
with a minor. Whether there is or is not a correlation
between engaging in fantasy-based conversation online
with other adults and an interest in minors is irrelevant
to this case. It is also irrelevant whether Defendant
had, on other occasions, engaged in online chats of a
sexual or fantasy nature with other consenting adults.
The Commonwealth’s motion will be granted as to this
proposed testimony.
Accordingly, we enter the following Order.

App.l21a
ORDER OF THE COURT OF
COMMON FLEAS OF MONROE COUNTY
(DECEMBER 16, 2010)
COURT OF COMMON PLEAS OF MONROE
COUNTY FORTY-THIRD JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
COMMONWEALTH OF PENNSYLVANIA,
v.
WILLIAM SCOTT RITTER, JR,
Defendant
No. 2238 Criminal 2009
Before: Jennifer Harlacher SIBUM, Judge.
AND NOW, this 16th day of December, 2010, after
consideration of the parties’ Motions In Limine, it is
ORDERED as follows:
1.

Defendant’s Motion to Dismiss is DENIED.

2.

The Commonwealth’s Motion to Allow Evi­
dence of Prior Bad Acts is GRANTED. Defend­
ant’s Motion to Exclude Prior Bad Acts is
DENIED.
Defendant’s Motion for Change of Venue is
DENIED.

3.

App.l22a

4.

The Commonwealth’s Motion to Exclude
Expert Testimony as to Undercover Police
Procedures is GRANTED.

5.

The Commonwealth’s Motion to Exclude
Expert Testimony as to Forensic Review of
Defendant’s Computers is DENIED with
the limitation that no evidence of whether
Defendant had child pornography on his
computer is to be allowed.

6.

The Commonwealth’s Motion to Exclude
Expert Testimony regarding the correlation
between engaging in fantasy-based conver­
sation online with other adults and an
interest in minors is GRANTED.

7.

The Commonwealth’s Exhibits #1-11 are
hereby ORDERED unsealed.
By the Court:
Is/ Jennifer Harlacher Sibum
Judge

:•

App.l 23a

NOTICE OF THE COURT OF COMMON PLEAS OF
MONROE COUNTY 43RD JUDICIAL DISTRICT
OF INTENT TO DISMISS PCRA PETITION
(SEPTEMBER 15, 2016)
COURT OF COMMON PLEAS OF MONROE
COUNTY FORTY-THIRD JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
COMMONWEALTH 0F PENNSYLVANIA,
v.
WILLIAM SCOTT RITTER, JR.,
Defendant.
No. 2238 Grim 2009
Before: Stephen M. HIGGINS, Judge.
i

This matter comes before
the Court on remand
j
regarding Petitioner William Scott Ritter, Jr.’s (here­
inafter “Petitioner”) Motion for Post Conviction Col­
lateral Relief Pursuant to ^2 Pa. C.S. § 9545 of the
Post Conviction Relief Act (“PCRA”). Petitioner alleges
that his conviction resulted from numerous and obvious
errors of law and he moves for a new trial, or in the
alternative, for this Court, to Order a new 42 Pa. C.S.
§9795.4 hearing based upon an assessment of the
Pennsylvania Sexual Offender Assessment Board
(“SVP”) that is free of the taint of unlawfully obtained
evidence. The factual and procedural history is as
follows:

App. 1,24 a
:
!

The charges stem fromi an internet investigation
conducted by the Barrett Township Police Department.
As part of the investigation, Detective Ryan Venneman
(“Detective”) of the Barrett Township Police Department
was conducting undercover operations and investigating
the crime of internet sexual exploitation of children
via the computer. In the course of the investigation,
Detective purported to be a 15-year-old minor female
named “Emily.” Detective was then contacted by an
individual identified as “delmarm4fun,” a 44-year-old
male from Albany, New York. The conversation was
initiated by “delmarm4fun” in a Yahoo Instant Mes­
senger chat room.
During the conversation, “delmarm4fun” was
advised that “Emily” was a! 15-year-old female from
the Poconos, Pennsylvania. The conversation was sexual
in nature, during which “delmarm4fun” requested
“Emily” give him another picture so he could continue
to “react”. Shortly after, he provided the purported 15
year old a link to his web camera. The camera displayed
a male’s face and upper body area. “Delmarm4fun” later
adjusted the camera to focus on his penis area and
began to masturbate. “Emily” asked him if he had a
phone number where “she” could call him. “Delmarm4fun” provided a cell phone number of 518-365-6530.
“Delmarm4fun” continued to masturbate on web
cam and again asked “Emily’s” age. He was advised a
second time that she was 15 years old. He stated he
didn’t realize that she was ^5 and turned off his web
camera. He then stated he did not want to get in trouble
and said “1 was fantasizing about fucking you.” “Emily”
replied “I guess u turned it! off np”. “Delmarm4fun”
responded by asking “Emily” if she wanted “to see it
finish.” He again sent to “Emily” a link to his web

App.ll25a
'V

camera which showed him masturbating and then
ejaculating.
Detective then called the Nextel wireless phone
number provided by “deimarm4fun” and advised the
individual that he was a Police Officer with the Barrett
Township Police Department. During the conversation,
“delmarm4fun” provided his personal information as
William Scott Ritter Jr. of Delmar, New York (“Peti­
tioner”). Detective obtained several photographs of
Petitioner and compared them to the web camera
video obtained while “delmarm4fun” was masturbating
on camera. Detective determined that the photos and
video were of the same person.
On April 22, 2009, Detective secured a Court Order
for Nextel Wireless to provide subscriber information
for the wireless number of 518-365-6530. On October
13, 2009, Detective received the subscriber information
confirming the wireless number was assigned to
William Ritter of Delmar, NY at the time of the incident
on February 7, 2009. Petitioner was charged with
Unlawful Contact with a Minor—Indecent Exposure and
related charges. On June 15, 2010, the Commonwealth
filed a Notice of Prior Bad Acts pursuant to Pa. R.E.
§ 404 (“Notice”) as well as a Motion in Limine
(“Motion”) seeking to allow testimony of Petitioner’s
prior bad acts at trial. 1
1 The Commonwealth made an internet search on Petitioner’s
name which resulted in locating similar charges for. Petitioner
in Albany County, NY. The Commonwealth requested copies of
documents which were provided but subject to a New York
sealing and expungement order. The Commonwealth returned
the documents and provided the Chief ADA in Albany with a
Motion to. have the records unsealed. An order unsealing the
records was . issued by the Honorable Stephen W. Herrick on

I>

i

App.L26a

After a hearing on the Notice and Motion, as well
as Petitioner’s Motion to Dismiss and another Motion
in Limine filed by the Commonwealth on August 27,
2010, the Court issued an Opinion and Order granting
the Commonwealth’s Motions to Allow Evidence of Prior
Bad Acts, Exclude Expert Testimony as to Undercover
Police Procedures, and Exclude Expert Testimony
regarding fantasy based conversation, in all other
respects the remaining Motions of the Commonwealth
and Petitioner, including Motion to Dismiss, were
denied. A jury trial commenced on April 12, 2011,
and a verdict was reached on April 14, 2011. Petitioner
was convicted of Unlawful Contact with a Minor
(Sexual Offenses)2; Unlawful Contact with a Minor
(Open Lewdness)3; Unlawful Contact with a Minor
(Obscene or Sexually Explicit Materials or Perfor­
mances)4; Corruption of Minors6; Criminal Use of a
Communications Facility;6 and Indecent Exposure7.
June 29, 2010. After a hearing on their admissibility, these
records were admitted into evidence at the trial held on April
12, 2011. After conviction, Petitioner challenged the June 29, 2010,
order unsealing the Albany records. The Third Department of
the Appellate Division of the New York Supreme Court, by
order dated October 20, 2011; (“New York Appellate Court
order”) vacated the Albany County Court’s order of June 29,
2010, and determined that the Pennsylvania authorities did not
seek the sealed records for permissible purposes in accordance
with the New York sealing statute.
2 18 Pa. C.S.A. §6318(a)(1)
3 18 Pa. C.S.A. §6318(a)(2)
4 18 Pa. C.S.A. § 6318(a)(4)
5 18 Pa. C.S.A. § 6301(a)(1)
6 18 Pa. C.S.A. § 7512(a)

App.l27a

Petitioner filed a Motion for Extraordinary Relief
which was heard on October 26, 2011, the same date
for Petitioner’s sentencing and SVP hearing. At the
hearing, Petitioner orally withdrew his written Motion
for Extraordinary Relief and renewed the same orally
in open court pursuant to Pa. R. Crim. P 704(B), which
was denied and the hearing for SVP and sentencing
proceeded. Petitioner was determined to be a sexually
violent predator under Megan’s Law, 42 Pa. C.S.A.
§§ 9792 (statutory definitions) and 9795.4 (hearing
procedures)^. Petitioner was ordered to comply with
the registration requirements set forth in § 9795.2
and he was sentenced to undergo a total aggregate
period of incarceration at a State Correctional Insti­
tution of not less than 18 months and not to exceed
66 months.
Petitioner filed a Rule 720 Post-Sentencing Motion
for a New Trial or, in the Alternative, Resentencing
on November 7, 2011. A hearing was held on December
8, 2011, and the Court issued an Opinion and Order
on March 20, 2012, denying Petitioner’s Motion for a
New Trial or, in the Alternative, Resentencing. Peti­
tioner filed an appeal to the Pennsylvania Superior
Court on March 26, 2012. On November 6, 2013, the
Superior Court affirmed, in a non-precedential memo­
randum decision, Petitioner’s judgment of sentence.
Petitioner filed a Petition for Allowance of Appeal to
the Pennsylvania Supreme Court, which was denied
7 18 Pa. C.S.A. § 3127
8 Revisions to Megan’s Law that took effect on December 20,
2012 now provide for an assessment hearing and define criteria
for Sexually Violent Predator status pursuant to 42 Pa. C.S.A.
§§ 9799.24 (assessment) 9799.12 (definitions).

t
App.l28a

by Order dated May 21, 2014. On April 6, 2015, Peti­
tioner filed the instant PCRA petition. The Common­
wealth filed its Answer on June 9, 2015, and Defend­
ant/Petitioner filed a Reply Brief on June 22, 2015.
On January 14, 2016, we inadvertently filed an
Opinion and Order without Notice of Intent to Dismiss
Pursuant to Pa. R. Crim. P. 907 (l), and thereafter
Petitioner filed an appeal. We filed our Pa. R.A.P
1925(a) statement requesting that the Pennsylvania
Superior Court remand this matter. On July 12, 2016,
the Superior Court issued an Order remanding the case
back to this Court for further proceedings. On August
29, 2016, Petitioner filed a Motion for Conduct (sic) of
an Evidentiary Hearing Pursuant to Pa. R. Crim. P.
121 (A) (2) (Grazier9 Hearing). On September 1, 2016,
Petitioner filed a Petition for the Conduct (sic) of an
Evidentiary Hearing Pursuant to 42 Pa. C.S. § 9545
(D), (hereinafter referred to as “Petition”). On Sep­
tember 9, 2016, Petitioner waived his right to counsel
following a hearing pursuant to Pa. R. Crim. P. 121
(A)(2) and Commonwealth v. Grazier, 713 A.2d 81
(1998). The parties’ briefs have been previously sub­
mitted, and we are now prepared to dispose of this
matter.
DISCUSSION
To be eligible for relief. . . , the petitioner
must plead and prove by a preponderance of
the evidence all of the following:
(l) That the petitioner has been convicted of a
crime under the laws of this Commonwealth
and is at the time relief is granted:
9 Commonwealth v. Grazier, 713 A.2d 81 (1998)

App.l29a
(i)

currently serving a sentence of imprison­
ment, probation or parole for the crime;

(ii) awaiting execution of a sentence of
death for the crime; or
(iii) serving a sentence which must expire
before the person may commence serving
the disputed sentence.
42 Pa. C.S.A. § 9543(a)(1).
We find that Defendant’s Petition has been timely
filed and meets the above relevant criteria for filing a
PCRA Petition. Consequently, we have jurisdiction to
hear the merits of the petition. Commonwealth v.
Robinson, 837 A.2d 1157, 1161 (Pa. 2003).
In his PCRA petition, Petitioner challenges his
“unconstitutional” conviction by claiming that the
Court failed to recognize, under the Full Faith and
Credit Clause of the United States Constitution and
28 U.S.C. § 1738, the primacy of the judgments of
New York on matters of New York law, including issues
of preclusion. Petitioner contends that when the Third
Department of the Appellate Division of the New York
Supreme Court (“New York Appellate Court”) vacated
the ex parte unsealing order issued by the Albany
County Court, we erred by refusing to give full faith
and credit to the New York Appellate Court order.
Petitioner further argues that the New York Appellate
Court order was not available during his post-conviction
motions or on direct appeal.
Res Judicata and “Law of the Case”
Petitioner first argues that he is entitled to relief
under PCRA since the New York Appellate Court

I

App.l30a
order was not available for his post-conviction pro­
ceeding and on direct appeal. We disagree. We find
Petitioner’s claim that the New York Appellate Court
Order was not available for his post-sentence and
direct appeal to be disingenuous. The issue of the New
York Appellate Court order was specifically addressed
in the Pennsylvania Superior Court opinion dated
November 6, 2013. At the time of trial, the Albany
County Court unsealing order was a valid order to
which we gave “full faith and credit.” Recognizing the
order as valid, we could not usurp the power of the
New York Court with respect to the interpretation of
a New York statute.
Presently, Petitioner is requesting that we apply
the New York Appellate Court order of October 10,
2011, as interpreted in the Albany County Court
order of February 5, 2015, reversing the unsealing
order, retroactively to this case. However, we are
prohibited from doing under the doctrines of res judicata
and “law of the case.” “Res judicata, or claim preclusion,
prohibits parties involved in prior, concluded litigation
from subsequently asserting claims in a later action
that were raised, or could have been raised, in the
previous adjudication.” Wilkes ex rel. Mason v. Phoenix
Home Life Mutual Insurance Company, 587 Pa. 607,
902 A.2d 366, 376 (2006) (citation omitted). Our courts
have held that “[wlhere an action has reached a final
conclusion, ‘all other claims arising out of that same
transaction or series of transactions are barred, even
if it is based upon different theories or if seeking a
different remedy.’” Wilkes, 587. Pa. at 610, 902 A.3d
at 378 (citation omitted). Petitioner’s action reached
a final conclusion after the Pennsylvania Supreme
Court denied his petition for allowance of appeal. We

App.l31a

will not retroactively apply the New York Appellate
Court order in this matter where the action has
reached its final conclusion.
The “law of the case” doctrine refers to the concept
that “a court involved in the later phases of a htigated
matter should not reopen questions decided by another
judge of that same court or by a higher court in the
earlier phases of the matter”. Commonwealth v. Starr,
664 A.2d 1326, 1331 (1995) (citation omitted). Accord­
ingly, we may not alter the resolution of a legal
question previously decided by the trial and/or appel­
late courts in the matter. Id. Instantly, the question
of the admissibility of the unsealed New York records
has been previously determined by the trial court
and Superior Court, and therefore we may not alter
that decision here.
Regarding “newly-discovered evidence”, Petitioner
has the burden of establishing “newly-discovered”
evidence which (l) was discovered after trial and could
not have been obtained at or prior to trial through
reasonable diligence; (2) is not cumulative; (3) is not
being used solely to impeach credibility; and (4)
would likely compel a different verdict. Common­
wealth v. Solano, 129 A.3d 156, 1179-1180 (Pa. 2015)
(citation omitted). After reviewing the above four
factors, we find that Petitioner has failed to meet his
burden. First, we agree that the order of the New
York Appellate Court vacating the unsealing order of
the Albany County Court could not have been obtained
prior to trial through reasonable diligence. Second,
we recognize that this evidence may be viewed as not
cumulative. Third, we agree that this evidence is not
being used for impeachment purposes. However, in
regard to the final factor, we do not believe that this

App.l32a

evidence would likely compel a different verdict. After
a review of the record, we find that the Commonwealth
had presented a substantial amount of evidence to
support the verdict. This evidence included a video
showing Petitioner’s face as well as him masturbating
to who he thought was a 15-year old girl. The evi­
dence also included credible testimony of Detective.
The Superior Court opinion affirming the judgment
of sentence recognized this overwhelming evidence of
Petitionei'’s guilt. Accordingly, we do not believe that
this “newly discovered” evidence or the preclusion
thereof, would likely compel a different verdict. Peti­
tioner, having failed to demonstrate that a different
verdict would result, has not met his burden regard­
ing this “newly discovered” evidence. Therefore, this
issue is without merit.
In addition, Petitioner acknowledges that the
matter of the New York Appellate Court’s order was
previously litigated. See Petition, filed September 1,
2016 at K 3. We find that Petitioner cannot obtain
PCRA review of a claim previously litigated on direct
appeal, Commonwealth v. Bond, 572 Pa. 588, 819 A.2d
33 (2002), and this issue has been so litigated.
Accordingly, Petitioner is not eligible for relief on this
issue.
SVP Hearing
In the alternative, Petitioner seeks a “new 42 Pa.
C.S.A. § 9795.4 hearing” based upon an assessment of
the SVP that is free from the taint of unlawfully
obtained evidence. Petitioner failed to raise this issue
on appeal, even though he argued that he was entitled
to a new SVP hearing in his Post-Sentence Motion filed
on November 7, 2011. Petitioner now argues that the

App.l33a

February 6, 2015 order of the Albany County Court
should be retroactively applied to this case which
would entitle Petitioner to a new SVP hearing. We do
not agree.
“Retroactive application is a matter of judicial
discretion which must be exercised on a case by case
basis.” Blackwell v. Com., State Ethics Comm’n, 527
Pa. 172, 182, 589 A.2d 1094, 1099 (1991). In light of
the question involving the retroactive application of
the February 6, 2015 Albany County Court order, we
adhere to the principle that, “a party whose case is
pending on direct appeal is entitled to the benefit of
changes in law which occurs before the judgment
becomes final.” Id.
First, the Albany County Court order dated Feb­
ruary 5, 2015, was issued after Petitioner’s judgment
of sentence and SVP determination became final.
Moreover, we believe that the effect on the adminis­
tration of justice by the retroactive application of the
Albany County Court order would have a chilling effect
on not only this case but all cases. Once a final deter­
mination in this matter was made, retroactive appli­
cation of a subsequent ruling by the New York Appel­
late Court, as interpreted by the Albany County Court
on February 5, 2015, would create havoc by re-liti­
gating Petitioner’s final SVP determination. Simply
Stated, the judgment of sentence and SVP determina­
tion in this case is final. This finality precludes Peti­
tioner from being entitled to the benefit of a misappli­
cation of the law by retroactive application.
■

In addition, “[t]o be eligible for relief under the
statute, a petitioner must plead and prove that ‘the
allegation of error has not been previously litigated
Or waived.’” Commonwealth v. Oliver, 128 A.3d 1275,

App.l34a

1281 (Pa. Super. 2015) [citing 42 Pa. C.S. § 9543(a)(3)],
“An issue is waived if [a petitioner] could have raised

it but failed to do so before trial, at trial, ... on
appeal or in a prior state post[-]conviction proceeding.”
/(/(quoting Commonwealth v. Robinson, 623 Pa. 345,
82 A. 3d 998, 1005 (2013). An issue has been previously
litigated if “the highest appellate court in which the
petitioner could have had review as a matter of right
has ruled on the merits of the issue.” 42 Pa. C.S.A.
§ 9544(a)(2).
Instantly, Petitioner could have raised the issue
of the use of the unsealed records at his SVP hearing
during direct appeal but failed to do so.l° Accordingly,
this issue is waived and we find that Petitioner is not
entitled relief.
Petition for Evidentiary Hearing
Finally, on September 1, 2016, Petitioner filed
his Petition requesting an evidentiary hearing on his
10 On November 7, 2011 Defendant/Petitioner filed a Rule 720
Post-Sentencing Motion for a New Trial or, in the Alternative,
Resentencing. On March 20, 2012, this Court issued an Opinion
and Order in which we considered Petitioner’s request for the
preparation of new reports from the Pennsylvania Sexual Offender
Assessment Board and the Monroe County Probation Depart­
ment because both reports referred to the evidence pertaining to
the 2001 arrest that should not have been considered at sentencing
under New York law. We denied Petitioner’s post-sentence motions
and request for resentencing. On March 26, 2012, Petitioner
filed an appeal to the Superior Court of Pennsylvania. On April
26, 2012, Petitioner filed his Concise Statement of Errors to be
Complained of on Appeal. Petitioner did not raise the issue of
the use of the unsealed records at his SVP hearing on direct
appeal. Accordingly, we deem the issue waived pursuant to 42
Pa. C.S. § 9543(a)(3).

App.l35a
PCRA petition pursuant to 42 Pa. C.S. § 9545(d), which
provides as follows:

;

j

Where a petitioner requests an evidentiary
hearing, the petition shall include a signed
certification as to each intended witness
stating the witness’s name, address, date of
birth and substance of testimony and shall
include any documents material to that
witness’s testimony. Failure to substantially
comply with the requirements of this para­
graph shall render the proposed witness’s
testimony inadmissible.

Petitioner has complied with § 9545(d), however, we
decline to conduct an evidentiary hearing in this
niatter. We are aware that a “PCRA court need not
hjold a hearing on every issue appellant raises, as a
hearing is only required on ‘genuine issues of material
fact.’” Commonwealth v. Albrecht, 606 Pa. 64, 67, 994
Ai.2d 1091, 1093 (2010) (internal citations omitted). “If
the PCRA court can determine from the record that
no genuine issues of material fact exist, then a hearing
is not necessary.” Commonwealth v. Barbosa, 819 A.2d
81, 85 (Pa. Super. 2003) (citation omitted).
We have reviewed the Certification of Witness
(“Certification”) filed by Petitioner and we find that it
does not contain genuine issues concerning any material
fact. The Certification simply restates the facts that
have already been submitted to the Court. Specifically,
Petitioner would testify to the proceedings before the
Albany County Court and that the records were
unlawfully unsealed. We were made aware that
the records were improvidently unsealed prior to

sentencing.

App.l36a

Petitioner would also testify that if the New
Yjork records were not allowed to be used by Paula

Birust of the Pennsylvania Sexual Offenders Board,
Petitioner would not have been found to be a sexually
violent predator. We are aware of this argument;
however, there are no genuine issues of material fact
to which Petitioner would testify. Finally, Petitioner
would testify that the Pennsylvania Superior Court
found that this Court did not err in allowing the ad­
mission of the Petitioner’s records into evidence at
the time of trial. All of this information has been pre­
viously presented to, and ruled upon by this Court
aiid we find that no purpose would be served by any
further proceeding.
In light of the foregoing, we enter the following
order.

App.l37a

ORDER OF THE COURT OF COMMON PLEAS
(SEPTEMBER 15, 2016)
COURT OF COMMON PLEAS OF MONROE
COUNTY FORTY-THIRD JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
COMMONWEALTH OF PENNSYLVANIA,
v.
WILLIAM SCOTT RITTER, JR.,
Defendant.
No. 2238 Crim 2009
Before: Stephen M. HIGGINS, Judge.
AND NOW, this 15th day of September 2016, upon
consideration of Petitioner William Scott Ritter, Jr.’s
PCRA Petition and his Petition for the Conduct (sic)
of an Evidentiary Hearing Pursuant to 42 Pa. C.S.
§ 9545 (D), and it appearing that there are no genuine
issues concerning any material fact and that Petitioner
is not entitled to Post-Conviction Collateral Relief, and
no purpose would be served by any other proceedings,
in accordance with Pa. R. Crim. P. 907(1), NOTICE is
hereby given to the parties that this Court intends to
DISMISS Petitioner’s PCRA Petition without hearing.
If either party objects to the dismissal of the
PCRA without hearing, they shall respond to this Order
and Notice within 20 days. The objecting party shall

App.l38a
file the written response with the Clerk of Courts of
Monroe County and shall mail a copy thereof to the

opposing party and the undersigned judge. Upon the
receipt of the written response, or lack thereof, the
Cpurt will then determine whether to grant leave to
file an amended petition, dismiss without hearing on
Petitioner’s PCRA or direct that the proceedings con­
tinue.
The Clerk of Courts of Monroe County shall serve
a copy of this Order and this Notice of Intent to
Dismiss upon Petitioner William Scott Ritter, Jr.,
and the Monroe County District Attorney’s Office.

BY THE COURT:
/s/ Stephen M. Higgins
Judge

App.l39a

BENCH RULING OF THE COURT OF
ALBANY COUNTY, NEW YORK, TRANSCRIPT
(FEBRUARY 5, 2015)
STATE OF NEW YORK, COUNTY OF ALBANY
THE PEOPLE OF THE STATE OF NEW YORK,
v.
WILLIAM RITTER,
Defendant
Before: Hon. Peter A. LYNCH, County Court Judge.
[February 5, 2015 Transcript, p.2]
THE COURT: We’re going to go on the record in the
matter of the People of the State of New York
against William Ritter. This matter is scheduled
today for a hearing to determine Mr. Ritter’s
classification under the Sex Offender Registration
Act.
Counsel, would you put your respective appea­
rances on the record, please?
IMS. McCANNEY: Jennifer McCanney for the People
of the State of New York.
MR. MEANY: Joe Meany, alternate public defender’s
office for Mr. Ritter who is present to my right.
THE COURT: Okay. So as a preliminary matter, Mr.
Ritter had filed pro se a motion in limine which

App.l40a

has subsequently been joined in by Mr. Meany
after Mr. Meany’s office was appointed to help
him.
With respect to the defense claim that to the extent
that any of the underlying documents proffered
by the People to be considered in context of this
proceeding that were disclosed in violation of a
sealing order corresponding to matters in the
town of Colonie in 2001 and which information
was determined to have been unlawfully unsealed
by decision of the Appellate Division on October
20th, 2011 in the case entitled In the Matter of
the Albany County District Attorney’s Office on
Behalf of Barrett Township Police versus William
T., and specifically the Appellate Division had
found that to the extent that the Court below,
Judge Herrick, had authorized the release of
records corresponding to a matter that had been
adjourned in contemplation of dismissal in the
town of Colonie in 2001, that that unsealing
order was unlawful and Judge Herrick’s deter­
mination to unseal that record was reversed. So
the defense has filed a motion seeking to preclude
from the record of this proceeding any informa­
tion that was the product of that unsealing. Does
that, Mr. Meany, at least outline the general
nature of your motion?
MR. MEANY: I’m with you so far, Judge, yes. Obviously
it’s a very nuanced issue but I think that frames
it.
THE COURT: Okay. Now, you have, in your memo­
randum in support of the motion, you have also
taken the position that in addition to striking from
the record any of the information contained from

App.l41a
the 2001 Colonie case or cases that were the sub:

ject of the sealing order, you have written that

the motion to preclude would include the diag­
nosis of paraphilia NOS referenced by the case
summary and also by the Albany County district
attorney's office in their application for an override
based on mental abnormality. Now, directing
your attention to the case summary at issue, the
case summary does state, and I quote, “He met
diagnostic criteria for paraphilia not otherwise
specified, a mental abnormality which includes
exhibitionism.” And you, Mr. Meany, in your
papers have taken the position that if I were to
preclude or strike the information that was the
product of the unsealing order, that the diagnosis
of pai’aphilia would also be precluded.
MR. MEANY: Let me explain my chain of—
THE COURT: Let me ask you a pointed question. Is
it your contention that the diagnosis of paraphilia
is dependent upon the information that was
released as a result of the unsealing order?
MR. MEANY: Absolutely it is. And I think there is
ample—
THE COURT: Tell me your basis for that.
MR. MEANY: —support of that. Judge, what you have
in the Board summary is a double hearsay which
is permissible in some circumstances in this
context.
THE COURT: Let me make this more clear. Let’s
assume for the sake of discussion I preclude any
of the information contained from the 2001 Colonie
cases which were the subject of the unsealing

App.l42a

order. You claim that but for that information,
there would be no diagnosis of paraphilia. What
is your basis for making that claim?
MR. MEANY: The diagnosis of paraphilia NOS, which
we would intend to challenge in any event, but
the diagnosis is contingent upon the existence of
more than one alleged incident over a period of
more than six months. So without the information
leading to—without the Colonie information, the
examiner in Pennsylvania who said not that there
was a diagnosis, to be clear, she said that he met
the diagnostic criteria which is—
THE COURT: I understand that.
MR. MEANY: —which is an enormous distinction in
this case, but without that information at her
disposal, she would never have been able to
advance the opinion that he met the diagnostic
criteria for paraphilia NOS. The only reason why
he does meet that criteria is because they’re
relying on the fact that they received information
that there was a prior—that there were prior
incidents and that therefore there was what they
call a pattern. We dispute that, but without the
information from the Colonie file, she is not able
to advance that and she states that, Judge.
THE COURT: Well, wait a minute. I’m looking right
at it. She states that he meets the diagnostic
criteria for paraphilia after she referenced the
700 online conversations distinct from the 2001
behavior and then the 2004 says he resumed the
activity. We’re talking about a diagnosis that
talks about exhibitionism.

App.l43a

MR. ME ANY: Let me be—first of all, I mean, to some
extent we’re getting away from your question but
let me answer the point that you’re raising.
THE COURT: I really want you to stay on the question.
MR. MEANY: Well, he doesn’t have exhibitionism
and he doesn’t even meet the diagnostic criteria
for that and that’s not—what the Board is saying—
it’s really badly phrased by the Board. What it
says is he has this paraphernalia which is
something that includes, for example, exhib­
itionism. There is no allegation that he is an
exhibitionist. That’s not the nature of his offense.
The diagnostic criteria for exhibitionism is
exposing yourself to unsuspecting people and
that’s not—
THE COURT: So let’s do this—
MR. MEANY: Can I—
THE COURT: Hold on, because I want a very narrow
point here. I’m going to let you argue all the
mei'its of the case. I’m just talking about the
procedural motion in limine and to what extent,
if any, if the motion is granted, what information
would be precluded. Is it your contention that if I
grant the motion in limine to preclude any refer­
ence to the 2001 Colonie cases which were the
subject of the unsealing order and which were the
subject of the Appellate Division decision finding
that that information was unlawfully unsealed,
that that preclusion would also preclude that part
of the case summary which states that he met
diagnostic criteria for paraphilia? Yes or no.
MR. MEANY: Yes.

App.l44a

THE COURT: Okay. And your basis for that is?
MR. MEANY: My basis for that is that the Board’s
summary is a chain of hearsay and what the Board
is referencing in its summary is the report that
was created by Miss Brust from the Pennsylvania
Board of Sex Examiners.
THE COURT: Do you have that report?
MR. MEANY: We do.
THE COURT: And can you point out what portions of
the Brust report reference the 2001 Colonie
matters as being a basis for the diagnosis?
MR. MEANY: I’ll use Miss McCanney’s copy that’s
been marked, Judge. Miss Brust indicates that her
evaluation procedures are, and then she indicates
a list of material that she reviewed including
criminal information and police complaint, Colonie,
New York, Colonie New York arrest report,
Colonie New York investigator’s case notes, and
that is the basis upon which she drew the con­
clusion that there had been a prior incident and
that she then assigned, you know. So essentially
that’s how she became aware. Reviewing those
documents is how she became aware of what she
says are the facts related to that incident which
she then, you know, credited and incorporated
into her report and used as the basis for the con­
clusion that he met the diagnostic criteria because
there had been another incident outside of a
six—she comes to the conclusion that this is a
pattern. We would obviously argue that it’s, you
know, at best isolated incidents but she, you
know, she relied upon the contents of that file to

App.l45a

come to the conclusion as to what the facts of
that incident were.

THE COURT: Okay.
MR. MEANY: Could I just say one other thing. She
did speak to a detective who was related to that
case but the evidence is that he relied upon the
notes in speaking with her and that she would
not have spoken with him if it were not for the
disclosure within the body of the Colonie file.
THE COURT: Okay. Miss McCanney, in just review­
ing the packet, the discovery packet that you
provided, and of course we’re going to get into
the marking of exhibits once we get into the pro­
ceeding itself, but on this motion clearly the case
summary references the findings of Brust with
respect to the claim, at least in the case sum­
mary, that the defendant meets the criteria for
paraphilia and it’s fundamentally clear that not
only does Brust, Paula Brust, lay out in her
evaluation procedures the criminal information
and complaint in Colonie, the arrest report, the
investigator case notes, and also including quite
a bit of text in the report about the 2001 Colonie
incident, what is your position as to whether or
not the Brust finding that Mr. Ritter met the
criteria, diagnostic criteria, for paraphilia is
dependent or not upon the 2001 information from
the Colonie case?
MS. McCANNEY: Your Honor, it’s the People’s posi­
tion that the assessment by Miss Brust was not
based solely upon the information that was
received from unsealing those 2001 records.
THE COURT: Okay. That’s true.

App.l46a

However, but if Brust relied at least in part on
the 200 1 records, are you in a position to say
that if the 2001 records were not available and if
that information was precluded, that Brust still
would have rendered the same finding?
MS. McCANNEY: Yes.
THE COURT: Tell me how.
MS. McCANNEY: Based upon the information she
provides in her report that the defendant admitted
to exhibition-like behavior with adult females as
well separate and apart from the charges that he
had pending in Colonie.
THE COURT: Well, the question is really distillable
to this: I assume once we get into the merits of
the case that you’re going to be offering into evi­
dence the documents attached to your discovery
packet which would include the case summary
which relied on the Brust report as well as the
Brust report, is that correct?
MS. McCANNEY: That’s correct, your Honor.
THE COURT: And if I were to strike all of the infor­
mation from the Colonie case from this record
based upon the Appellate Division of our Third
Department finding that that information should
not have been disclosed, how can you take the
position that Brust would have made the same
finding that Mr. Ritter met that diagnostic
criteria for paraphilia?
MS. McCANNEY: I think because, your Honor, her
decision was based not solely on the information
from Colonie but from a thorough investigation
of all incidents involving this perpetrator.

i

App.l47a

THE COURT: So is it your contention, then, that if I
were to strike from the record any reference to
the 2001 Colonie case, that the Brust finding
would still be admissible but the striking of that
information would go toward the weight of the
Brust finding and not the admissibility of it?
MS. McCANNEY: Yes, your Honor.
MR. MEANY: Could I be heard on that question,
Judge?
THE COURT: Yes.
MR. MEANY: Judge, first I would note that this
question came up during the sentencing proceed­
ing in Pennsylvania and Brust was asked by Mr.
Ritter’s counsel, this is page 89 of Brust’s
testimony with regard to the sentencing proce­
dure in Pennsylvania—
THE COURT: Which I assume you have a complete
transcript of that?
MR. MEANY: We do, Judge. I’ve shared it with—
THE COURT: Are you going to be putting that into
evidence here?
MR. MEANY: I mean the part—we haven’t done it
yet but by stipulation the parties have agreed
that the testimony from the proceedings in
Pennsylvania is reliable hearsay.
THE COURT: Okay. Go ahead.
MR. MEANY: Again, at line six on questioning on
this point the question was:
“And again the basis and the sole basis for the
diagnosis of paraphilia is that in fact it has to be

App.l48a

-

recurrent over more than a six-month period,
correct?

“ANSWER: Correct.
“QUESTION: That goes back to the New York situa­
tion. Let me ask you this: In terms if in fact—
well, you’ve seen Dr. Hamill’s report of course.
He’s going to testify in this case, correct?
“Correct.
“I’m just”—then there’s some extraneous things
but it seems that her answer with regard to that
is the basis and the sole basis for the diagnosis
of pedophilia is that it goes back to the New
York situation and I would further say so Miss
McCanney—
THE COURT: Pedophilia or paraphilia?
MR. MEANY: Paraphilia. There’s been no indication
from Brust—Brust also says that she does not
diagnose him with exhibitionism. Exhibitionism
is a separate type of behavior that involves
exposing yourself to unsuspecting people.
THE COURT: Okay. So now let’s get back to the pro­
cedural question at hand. The motion in limine
to preclude and the scope of the information that
you’re seeking to preclude, can you succinctly
summarize what portion of the discovery packet
that you are seeking to preclude on your motion
in limine?
MR. MEANY: Judge, I am seeking to preclude any
reference within the Brust report to the Colonie,
town of Colonie incidents, and I am seeking to
preclude any opinion that she gives based upon

App.l49a

the existence of the Colonie incidents, informa­
tion which it seems very clear to me is in a sense
the fruit of the poisonous tree because it’s directly
in contravention of the Appellate Division’s holdi­
ng in the matter of William T. They specifically
say that sex offender registration purposes are
not a purpose for which it is acceptable to use
this material.
I would further say, Judge, that the Court
should grant that application and then the
question would become, to the People, what reli­
able hearsay exists upon which to base the con­
clusion of paraphilia NOS. Without the informa­
tion from the Colonie file, there is no conclusion
that he has paraphilia NOS. Without that con­
clusion, there is nothing that even approaches—
and we don’t believe that’s a clinical assessment
to begin with—
THE COURT: Hold on a second. That’s a merit deter­
mination. Your motion is to preclude any refer­
ence to the 2001 Colonie case and—
MR. MEANY: The opinion.
THE COURT: —any opinion based upon information
derived from that case that Mr. Ritter meets the
diagnostic criteria of paraphilia.
MR. MEANY: That’s right, Judge. When you pare
away the information that’s gleaned from that
file, it’s clear that there is no other reliable
hearsay that would go to the diagnostic criteria
for paraphilia.
THE COURT: Okay. Now, Ms. McCanney, I would
like you to address the specific motion in limine

App.l50a

in this case insofar as it relates to the 2001
Colonie cases and insofar as the defense has
asserted that the scope of the preclusion motion
is not only to the referenced facts of that 2001
case but also the opinion issued by Paula Brust
that Mr. Ritter met the diagnostic criteria of
paraphilia.
MS. McCANNEY: Your Honor, with regard to this hear­
ing and reference to the 2001 cases in Colonie,
the People do not intend on scoring for that prior
conduct so in respect to the diagnosis of Paula
Brust, it’s the People’s position that there is no
clear indication that her diagnosis rests solely
upon the fact that this defendant had those prior
incidents in 2001 and—
THE COURT: How can you say she would render
that same opinion if the 2001 information was
not part of the report?
MS. McCANNEY: Based upon her report, your Honor,
which I do intend on admitting into evidence in
which admissions of the defendant are considered
as well as his conduct in the present offense in
which he is here to be scored upon along with his
admissions of exhibition-like behavior with not
only minors but adults as well.
THE COURT: Okay. Well, on the motion in limine, I
certainly recognize the precedent of the Appel­
late Division’s decision in the matter of Albany
County versus William T. specifically finding
that the information from the 2001 Colonie case
was not lawfully unsealed. So it is the judgment
of this Court that for purposes of this proceeding,
any document proffered in evidence, any reference

App.l51a

to the 2001 Colonie case or cases as the situation
occurs is precluded. So to the extent that any
document is including reference to the 200 1
Colonie information, that information is pre­
cluded and will be struck from the document and
will not be considered by the Court in rendering a
determination of Mr. Ritter’s classification. To
that extent the motion is in all respects granted.
Now, to the extent that the defense is also seek­
ing to preclude or strike the reference of Paula
Brust that the defendant evinces or meets the
criteria, diagnostic criteria, for paraphilia, the
motion in limine is denied because from my view
the defense arguments go toward the weight of
the finding in view of the fact that the People
are claiming that there is sufficient information
in the report distinct from the 2001 Colonie
cases to support that finding. However, this
motion in limine to the extent that I’m denying
it to preclude the reference to paraphilia is sub­
ject to my revisiting it after I’ve heard all the
proof in this case and at this point it is denied
without prejudice to be renewed upon the close
of the evidence in this case.
Now, do both counsel understand the Court’s
ruling?
MS. McCANNEY: Yes, your Honor.
MR. ME ANY: Let me, to be clear, Judge, my under­
standing is that there will be no evidence intro­
duced that’s derivative of the Colonie matter and
that the People, should they continue to seek an
override, would need to introduce something
from the Brust report that—

App.l52a

THE COURT: Distinct from Colonie.
MR. MEANY: —that supports that finding. Okay.
THE COURT: Now, as a practical matter, before we
get going with the introduction of exhibits, I
think it’s fundamentally clear that throughout
the course of the case summary and the documents
that will undoubtedly be marked and received in
evidence, rather than having counsel mechanically
go through the documents and physically strike
them and redact them from the documents,
clearly this is a nonjury proceeding, my view of
it is that I’ve already ruled that the reference to
the Colonie matter is struck. It will not be
considered as part of the record of this proceed­
ing. I certainly want to make sure that this
Court adheres to the Appellate Division decision
in the matter of William T. and it would be my
intent that if you’re going to offer the exhibits,
then if they are otherwise acceptable, they would
be susceptible to redaction in accord with this
Court’s decision. Miss McCanney, is that accept­
able to you?
MS. McCANNEY: Yes, your Honor.
THE COURT: Mr. Meany.
MR. MEANY: I agree, Judge.
THE COURT: Okay. All right. Now, we’re going to
move on to the merits of the proceeding at this
point. Okay.
Ms. McCanney, would you state the sex offense
conviction which is the basis for today’s rating
procedure specifying the sentencing date, the
section of law, as well as the risk assessment

App.l53a

instrument factors which you claim are deemed
established because they were elements of the
underlying sex offense?
MS. McCANNEY: Your Honor, the sex offense of con­
viction which is the basis of today’s rating proce­
dure is unlawful contact/communication with a
minor, sexual offenses, in violation of Pennsyl­
vania law 18 Section 6318 Sections(aXl) unlaw­
ful contact/communication with a minor, obscene
material or performance in violation of Pennsyl­
vania law 18 Section 6318 Sections(a)(4); open
lewdness in violation of Pennsylvania law 18
Section 6318 Sections(a)(2); attempted corrupttion
of minors in violation of Pennsylvania law 18
Section 0901/6301 Sections(aXl) and criminal
use of communications facility in violation of
Pennsylvania law 18 Section 7512 Section(a).
The defendant’s sentencing date was October 26,
2011. It’s the People’s contention, your Honor,
that risk factor number five, age of victim, spe­
cifically ll through 16 scoring a value of 20
points is deemed established by this conviction.
However, I have further proof of that as well.
THE COURT: All right. We’ll get to that. So it’s your
contention, then, that by virtue of his conviction
of those underlying crimes, your position is that
risk factor number five, age of victim, has been
established as a matter of law and for which you
seek an assessment of 20 points?
MS. McCANNEY: Correct, your Honor.
THE COURT: Okay. Now, for each of the risk factors
for which the People are seeking a point assess­
ment, identify the risk factor by name, and

App.l54a
number, number of points that you are seeking
to be assessed, the reasons therefor, and then
immediately identify the document which con­
tains what you claim constitutes reliable hearsay
evidence and then immediately read the excerpts
which the People argue support the particular
risk factor point assessment.
MS. McCANNEY: Your Honor, the first risk factor
the People are asking to score the defendant on
is risk factor number five entitled age of victim,
specifically 11 through 16, scoring 20 points. The
document which contains what the People argue
is reliable hearsay is the presentence investiga­
tion report from Monroe County. Directing the
Court’s attention to page 15 of the People’s
discovery packet under—
THE COURT: Are you going to have the discovery
packet marked and received?
MS. McCANNEY: Yes. I’m sorry, your Honor.
THE COURT: Do you want to use this one?
MS. McCANNEY: Yes, thank you.
THE COURT: Do you have any objection?
MR. MEANY: No, Judge. I’d like to see the—
THE COURT: Why don’t you have this marked.
MR. MEANY: I think I’ve taken mine apart anyway.
(People’s Exhibit 2 marked for identification.)
THE COURT: You’ve had your discovery packet
marked as People’s Exhibit 2, is that correct?
MS. McCANNEY: Yes, your Honor.

App.l55a

THE COURT: Are you offering it at this time?
MS. McCANNEY: I am. Thank you.
THE COURT: Mr. Meany.
MR. MEANY: Subject to the previous ruling, no
objection.
THE COURT: All right. Exhibit 2 is received subject
to redaction in accord with my prior ruling here
today.
(People’s Exhibit 2 received.)
MS. McCANNEY: Understood. Thank you.
THE COURT: Okay. Go ahead.
MS. McCANNEY: All right. Thank you, your Honor.
Directing your attention to page 15 of the
discovery packet under the paragraph entitled
Arresting Officer’s Version taken from arrest
warrant affidavit, second paragraph, while con­
ducting the investigation, your affiant purported
to be a 15-year-old minor female named Emily.
Your affiant was then contacted by an individual
who identified himself as Delmar Man For Fun.
Delmar Man For Fun typed that he was a 44year-old male from Albany, New York. The con­
versation was initiated by Delmar Man For Fun on
a chat room on Yahoo instant messenger. During
the conversation Delmar Man for Fun was advised
that I was a 15-year-old female from the Poconos,
Pennsylvania. The conversation was sexual in
nature. During the conversation Delmar Man for
Fun stated that he wanted me to give him
another picture so he can continue to react.
Shortly after, he provided the purported 15-yearold female a link to his web camera. Without

App.l56a
having to conclude that paragraph, the Court
can continue to read that, I just ask that you go
to the next paragraph in which it states he then
continued to masturbate on the web cam and he
asked how old I was. He was advised again that
I was 15 years old. He said he didn’t realize that
I was 15 years old and turned off his web camera.
Based upon that, your Honor, the People feel it
is appropriate to score the defendant for 20
points for age of victim.
THE COURT: Okay.
MS. McCANNEY: The next risk factor the People are
requesting a score on, your Honor, is risk factor
number seven, relationship with victim, stranger or
established for purpose of victim identifying or
professional relationship. The People are seeking
a point assessment of 20 points. Again, the People,
your Honor, are relying on the presentence
investigation report from Monroe County and
essentially, your Honor, the same information
that the People read to this Court for the previous
risk factor. This was an officer who was a
stranger to this defendant posing as a 15-yearold child. Therefore the People contend it is
appropriate to score 20 points for that risk factor
THE COURT: Okay.
MS. McCANNEY: Moving on, your Honor, to risk
factor number eleven entitled Drug or Alcohol
Abuse. Specifically the People are scoring 15
points for history of abuse. I would direct the
Court’s attention again to the presentence inves­
tigation report from Monroe County, page 23 of
the discovery packet. Under the subparagraph

App.l57a

marked alcohol, third sentence, the defendant
related that when he entered the United States
Marines, his drinking did become a regular habit
and he would drink to the point of intoxication
at least twice a week and sometimes more. Mr.
Ritter stated he did not feel his drinking was a
problem until his wife pointed it out to him. The
defendant related that after realizing he had a
drinking problem, he knew he had to stop and
gave up alcohol altogether in 2006. It’s the
People’s position that this does support a history
of abuse and therefore appropriately scores the
defendant at 15 points.
The final risk factor, your Honor, the People are
seeking a point assessment for is number twelve,
acceptance of responsibility. It’s the People’s
position that the defendant should be scored for
ten points for this risk factor. Again the reliable
hearsay we are relying on, your Honor, is the
presentence investigation report. Direct the Court’s
attention to page 15 of the discovery packet,
under the heading Defendant’s Version, I am
here today because I was convicted of five felony,
three, and one misdemeanor one. These charges
are related to sexual offenses against minors.
These charges are related to a single incident
which took place in an adult-only chat room
between myself and what turned out to be an
undercover police officer on 9 February 2009. At
no time did I believe I was chatting with a minor
but rather an adult over the age of 18. I pled
innocent to these charges and am appealing the
convictions. I’m aware of how serious this situa­
tion is and how serious these charges are. The

App.l58a

People contend that ten points for not accepting
responsibility is appropriate to score this defend­

ant. Those are all the points the People are
seeking with regard to the risk assessment
instrument, your Honor.
THE COURT: Okay. And so that’s a preliminary score
of 65.
MS. McCANNEY: That’s correct, your Honor.
THE COURT: Okay. Now, clearly from your risk
assessment instrument, which is part of People’s
Exhibit 2, you are seeking a presumptive over­
ride to a level three.
MS. McCANNEY: Yes.
THE COURT: Can you identify the reasons therefor
and immediately identify the document which
contains what the People claim constitutes reli­
able hearsay evidence and immediately read the
excerpts which the People argue support the
basis for the presumptive override.
MS. McCANNEY: Your Honor, if I may approach.
THE COURT: Yes.
(Discussion held off the record at the bench.)
THE COURT: Are you going to offer that?
MS. McCANNEY: I am. So let me give it to you.
THE COURT: Put it on the record.
MS. McCANNEY: That’s why I came up.
THE COURT: Go ahead.
MS. McCANNEY: Your Honor, the People are offering
at this time into evidence People’s Exhibit 1. It is

App.l59a
the report by Paula Brust of the Sexual Offend­
ers Assessment Board.

THE COURT: Mr. Meany.
MR. MEANY: Judge, I’m going to object. I’m going to
object on the basis not just what we talked about
before which is already established, but I’m
going to object on the basis that the Brust report
does not constitute a clinical assessment and I’m
also going to—
THE COURT: The issue is whether or not it consti­
tutes reliable hearsay for purposes of being
admissible.
MR. MEANY: I guess my objection is to relevance,
then, that it’s not relevant at this point to the
determination.
THE COURT: Your objection is relevance?
MR. MEANY: Yes.
THE COURT: The objection is overruled. Exhibit one
is received subject to redaction in accord with
the Court’s prior decision.
(People’s Exhibit 1 received into evidence.)
THE COURT: Can I have that.
MS. McCANNEY: Your Honor, directing the Court’s
attention to page eight under conclusions, as set
forth by the Pennsylvania Supreme Court in
Dangler, the terms mental abnormality and per­
sonality disorder are legislative construct that do
not require proof of a standard of diagnosis that is
commonly found and/or accepted in a mental
health paradigm. Statutory criteria for the mental
abnormality and personality disorder criterion

App.l60a

are: The defendant has a congenital or acquired
condition which is the impetus to the sexual
offending. Mr. Ritter does meet the diagnostic
criteria for paraphilia NOS, not otherwise spe­
cified, which is a congenital and/or acquired
condition. It is my opinion that his offending is
motivated by this disorder.
Number two, the defendant suffers from a life­
time condition. Mr. Ritter does suffer from a
lifetime condition. Although the paraphilias may
wax and wane during one’s lifetime, they are
nevertheless considered to be lifetime disorders.
The condition overrode the defendant’s emotional/
volitional control. Despite knowing the potential
consequences of his behavior for himself, his
victims, especially in light of the fact that he was
questioned by police not only once but on two
separate occasions two months apart prior to
the—
MR. MEANY: Judge, I—
THE COURT: What?
MR. MEANY: That portion refers to the—
MS. McCANNEY: I’m sorry. I strike that. He is cor­
rect.
THE COURT: Well, the fact of the matter is that it’s
physically in the document but I’m disregarding
it. It’s being struck because it’s violative of the
Appellate Division decision.
MS. McCANNEY: Your Honor, in conclusion, without
reading because the Court—we have been discus­
sing this already, based upon this report, the
defendant has been assessed to have an abnor-

App.l61a

mality that decreases his ability to control his
impulsive sexual behavior and therefore the People

do contend it is appropriate to apply override
number four and score this defendant as a level
three sex offender.
THE COURT: And yoti can clearly see from the Brust
report that there are four criteria and at least
one of the four criteria was dependent, entirely
dependent, on the 2001 Colonie case?
MS. McCANNEY: Yes.
THE COURT: So would you not agree or would you
agree that absent that criteria, then the statu­
tory criteria for that abnormality cannot be
accomplished given the fact that the Colonie
information has been redacted?
MS. McCANNEY: Your Honor, the People would
disagree with that. I think that from reading the
overall entire assessment, it can be concluded
that he does meet the diagnostic criteria for this
mental abnormality separate and apart from the
four factors that are designated by Pennsylvania.
THE COURT: But on the face of the document itself,
on page eight Dr. Brust states that there are
four statutory criteria for this classification and
the third factor listed by Dr. Brust is entirely
dependent upon the 2001 Colonie case. So I
think on the face of the document itself the four
criteria for that opinion have not been established.
MS. McCANNEY: Your Honor, directing your atten­
tion to page seven on her report.
THE COURT: All right.

App.l62a

MS. McCANNEY: Under characteristics of the defen­
dant, if you go under any mental illness, mental

disability or mental abnormality, Miss Brust
states that after carefully reviewing available
records, it is the opinion of the board member
that Mr. Ritter does meet the diagnostic criteria
for mental abnormality or personality disorder
according to the Diagnostic and Statistics Manual,
fourth edition. So separate and apart—so it’s her
opinion that he meets the criteria pursuant to
the DSM-IV which is separate from the factors
that are set forth in the conclusion.
THE COURT: But isn’t it true right in the same para­
graph Dr. Brust is basing that diagnosis under
the DSM-IV on behaviors directed at non-consent­
ing persons with the behavior since 2001 which
is the Colonie case?
MS. McCANNEY: I understand that she does discuss
that, your Honor, but if you continue on with the
last sentence that starts on that last page, page
seven, his paraphilia NOS also includes exhib­
itionism wherein he has exposed himself to his
victims and wanted to have them watch him
masturbate in addition to sending pictures of his
naked penis. He admitted he did this with adult
women as well. Mr. Ritter acted on his sexual
urges and/or fantasies and then he goes onto the
three intended minor victims. However, I think
it’s significant that the case that we are here
about consisted of this defendant exposing himself
masturbating in front of whom he believed to be
a 15-year-old child and then admits that he has
done this behavior with adult women as well

App.l63a

separate and apart from the two victims from
the 2001 Colonie case.
THE COURT: Okay. Is there any other information
or any other evidence that the People wish to
offer at this time?
MS. McCANNEY: No, your Honor.
THE COURT: Okay. Now, Mr. Meany, do you ack­
nowledge receipt at least ten days prior to
today’s proceedings the documents which the
People have identified and read from?
MR. MEANY: I do, Judge.
THE COURT: And in fact you consented to the—well,
the introduction of Exhibit 2 subject to redaction,
true?
MR. MEANY: I have, Judge.
THE COURT: And do you wish to argue that any of
the documents, other than the one that you
consented to, do you wish to argue that any doc­
ument identified by the People should not be
received in evidence at this hearing other than
what you’ve already argued?
MR. MEANY: Judge, maybe I’m speaking again on
the point that you overruled me on but my
position is that because of some of the very lan­
guage that Miss McCanney quoted with regard
to how the—what that document is, I believe it
should not be admitted as a clinical assessment.
THE COURT: Again it goes to the weight, not the
admissibility. Okay. Do you have any other objec­
tion on that point?
MR. MEANY: Not as to the reliable hearsay.

x4pp.l64a

THE COURT: Then my ruling stands. I do find that
the documents offered by the People do meet the
statutory criteria of reliable hearsay, and as I’ve
indicated, they are received in evidence subject
to redaction of the information from the Colonie
case which I’ve already ruled upon in this case.
Now, do the People rest?
MS. McCANNEY: We do, your Honor.
THE COURT: Does the defense wish to offer any evi­
dence?
MR. MEANY: Could we have one moment, Judge.
(Pause)
MR. ME ANY: Let me say this, Judge. What I would
like to do is to speak as to the specific point assess­
ments and especially as to the proffered override.
THE COURT: Okay. Well—
MR. MEANY: To the extent that—
THE COURT: —we’re going to get to that in a minute.
But I want to follow the protocol of the SORA
proceeding.
MR. MEANY: No, at this point in time I’m not offering
any exhibits.
THE COURT: Now, for the factors on the rating instru­
ment which the People seek a point assessment,
do you contend that the People have not estab­
lished facts to support the point assessment by
clear and convincing evidence?
MR. MEANY: I do, Judge.
THE COURT: Which ones?

App.l65a

MR. MEANY: Judge, I understand the case law with
regard to factor five. I will merely note for the
record that in fact there was never any actual
child victim in this case; that it was at all times
an agent provocateur from the police department
who I believe was 28 years old.
THE COURT: Is that a relevant distinction?
MR. MEANY: Judge, I’m just saying it for the record.
THE COURT: All right.
MR. MEANY: I understand. And I would not contest
factor seven. Obviously the facts speak for them­
selves. With regard to number eleven, I don’t
believe that they have established that there is a
history of drug or alcohol abuse.
THE COURT: Doesn’t the document referenced say
that he did have that history, that he worked
toward resolving in 2006?
MR. MEANY: Judge, here’s what I would say. There
is no indication that alcohol played a role in this
offense.
THE COURT: But that’s not the issue.
MR. MEANY: It is.
THE COURT: The issue is history.
MR. MEANY: The fact that on his own accord he
decided to stop drinking in 2006, if you credit
that statement that they’re, attributing to him, I
don’t believe that meets the standard for im­
posing points based upon this. I understand the
theory is that alcohol is a disinhibiter, and so
forth. The fact of the matter is that the Board of
Sex Examiners references that in their case

App.l66a

summary and specifically says that they’re not
going to assess points for that reason. The fact of
the matter is that Mr. Ritter was not deemed to
have a drug or alcohol problem in state prison
when he was in Pennsylvania. The fact of the
matter is that if you credit that, he hasn’t had a
drink since 2006 which was more than three
years prior to the offense that he was convicted
for. So to state that that’s a history of abuse, I
mean if you said he had been arrested six times
for drunk driving and then stopped drinking,
maybe you would have an argument that he has
a history. But the fact that, taking again this
report at face value, the fact that he had a
family discussion with his wife and decided that
it would be better for them or him not to drink
and then did that is not, I think, the type of fact
pattern that calls for an imposition of points
here. It doesn’t seem to be in any way indicative
of dynamic risk in terms of continuing—
THE COURT: I’m aware of the fact that the case
summary—
MR. MEANY: —to offend.
THE COURT: —is consistent with your argument
and the Board did not score on that factor. Okay.
What else?
MR. MEANY: Judge, with regard to acceptance of
responsibility, the only reason why Mr. Ritter is
being scored points here is because he took his
case to trial and prosecuted an appeal and gave
statements consistent with that, I believe on
advice of counsel when he was interviewed. The
Court’s familiar with the process of sex offenders

App.l67a

and parole and that sort of thing. Mr. Ritter did
complete sex offender treatment in Pennsylva­
nia. He would not have been allowed to graduate
from that if he wasn’t accepting of responsibility,
and I will tell you that in fact he did admit the
conduct that was involved in this case and he
admitted that it was inappropriate. The dispute,
you know, the fact—
THE COURT: Was that in the record here?
MR. MEANY: Judge, I can offer—I would offer his
reports, and this is by stipulation with the People.
THE COURT: That’s what I asked you, if you had
any documents you wanted to put into evidence.
MR. MEANY: I wanted to wait to see if they were
going to be relevant, Judge.
THE COURT: So you’re arguing that he did take res­
ponsibility?
MR. MEANY: He did, Judge. He graduated from treat­
ment. He never denied the incident. He has
consistently worked to better himself. He was a
mentor to other people within the class and—
THE COURT: You realize in the presentence report
there’s a reference to the defendant’s statement
in which he indicated he did not know it was a
15-year-old.
MR. MEANY: And I don’t—I think that if he sat here
today, he would probably reaffirm that, Judge.
But what I am saying is that what he said was
that he believed his behavior was inappropriate,
that he was—that he had done damage to his
family, that he wanted to improve, and I think

App.l68a

that that is consistent with acceptance of respon­
sibility if not with—you know, his dispute is
with the conviction, not with the conduct and not
with the fact that it had a tremendously nega­
tive impact on his life and that it needed to be
addressed. So I think that in fact I would say he
has accepted responsibility.
THE COURT: On these points, are you done?
MR. MEANY: Yes. With regard to the specific .. .
THE COURT: Miss McCanney, do you wish to respond
to the defense arguments with respect to the
risk factors five, eleven and twelve that he
disputes—
MS. McCANNEY: Well—
THE COURT: —other than what you’ve already said?
MS. McCANNEY: Just for five, your Honor. I think
that the case law does dictate that he should be
scored 20 points for that factor, the drug or
alcohol abuse. I do understand Mr. Meany’s argu­
ment. However, I think that based upon his own
admissions the significance of his prior abuse is
something to be considered by the Court, and even
though he has abstained from alcohol, the
defendant may not be abusing alcohol or drugs
at the time of the instant offense in order to receive
points for this category and I would ask the
Court to take that into consideration. And factor
number twelve, acceptance of responsibility, it’s
the People’s position that ten points absolutely
should be scored based upon his own admissions
as outlined in the presentence investigation
report, his minimizing his conduct and not taking

App.l69a
responsibility for his conduct. Therefore, it’s the
People’s position that he should be scored for
those points.
THE COURT: Okay. Based upon the record of today’s
proceedings, the Court does find that the People
have established facts by clear and convincing
evidence which support the assessment of the
following number of points for the following risk
factors:
Risk fact number five, victim age, 20 points. Risk
factor number seven, relationship, stranger, 20
points. Risk factor number twelve, nonacceptance,
10 points, for a resulting preliminary score of 50
points. The Court does concur with the proposed
rating that the Board had submitted dated
9/15/2014 which is part of the discovery packet, and
the Court agrees with the Board that scoring the
drug or alcohol abuse history or the document
evidences where he had ceased abusing alcohol
in 2006. I’m going to exercise my discretion and
not score a point on that one. So we have a
preliminary score of 50 points.
Now, with respect to the People’s request for an
override, I think it’s fundamentally clear that
the diagnosis both under the DSM-IV by Dr.
Brust as well as Dr. Brust’s opinion which was
incorporated into the—
MR. MEANY: Judge, I don’t want to be rude but I’ve
let it go six times. She’s not a doctor and I think
that’s relevant.
THE COURT: Okay.
MR. MEANY: I’m sorry. I apologize, Judge.

App.l70a

THE COURT: That’s all right. Now I’ve lost my
complete train of thought. Paula Brust. I’ll refer
to her as Paula Brust. I think that it’s funda­
mentally clear that she’s a board member of the
Sexual Offenders Assessment Board, Paula Brust,
and her report is in evidence as Exhibit 1. It’s in­
corporated in the case summary which is part of
the discovery packet which is in evidence as
Exhibit 2 and I think it’s fundamentally clear
that the People have not met their burden to
establish by clear and convincing evidence that
but for the inclusion of the 2001 information
from the town of Colonie case, that the findings
would have been the same. And to the contrary,
I think it’s fundamentally clear that Paula Brust
was relying in great part upon the history
reported from the 2001 Colonie case which was
the product of the unsealing order and, frankly, I
think it’s clear that my view of her report and
her findings were that she was depending on
that information. So there’s no way from the
proof in this case that the People have met their
burden to establish, again, by clear and convincing
evidence that the abnormality which you’re relying
upon to seek the override was actually met
without the Colonie case information, so in that
regard the People’s request for an override is
denied.
Now, we have a risk—well, let me ask you this:
Are the People seeking a departure based upon
the record of this case?
MS. McCANNEY: Yes, your Honor.
MR. MEANY: Judge, I would object to that. There’s
no notice of any seeking of a departure.

App.lTla

THE COURT: Well, there may not be any notice from
the People in that regard in the risk assessment
instrument that the People submitted because
they did check off no, but the discovery packet
that was proffered by the People does also include
the risk assessment instrument prepared by the
Board in which the Board did recommend a risk
level departure to a level two.
MR. MEANY: Can I be heard?
THE COURT: Can I just finish what I am saying and
you can have every opportunity.
And from the Court’s view this document is in
evidence. I am not, of course, bound by the
People’s risk assessment instrument nor am I
bound by the Board’s risk assessment instrument,
but they’re clearly part of this proceeding and so
I am asking the People, are you seeking a
departure; and if so, what are you basing your
departure on? And I will hear you, Mr. Meany,
when Miss McCanney is done.
MS. McCANNEY: Your Honor, the People are seek­
ing a departure to at the minimum a level two
based upon the scoring of this defendant by the
Pennsylvania Board of Probation and Parole Sex
Offender Assessments Board as a sexually violent
predator. I understand that a great deal of that
information, a great deal of that assessment is
based upon information that was derived from
the case from 2001, that the unsealing of that
was overturned. However, your Honor, I think
the totality of everything that’s in evidence with
regard to this defendant’s risk of offending and
our responsibility to the community to protect

*

App.l72a

them based upon all of the information that has
been derived today, it’s the People’s position that
it would be appropriate to score this defendant
at the minimum as a level two per the Board’s
recommendation.
THE COURT: Mr. Meany, what is your position?
MR. MEANY: Judge, first of all, the departure that
the Board is giving notice of is a downward
departure. The departure that they’re indicating
is that they’re crediting the clinical assessment
and imposed the override and it’s a departure
from the override to reduce from a three, which
is the presumptive level on an override, to reduce
it down to a two based upon mitigation. So there
is no notice anywhere of a—
THE COURT: Well, just a second. The Board was
also adopting the abnormality for the override to
a three but recommended a downward departure
to a two based on mitigating circumstances.
MR. MEANY: That’s exactly my point. No one is
arguing that there are—that the fact that Penn­
sylvania designated him under their statutory
framework as a sexually violent predator isn’t
dispositive of anything here. It’s not a risk
factor. It’s just how they—it’s their nomenclature
and their, you know, taxonomy of how they
organize their registration system. There’s nothing
anywhere that indicates any risk factor that’s
not captured by the scoring instrument.
THE COURT: Okay. Anything else on that point?
MR. MEANY: I suppose not, Judge. I mean the basis
for—I’m not—I want to make sure I’m address-

App.l73a

ing what Miss McCanney is saying. Her basis is
that Pennsylvania scored him in a manner—I
mean
there’s no indication that that—that those
|i
things are related to our scoring instrument. That’s
why we have our own hearing. I would submit,
Judge, that there is nothing anywhere that’s not
reflected within the scoring instrument here.
The Court of Appeals has said that it’s an unu­
sual case where the scoring instrument wouldn’t
be accurate. I mean they do provide for these
Overrides and so forth, but they just don’t apply
here.
THE COURT: Okay. Well, once again, in reviewing
the Board’s case summary, notwithstanding the
fact in the context of their having recommended
the override and then a downward departure from
three to two, they’re also basing it on the three
separate incidents which includes the town of
Colonie case, and because of that, it’s the judg­
ment of this Court that the People have not
established by clear and convincing evidence that
they are entitled to an upward departure to a
lbvel two so the People’s request for an upward
departure to a level two is denied.
Now, are the People seeking a designation of the
defendant as a sexually violent offender, predicate
sex offender, a sexual predator, or none of the
above?
!;
MS. McCANNEY: None of the above, your Honor.
THE COURT: Okay. I agree. Okay. So it’s the judgment
qf this Court that I find by clear and convincing
evidence to support the conclusion that the
defendant should be rated a level one. I’ll sign

■;

r
I
i'

App.l74a

the orders and you can all get copies from the clerk
of the court. That concludes this proceeding.
MR. MEANY: He needs to stay and get served with
that, your Honor?
THE COURT: That is correct. Hold on a second, Mr.
Ritter. Do you have the registration application
form, Jen?

MS. McCANNEY: Do I?
THE COURT: Yes.
MS. McCANNEY: No.
THE COURT: Come on up.
(Discussion held off the record at the bench.)
THE! COURT: We’ll take a brief recess and, Mr.
Ritter, I want you to review the registration form
with your counsel.
|
(Pause)
THE! COURT: We’re going to go back on the record in
the matter of William Ritter. Mr. Ritter, I have
here the sex offender registration form. Is that
your signature at the bottom of the form?
!

THE;DEFENDANT: Yes, your Honor.
THE COURT: And did you review that document
with Mr. Meany including not only the front part
of the form that’s filled out but also the rules
and regulations governing your conduct under
the Sex Offender Registration Act that appear
on the back of the form?
THE DEFENDANT: Yes, your Honor.

!i

I' '

i

j!

App.l75a

THE! COURT: And do you understand that informa­
tion and agree to be bound by it?
THE DEFENDANT: With one question, your Honor.
THE COURT: Go ahead.
j!

THE DEFENDANT: That is the date of registration.
Is it effective today?
THE COURT: In New York it is effective today.
THEj DEFENDANT: Yes, sir.
THE!f; COURT: So now with that said, that concludes
the matter. The clerk of the court will take the
form apart and distribute the copies to the
parties including Mr. Ritter and that concludes
the matter. Good luck to you.
(Proceedings concluded.)

i

;j

App.l76a

MEMORANDUM AND ORDER OF THE
STATE OF NEW YORK, APPELLATE DIVISION,
THIRD JUDICIAL DEPARTMENT
(OCTOBER 20, 2011)
STATE OF NEW YORK
SUPREME COURT, APPELLATE DIVISION
THIRD JUDICIAL DEPARTMENT
In the Matter of ALBANY COUNTY
DISTRICT ATTORNEY'S OFFICE, on Behalf of
BARRETT TOWNSHIP POLICE ET AL„
Respondent,
v.
WILLIAM, T„
Respondent.
;j

No. 511959
Before: MERCURE, J.P., SPAIN, MALONE JR.,
KAVANAGH and McCARTHY, JJ.
Mercure, J.P.
Appeal from an order of the County Court of
Albany County (Herrick, J.), entered January 6,
2011, which denied respondent’s motion to vacate a
prior order that unsealed the records of certain
criminal proceedings.

:!

'!

App.l77a

Respondent, an adult male, communicated on-line
with investigators posing as underage girls on two
occasions in 2001. He was charged with endangering
the welfare of a child after attempting to meet the
“children” for the purpose of committing lewd acts in
front of them. The ensuing case was adjourned in
contemplation of dismissal, and ultimately dismissed,
by the Colonie Town Court. As a result, the records of
the case were sealed (seeCPL 160.50[l] [c]; [33).
)

In 2009, respondent faced criminal charges in
Pennsylvania after he engaged in lewd conduct in
front'of a “web cam” viewed by a police investigator
posing as an underage girl on-line. County Court
granted petitioner’s ex parte application, made on
behalf of the prosecutor and police department
involved in the Pennsylvania case, to unspal the
records from the prior case for use in the pending
criminal proceedings. Respondent now appeals from
his unsuccessful motion to vacate that order. 1
We reverse. The sealing requirement of CPL
160.50 “was designed to lessen the adverse conse­
quences of unsuccessful criminal prosecutions by
limiting access to official records and papers in
criminal proceedings which terminate in favor of the
Accused” {Matter ofHarper v. Angiolillo\ 89 NY2d 761,
766 [1997]; accord Matter ofKatherine B. v. Gataldo,
5 NY3d 196, 202 [2005]). Those adverse consequences
include potentially severe damage to an individuals
reputation and employment prospects and, as such,
there are only six narrow, precisely tailored excep­
tions^ “to the general proscription against releasing
1 Following a jury trial at which some of the records were intro­
duced into evidence, respondent was convicted of .various offenses.

A

}

App.l78a

official records and papers once they are sealed” (Matter
of City of Elmira v. Doe, 39 AD3d 942, 943 [2007],
aff'd 11 NY3d 799 [2008]: see Matter of Katherine B.
v. Cataldo, 5 NY3d at 202-203).
j
Here, petitioner relied upon an exception that
permits a law enforcement agency to obtain thej release
of sealed records if “justice requires that suchjrecords
be made available to it” (CPL 160.50[l] [d] [ii]). The
Court of Appeals has clarified, however, that “[t]he
statute’s . . . primary focus is the unsealing ofjrecords
for investigatory purposes” and, as such, the exception
is analogous to other investigatory tools employed to
uncover criminal conduct “prior to commencement of
a criminal proceeding” (Matter of Katherine B. v.
Cataldo, 5 NY3d at 205 [emphasis added])! Apart
from a “singular circumstance” not present here, the
exception does not apply to a prosecutor—such as the
Pennsylvania district attorney prosecuting respond­
ent’s case—seeking sealed records “after commencement
of a criminal proceeding” (id.; see Matter ofyAkieba
Me., [72 AD3d 689, 690 [2010]; Preiser, 200p Supp
Practice Commentary, McKinney’s Cons Laws of NY,
BookillA, CPL 160.50, 2011 Supp Pamphlet, at 125126). A Pennsylvania police department also sought
the records, but there is no indication that its “inves­
tigation” was in any way separate—at the time of the
request—from the pending prosecution. Indeed, the
only reasons given for seeking the records were for
their admission at trial, as well as to assist jin res­
pondent’s sentencing and evaluation for sex offender
registration purposes.
In short, petitioner’s application thus impermis­
sibly invoked CPL 160.50(l)(d)(ii) for prosecutorial
purposes, and respondent’s motion to vacate should

App.l79a

have been granted. Petitioner’s alternate argui lent for
affirmance, to the extent it is properly before us, has
been examined and found to be unavailing.
Spain, Malone Jr., Kavanagh and McCarthy, JJ.,
concur.
ORDERED that the order is reversed, on the ] aw,
without costs, motion granted, order dated Jsune 29,
2010 vacated, and matter remitted to the jCounty
Court of Albany County for further proceedings not
inconsistent with this Court’s decision.
Enter:
Is/ Robert D. Mavberger
Clerk of the Court

I

;l

App.l80a

ORDER OF THE COURT OF
ALBANY COUNTY, NEW YORK,
DENYING MOTION TO VACATE CONVICTION
(DECEMBER 29, 2010)
STATE OF NEW YORK, COUNTY OF ALBANY
EX PARTE MOTION BY ALBANY COUNTY
DISTRICT ATTORNEYS OFFICE on Behalf of
BARRET TOWNSHIP POLICE and
MONROE COUNTY, PENNSYLVANIA
DISTRICT ATTORNEYS OFFICE,

Before: Hon. Stephen W. HERRICK, Judge.
HERRICK, J. Defendant moves to vacate this
Court’s order of June 29, 2010 granting the People’s
motion to unseal the records pertaining to a case
involving the defendant in Colonie Town Court which
was dismissed in April of 2002 having been Ad­
journed in Contemplation of Dismissal. The defendant is
presently charged with a series of sex crimes in Monroe
County, Pennsylvania.
The record reveals that once dismissed, the Colonie
case was sealed, pursuant to statute. Criminal Proce­
dure Law, section 160.50. Once sealed, records may be
unsealed only in limited circumstances. Relevant here,
the records may be released to “ ... a law enforcement
agency upon ex parte motion in any superior court, if
such agency demonstrates to the satisfaction of the
court that justice requires” . . . disclosure. Criminal

i:

I?.
i

t

;

App.lSla

Procedure Law, section 160.50(l)(d)(ii); People v.
Cataldo, 5 NY3d 196.
In the present matter, the People’s motion to
unseal the records included appended affidavits from
Monroe County, Pennsylvania, Assistant District
Attorney Michael Rakaczewski and Barret Township,
Pennsylvania Police Department Detective Ryan
Venneman. In his affidavit, Detective Venneman stated
that, “ ... (i)n order to properly investigate this matter,
and successfully prosecute the criminal case
against. .. (Ritter)... in Pennsylvania, it is necessary
to review the records and evidence being held by the
Colonie Police Department and the Albany County
District Attorney’s Office.”
Based upon the foregoing, defendant’s, motion is
denied, the Court holding that the request was properly
made by law enforcement for investigative purposes.
The Court has considered defendant’s remaining
arguments and finds them to be without merit.
This memorandum constitutes both the decision
and order of the Court.
/s/ Stephen W. Herrick
JCC
Dated: Albany, New York
December 29, 2010

%

s:

i

App.l82a

!

OB ,DER OF THE COURT OF ALBANY COUNTY,
NEW YORK TO UNSEAL RECORDS
(JUNE 29, 2010)
STATE OF NEW YORK, COUNTY COURT I
COUNTY OF ALBANY
EX PARTE MOTION BY ALBANY COUNTY,
DISTRICT ATTORNEYS OFFICE on Behalf df
BARRET TOWNSHIP POLICE and
|
MONROE COUNTY, PENNSYLVANIA
DISTRICT ATTORNEYS OFFICE,
■!

'i

Before: Hon. Stephen W. HERRICK, Judge.

i

i

UPON the reading and filing the affirmation of
David M. Rossi, assistant district attorney, and all
attached papers, filed on the 28th day of June, 2010,
in sitpport of an ex parte motion made pursuanjt to
crim ,nal procedure law § 160.50(l)(d)(ii), it is hereby
ORDERED, That the Albany County district
attorney’s office make their file pertaining; to ;the
William Scott Ritter matter which was previously
adjoru'ned in contemplation of dismissal on April 3,
2002, available to Monroe county, Pennsylvania dis­
trict attorney’s office as well the Barrett township
policy department.
|
ORDERED, that the Colinie police department
make] their file pertaining to the William Scott Ritter
matter which was previously adjourned in contemplatic n of dismissal on April 3, 2002, available to the

)

1
;

1

App.l83a

Monroe County, Pennsylvania district attorney’s
office as well as the Barrett township police department.

DRDERED, that the Colonie town Court make
their file pertaining to the William Scott Ritter
matter which was previously adjourned in contem­
plation of dismissal on April 3, 2002, available to the
Moniroe County, Pennsylvania district attorney’s office
as well as the Barrett township police department.
Enter:
/s/ Stephen W. Herrick
Judge
June 29, 2010
Alba ay, New York

i

App.l84a

RITTER MOTION IN LIMINE FILED IN THE
COUNTY COURT OF ALBANY, NEW YORK
(NOVEMBER 3, 2014)
STATE OF NEW YORK, COUNTY COURT
COUNTY OF ALBANY
THE PEOPLE OF THE STATE OF NEW YORK,
v.
WILLIAM S. RITTER, JR.,
Defendant.
Index No. CA-751-14
Before: Hon. Peter A. LYNCH, Judge.
PLEASE TAKE NOTICE that I, William S. Ritter,
Jr., representing myself pro se in this matter, affirms
as follows under the penalty of perjury:
LI am the defendant named in the above cap­
tioned case, and am fully familiar with the case and
facts cited herein.
i I am submitting this Motion in Limine in
response to the “Notice Pursuant to Sex Offender
Registration Act—Correction Law Section”, dated
September 22, 2014, which provides notice of a
hearing scheduled for October 17, 2014, at which
time | a classification determination will be made, in
accordance to Correction Law Section 168-k(2), as to
my risk level'and designation as a sex offender. This

App. 85a

hearing was adjourned after the presiding Judge,
Step ien Herrick, j recused himself from the master,
and subsequently rescheduled for November j 10,
2014 before the Honorable Peter A. Lynch. As such,
I submit the following arguments and attached
exhibits in support of a motion to exclude as evidence
in thSe aforementioned hearing scheduled for Novem­
ber lib, 2014 any reference to prior contact with New
York! law enforce line nt officials that took place back
in April and June of 2001 that can be traced, direptly
or inkirectly, to information contained in sealed files
pertaining to these incidents that were improvidently
unsealed by an order of this court which was subse­
quently vacated by a unanimous decision of the l^few
York Supreme Court, Appellate Division, Third Judicial
Depg rtment (hereafter cited as “New York Appellate
Court;”), or any other documents or information
pertE lining to the 2001 incidents otherwise sourced as
hearsay.
ko.. The Case Summary prepared by the New
York! Board of Examiner’s of Sex Offenders in sup­
port pf this hearing (see Exhibit A (New York Board
of Examiner’s of Sex Offender’s “Case Summary”
(William Ritter). September 15. 2014)) makes repeat­
ed reference to, and draws assessments and conclu­
sions from, information that could only have been
obtained from impermissible and illegal access to
sealed files pertaining to two encounters by Mr.
Ritte !* with New York law enforcement that occurred
in April and June bf 2001.
|
' |. Mr. Ritter was never tried or convicted of the
charge that arose from the 2001 police contact (a
Class j-B misdemeanor), and the matter was disposed
of by the Colonie Town Court, New York, resulting in
!

!

!

i

App.l86a

t

the charge being dismissed and all records relating to
the charge sealed by court order in accordance with
New lYork Criminal Procedure Law Section 160.50.
NewllYork Criminal Procedure Law Section 170.55,
paragraph 8 states that upon dismissal, “the arrest
and prosecution shall be deemed a nullity and the
defendant shall be restored, in contemplation of law,
to th| status he occupied before his arrest and prose­

cution.”

)

5. Pennsylvania prosecutors, through ex parte
communication with an Albany County Judge, sought
the e nsealing of files related to the events of 2001 for
use kt trial and in Mr. Ritter’s sentencing and
evaluation as a sex offender. An unsealing order was
issued, and these files were used extensively at trial,
sentencing and subsequent evaluations and determi­
nations regarding Mr. Ritter’s status as a sex offender
in the Commonwealth of Pennsylvania.
k. Mr. Ritter fought to have this unsealing order
vacated prior to his going to trial. On October 22,
2011; prior to Mr. Ritter’s conviction in Pennsylvania
becoming final, the New York Appellate Court issued
a unInimous decision that reversed the unsealing
order] finding that “[the Pennsylvania prosecutioh’s]
application [to unseal Mr. Ritter’s files]... impermissibly
invoiced [the New York unsealing statute] for prose­
cutorial purposes, and [Mr. Ritter’s] motion to vacate”,
which was refused by the Albany County Court on
Decelnber 29, 2010, “should have been granted.” See
Exhibit B (State of New York Supreme Court. Appel­
late Division, Third Judicial Department. “In fthe
Matter of Albany County District Attorney’s Office.
on Elfehalf of Barrett Township Police, et al„ vs.
William T.”. Order and Memorandum, October ;20,
'!■

r

!

i

I

I

/ •
i

App.l87a
2011) at 3. It should be noted that had that had the
motion to vacate been granted when, originally sub­
mitted, as required by law, then this issue would be
moot, since the files in question would never have
been unsealed and used at the trial, sentencing and
evaluation of Mr. Ritter in Pennsylvania.
T. The Appellate Court further stated that “[t]he
only reasons given for seeking the records were for
their admission at trial, as well as to assist in [Mr.
Ritter’s] sentencing and evaluation for sex offender
registration purposes.” Id. at 3. The New York Appel­
late Court, in its unanimous decision, clearly indicated
thatj none of these reasons—including their use in
support of any sex offender evaluation conducted for
registration purposes, such as is the case in the
present matter—justify the unsealing of the records
in question. Indeed, the controlling case cited by the
New [York Appellate Court in its decision to vacate
the improvident unsealing order issued by the Albany
County Court, Matter of Katherine B. v. Cataldo, 5
NY3d 146, 202 (2005), specifically cites a general
proscription against ex parte unsealing requests for
use in sentencing recommendations. Id. at 204.
<■!. The records in question should
a), never have been unsealed;
b) ' never have been released to the Pennsylvania
;
prosecution;
b)

never have been utilized at trial of Mr. Ritter;

cl)

never have been made available to the
Monroe County Probation and Parole Department for use in preparing a pre-sentence
investigation, and

i

App.l88a

¥)

never have been made available to the
Pennsylvania Sex Offender Assessment Board
in any evaluation of Mr. Ritter.

By extension, they should never have been made
ava liable for use at this present proceeding—either
in tlfeir original form, or as part of any record which
incofporated information that otherwise would have
beei| under seal and unavailable through other means
by either the Albany County District Attorney’s Office,
or al part of the evaluation conducted by the New
YorlJ Board of Examiners for Sex Offenders.
lb. While the Commonwealth of Pennsylvania has
shown a complete disregard for New York law, this
courl must adhere to both the letter and intent of
New York law when it comes to the issue of Mr.
Ritter’s
2001 contact with law enforcement and respect
|fci
the fact that the charges stemming from this contact
wer. J dismissed and all files relating to this matter
sea led by a valid and binding court order. There is no
question that the unsealing of Mr. Ritter’s file was a
violation of New York law, as would be, by extension,
any jcontinued use of information so derived by the
Albany County Prosecutor’s Office and the Board of
Examiner’s for Sex Offenders. The question of whether
this Evidence was properly obtained must be determined
objectively, without reference to the state of mind of
either the Albany County District Attorney’s Office
or the Board of Examiner’s for Sex Offenders when
the information came into their hands, and whether
theiijj possession of this evidence was objectively
unlawful, without respect to the timing of that deter­
mination—a question that has been conclusively and
emphatically answered in the affirmative by the New

!

App.l89a

York Appellate Court, and which must be recognized
by this court.
10. In so far as any materials or information
rela dng to these matters are before the court, they
are there solely due to the dual indiscretions of a
decision by the Albany County Court to unseal the
files (which vacated as improvident by a unanimous
ruling by the New York Appellate Court in its deci­
sion! of October 22, 2011) and of the Pennsylvania
Cou: 't System in failing to provide full faith and
credit to the final judgment of the New York Appel­
late jCourt, and as such should be treated as fruit of
the poisonous
tree. To rule otherwise would render
■j
empty the mandate of the New York sealing statute,
andj would allow the recipients of this information—
the Albany County District Attorney’s Office and the
New York Board of Examiner’s of Sex Offenders—to
accomplish extraterritorially what they could not
otherwise in the State of New York.

|i

11. The continued possession and use of infor­
mation by the Albany County Prosecutor’s Office and
the board of Examiner’s for Sex Offenders that is
sourlled to, or derived from, these files violates Mr.
Ritter’s rights to due process under the 5th and 14th
Amendments of the U.S. Constitution (see Matter of
Donhi, 63 N.Y.2d 331, 339 (1984) (“There is no
question that appellant suffered a violation of his
right to due process by the improper access to the
sealt d files”) and is viewed as a matter of federal
law. [Likewise, any ruling that permits the continued
use and possession of such information by the Albany
County Prosecutor’s Office and the Board of Exam­
iner’ s for Sex Offenders deprives Mr. Ritter of any
meaningful right to appellate review of the ex parte

App.l90a

unse aling order, an egregious outcome given that the
NewlYork Appellate Court ultimately vindicated Mr.
Ritter’s view of the law and the ex parte order
unse hling the files in question was vacated. This in
and 'of itself constitutes a violation of due process
und^r the 14th Amendment of the U.S. Constitution.
12. The Board of Examiner’s of Sex Offenders
further avers in its Case Summary that the issue of
whether or not the files from 2001 were sealed or
unsealed is moot. The Case Summary presented by
the Board of Examiner’s of Sex Offenders states that
information pertaining to Mr. Ritter’s 2001 encounters
with law enforcement is “well documented in articles
on timesunion.com and therefore falls within the
public domain.” (See Exhibit A, p.l) It should be
noted that there is a general proscription in the State
of N^w York against the use of newspaper articles
and i other published hearsay. See Love v. Spector,
215 AD2d 733, 627 NYS2d 87 (2d Dept 1995); Pedro
v. Bprns, 210 AD2d 782, 620 NYS2d 524 (3d Dept
1994); and Bakery Salvage Corp. v. Maple Leaf Foods,
Inc. |195 AD2d 954, 600 NYS2d 874 (4th Dept 1993).
None of these documents meet the “statements in
ancient documents” exception for the introduction of
hearsay under FRE 803(16), since they are not at
least'20 years in age. In any event, the Board fails to
provide a single example by way of illustration from
the allleged documentation trove it cites as being sup­
portive of its findings. Void of any such specificity, it is
impossible to ascertain the reliability of any informa­
tion sourced from any article contained on times
unioh.com or any other such source that may be used
by thb Board, as well as the basis of such knowledge.
This; I reduces such information to being the equiv-

'i

i!

\\

App.l91a

alerit of anonymous information, and as such makes
any jiinformation so sourced unreliable hearsay and
inadmissible in these proceedings. See, for instance,
People v. Chase, 650 N.E.2d 379 (N.Y. 1995); People
v. Parris, 632 N.E.2d 352 (N.Y. 1993).
jl3. Even if such citations were provided (and
none, have been), there is nothing to indicate whether
any [ of the statements or information attributed to
the i imesunion.com sources were made under oath or
subject to cross-examination, and as such must be
deenied by this court to be unreliable. There is no
way] of ascertaining whether or not any anonymous
declarant quoted in these documents had the oppor­
tunity to perceive the event, had the memory neces­
sary to recall the event, and the ability to accurately
narrate the event. As such, any information so cited
(and! again, it is noted that the Board fails to specif­
ically cite any information gleaned from the
timejsunion.com source to back up its assertions)
mus t be deemed inadmissible in so far as it impacts
negatively on the truth-seeking function of the trier
of fdct. Any anonymous or un-cited information con­
tained in any documents used by the Board in
preparing its assessment, especially as they pertain to
information I’elating to Mr. Ritter’s 2001 encounters
with! New York law enforcement, must be found to be
inadmissible as unreliable hearsay.
|Q

jWHEREFORE, a pre-hearing decision on this
matter, pursuant to this Motion In Limine, is neces­
sary! as it will substantially influence Mr. Ritter’s
strategy at the determination hearing, including the
use if voir dire, the content of any opening statement,
any [presentation of witnesses and experts on his
behalf, and any questioning of witnesses put forward

App.l92a

by the
prosecution, movant respectfully requests that
,i|)
'
an Order be granted excluding all evidence pertaining
to Mr. Ritter’s 2001 encounters with New York law
l 'l
enforcement,
whether directly linked to the improvidelitly unsealed files, sourced as hearsay, or other­
wise! in the possession of the Albany County District
Attorney’s Office and the Board of Examiners of Sexual
Offenders, at the determination hearing scheduled
for November 10, 2014, and for such other and fur­
ther relief the Court deems just and appropriate.
I

I was notified of the new hearing date on Octo­
ber 31, 2014. I have served this motion seven days
prioi \ to the hearing date.
!

/s/ William S. Ritter. Jr
Pro Se
Dated: November 3, 2014

i

i

I

i

App.l93a
COMMONWEALTH OF PENNSYLVANIA
ELEMENTAL BRIEF FILED IN THE COURT
0 F COMMON PLEAS OF MONROE COUNTY,
43RD DISTRICT OF PENNSYLVANIA
(JUNE 2, 2010)

si'

COURT OF COMMON PLEAS OF MONROE
COUNTY FORTY-THIRD JUDICIAL DISTRICT
! COMMONWEALTH OF PENNSYLVANIA
COMMONWEALTH OF PENNSYLVANIA
v.

WILLIAM SCOTT RITTER JR.
No. 2238 Criminal 2009
Commonwealth’s Supplemental Brief
j
In Support of its 404B Motion
To the Honorable Judges of Said Court:
NOW COMES E. David Christine, Jr., District
Attorney of Monroe Comity, Attorney for the Common­
wealth, by and through Michael Rakaczewski, Assistant: District Attorney, and files the following brief as
follows:
Statement of Facts:
k criminal complaint was filed against this
Defeidant on October 16, 2009 charging him with
several counts of Unlawful Contact with a Minor as a
I.

I

r

<■.

\

App.l94a
i'J

result of his exposing himself over the Internet to an
undercover police officer who had assumed the Iden­
tity of a minor. He had a preliminary arraignment on
November 9, 2009 and his preliminary hearing on
October 16, 2009, at which time he waived his
charges to court The Defendant was formally arraigned
at tlie Courthouse on January 11, 2010.
■1

[The Monroe County District Attorney’s Office
became aware of the Defendant’s previous arrests by
the Colonial Police Department in Albany, New York
as the result of a simple “google” internet search.
ijrhe Internet articles also indicated that federal
prosecutors in Albany had obtained possession of
those same records, apparently after having them
unseikled, and were investigating possible federal
changes, although none appear to have been filed.
Based on this information, the Monroe County
District Attorney’s Office simply requested a copy of
these documents from the Albany County District
Attorney’s Office, which they provided on or about
Febi|uary 8, 2010. They were then provided to the
defendant in discovery, in accordance with Pa. R.
Crinl. P. Rule 573, and the applicable provisions of
the Pennsylvania and U.S. Constitutions, on February *.j7, 2010.
j

The Monroe County District Attorney’s Office
was [under the presumption that if the records were
still sealed and the Albany County District Attorney’s
Office was prohibited from sharing those records,
they would have simply not sent them. The Monroe
County District Attorney’s Office does not have direct
acce ks to those records and does not have a copy of
any Such sealing order. Subsequently, The Monroe

j

!

App.l95a

County District Attorney’s Office was informed by
defense counsel that those same records were still
sealed. As a result, the Monroe County District
Attorney’s Office sent back the records to the Albany
Cou ity District Attorney’s Office. A petition to unseal
the : ’ecords was then filed by the Albany County Dis­
trict Attorney’s Office in Albany County New York
said'petition was granted.
The Commonwealth filed a Notice of its intent to
. I
admit the prior bad acts in New York pursuant to Pa.
R.E. Rule 404B. The Defendant Filed a motion in
limi\ie seeking their prosecution. The Defendant also
recently filed a motion to vacate the unsealing order
in New York. A copy of that motion with the attached
unsealing order and ex parte motion by the Albany
County New York District Attorney’s Office is
attached hereto as Exhibit “A”.
'll
iThe Defendant has indicated he was calling two
experts to testify as follows:
jO Marcus Lawson regarding:
1.

Proper undercover procedures in conducting
online chat investigations;

2.

Yahoo chatrooms: What they are, how they
are created, how users acquire profiles, how
chatrooms are accessed by the users once
they have profiles and the terms of the
Yahoo Service Agreement, and

3.

The results of a forensic review of ‘Mr.
Ritter’s household computers.

IB.) Doctor Richard Hamill regarding:

App.l96a
!

1.

The ability of consenting participants in
adult Internet chatrooms to fantasize and
assume that other adult participants are
doing likewise.

The Commonwealth filed a Motion in Limine seeking to prohibit this testimony.
■ i

Questions Presented:

II.

A.) Was the New York order properly obtained?
!

Suggested Answer: Yes.
p.) Even without the New York records, is the
evidence of the prior arrests admissible as
prior bad acts?
i!

j

Suggested Answer: Yes.
C.) Are the prior bad acts even more relevant
based on the Defendant’s defense of mistake,
lack of motive and lack of intent, according
to his own excerpts?
Suggested Answer: Yes.

III. Argument:
A.) The New York Order Was Properly Obtained
Iphe Commonwealth seeks to Introduce evidence
at the time of trial, of the Defendant’s prior bad acts
as follows: This Defendant actually had two run-ins
with] the police. The first was in April 2001 as the
Defendant drove to a Colonie business to meet with
what he thought was a 14-year old girl. He reportedly
was Questioned and released without a charge. Then
two months later he was caught in the same kind of

:.i

App.l97a
online sex sting after he tried to lure what he
thought was a 16-year old girl to Burger King.
jlThese records were initially sealed but were
unsealed by the Albany Court. The statute dealing
with the sealing and subsequent unsealing of those
records is as follows:
| 160.50 Order upon termination of criminal
llaction in favor of the accused.
1. Upon the termination of a criminal action
br proceeding against a person in favor of
such person, as defined in subdivision three
ibf this section, unless the district attorney
upon motion with not less than five days
notice to such person or his or her attorney
demonstrates to the satisfaction of the court
that the interests of justice require otherwise,
or the court on its own motion with not less
than five days notice to such person or his
ipr her attorney determines that the interests
ilbf justice require otherwise and states the
reason for such determination on the record,
jjthe record of such action or proceeding shall
jbe sealed and the clerk of the court wherein
|uch criminal action or proceeding was
ijjerminated shall immediately notify the comjhissioner of the division of criminal justice
Services and the heads of all appropriate
police departments and other law enforcement
Agencies that the action has been terminated
in favor of the accused, and unless the court
lias directed otherwise, that the record of
|uch action or proceeding shall be sealed.
Upon receipt of notification of such termin­
ation and sealing:

i

!

!

App.l98a
[

•k k k

]

(d) such records shall be made available to
the person accused or to such person’s
designated agent, and shall be made avail­
able to (I) a prosecutor in any proceeding in
which the accused has moved for an order
pursuant to section 170.56 or 210.46 of this
chapter, or (II) a law enforcement agency unon
ex parte motion in any superior court, if
;kuch agency demonstrates to the satisfaction
jbf the court that justice requires that such
records be made available to it, (emphasis
jhdded)., C.P.L. § 160.
Defendant claims that the Monroe County Dis­
trict Attorney’s Office is not a “law enforcement
agency” because a criminal prosecution had begun,
and (the office lacks standing. However, the request
for t]he unsealing of the records was also made on
behalf of the Barrett Township Police Department,
through Detective Ryan Venneman who also signed
an d Submitted an affidavit in support of this request.
There is no question that the Barrett Township Police
Department is a “law enforcement” agency. Further,
the New York court order specifically references the
Barret Township Police Department, and specifically
authorizes the release of a copy of the records to
theni. Thus even if the Monroe County District Attor­
ney’s Office has no standing, the Barrett Township
Police Department does, and their request and the
subsequent court order granting it are valid.
!‘[A] former defendant’s interest in preventing
the disclosure of official records and papers in a
favorably terminated proceeding is not absolute.”
Matier of Tony Harper v. Angissolillo, 89 N.Y.2d 761,

App.l99a
767, 658 N.Y.S.2d (1997). Such records may be
unsealed in a limited number of circumstances. For

instance, the records may be unsealed and provided
to “ J.. a law enforcement agency upon ex parte motion
in ally superior court, if such agency demonstrate to
the Satisfaction to the court that justice requires that
such records be made available to it...” C.P.L.
§ 166.50(l)(d)(ii).
In order to obtain records under section 160.50(l)
(d)(ii), a request must “set forth facts indicating that
other avenues of investigation halve] been exhausted
or thwarted or that it [is] probable that the recordts]
contain
Information that [is] both relevant to the investi
tigation and not otherwise available by conventional
investigative means.” Matter of Dondi, 63 N.Y.2d
331, 339, 482 N.Y.S.2d 431, 472 N.E.2d 281 (1984).
Detailed facts are needed to support a showing that
the information is not available by conventional mvestigative means. New York State Police v. Charles Q.,
192 A.D.2d 142, 145-46, 600 N.Y.S.2d 513 (3rd Dept.
199$!). The moving papers should also reflect “the
gravity or circumstances of the underlying investiga­
tion.!,? Matter of Dondi\ 63 N.Y.2d at 339. Further­
more* “Convenience alone will not justify an unseal­
ing.” Id. The community has a strong interest in pro­
tecting itself against a potential future predator. See
People v. White, 169 Misc.2d 89, 97 642 N.Y.S.2d 492
(Brohx Co. 1996) (“This court concludes that it must
"I
consider fairness to the community in protecting
itself against a possible future predator as well as
fairness to the defendant in determining whether to
seal jjhe record in the instant case.”).
The caselaw and the statute itself allow for the
'1
•
unsealing
if “justice requires” it. Society
has a strong

;■

;

App.200a

interest in protecting itself against a potential future
Predator. In the present case, the defendant has
engaged in exactly the same behavior (i.e. trying to
expojse himself and masturbate in front of minors) on
three separate occasions. The fact that he has resorted
to the same behavior he has demonstrated in the
past] goes directly to his potential as a threat and
whether he is to be considered a future predator. The
statute he is charged with in Pennsylvania is Unlaw­
ful Contact with a Minor. See 18 Pa. C.S.A. § 6318.1
1 18 Pa. C.S.A. § 6318
§ 6318. Unlawful contact with minor

\

(a) Offense defined.—A person commits an offense if he is
intentionally in contact with a minor, or a law enforceiment officer acting in the performance of his duties who
has assumed the identity of a minor, for the purpose of
engaging in an activity prohibited under any of the
following, and either the person initiating the contact or
Hhe person being contacted is within this Commonwealth:
(1)

Any of the offenses enumerated in Chapter 31 (relating
to sexual offenses).

h)

Open lewdness as defined in section 5901 (relating to
open lewdness).

(3)

Prostitution as defined in section 5902 (relating to
prostitution and related offenses).

i,l

U)

Obscene and other sexual materials and performances
as defined in section 5903 (relating to obscene and
other sexual materials and performances).

,5)
!
(6)

Sexual abuse of children as defined in section 6312
(relating to sexual abuse of children).
j
Sexual exploitation of children as defined in section
6320 (relating to sexual exploitation of children).

(b) Grading.—A violation of subsection (a) is:

|:

App.201a

)

i

’1)

an offense of the same grade and degree as the most
serious underlying offense in subsection (a) for which
the defendant contacted the minor; or

(2)

a felony of the third degree; whichever is greater.

I’b.l) Concurrent jurisdiction to prosecute.—The
Attorney General shall have concurrent prose­
cutorial jurisdiction with the district attorney for;
violations under this section and any crime arising
put of the activity prohibited by this section when the1
person charged with a violation of this section contacts
Sa minor through the use of a computer, computer
System or computer network. No person charged with ‘
a violation of this section by the Attorney General
|hall have standing to challenge the authority of the
Attorney General to prosecute the case, and, if any
luch challenge is made, the challenge shall be dis­
missed and no relief shall be available in the courts!
pf this Commonwealth to the person making the
Challenge.
!

I

;

(c) Definitions.—As used in this section, the following
words and phrases shall have the meanings given to
them in this subsection:
“Computer.” An electronic, magnetic, optical, hydraulic,
organic or other high-speed data processing device or
system which performs logic, arithmetic or memory
functions and includes all input, output, processing,
storage, software or communication facilities which
are connected or related to the device in a computer
system or computer network.
Computer network.” The interconnection of two or more
computers through the usage of satellite, microWave,
line or other communication medium.
'
“Computer system.” A set of related, connected or
unconnected computer equipment, devices and software.
“Contacts.” Direct or indirect contact or communication
by any means, method or device, including contact or
communication in person or through an agent or

I

App.202a

That statute is one of the prescribed statutes requir­
ing sex offender registration under Megans Law. See
42 Pa. C.S.A. § 9795.1.2 The Pennsylvania Legislature
agency, through any print medium, the mails, a
common carrier or communication common carrier,
any electronic communication system and any telecom­
munications, wire, computer or radio communications
device or system.
“Minor.” An individual under 18 years of age.
2 42 Pa. C.S.A. § 9795.1
§ 9795.1. Registration
(a) Ten-year registration.—The following individuals shall
be required to register with the Pennsylvania State Police
for a period of ten years:
(1)

Individuals convicted of any of the following offenses:
18 Pa. C.S. 2901 (relating to kidnapping) where the
victim is a minor.—
18 Pa. C.S. § 2910 (relating to luring a child info a motor
vehicle or structure).
18 Pa. C.S. § 3124.2 (relating to institution sexual
assault).
18 Pa. C.S. § 3126 (relating to indecent assault) where
the offense on graded as a misdemeanor of the first
degree or higher.
18 Pa. C.S. § 4302 (relating to incest) where the victim
is 12 years of age or older but under 18 years of age.
18 Pa. C.S. § 5902(b) (relating to prostitution and related
offenses) where the actor promotes the prostitution
of a minor.
18 Pa. C.S. § 5903(a)(3), (4), (5) or (6) (relating to obscene
and other sexual materials and performances) where
the victim is a minor.
18 Pa. C.S. § 6312 (relating to sexual abuse of children).

App.203a
has declared the following with regard to the Regis­
tration of Sexual Offenders Act:
It Is hereby declared to be the intention of
the General Assembly to protect the safety
and general welfare of the people of this
Commonwealth by providing for registra­
tion and community notification regarding
sexually violent predators who are about to
be released from custody and will five in or
near their neighborhood. It is further declared
to be the policy of this Commonwealth to
require the exchange of relevant informa­
tion about sexually violent predators arming
public agencies and officials and to author­
ize the release of necessary and relevant
information about sexually violent predators
to members of the general public as a means
of assuring public protection and shall not
be construed as punitive.
42 Pa. C.S.A. § 9791(b).
“The registration requirements of [the Registra­
tion of Sexual Offenders Act] do not serve to punish
the offender but to help ensure the safety of the
public.” Commonwealth v. Fleming; 801 A.2d 1234,
1241 (Pa. Super. 2002). The legislature has also
declared that “sexually violent predators pose a high
risk of engaging in further offenses even after being
released from incarceration or commitments and that
protection of the public from this type of offender is a
18 Pa. C.S. § 6318 (relating to unlawful contact with
minor).
j
18 Pa. C.S. § 6320 (relating to sexual exploitation of
children).

App.204a
paramount governmental interest.” 42 Pa. C.S.A.
§ 9791(a)(2). A “sexually violent predator” is a person

who has been convicted of a sexually violent offense
and who is determined to be a sexually violent
predator under Section 9794.4 (relating to assessments)
due to a mental abnormality or personality disorder
that makes the person likely to engage in predatory
sexually violent offenses, 42 Pa. C.S.A. § 9792. In
determining whether a defendant is a sexually violent
predator, and therefore subject to the registration
requirements, the trial court must consider certain
factors during a hearing. Specifically, 42 Pa. C.S.A.
§ 9795.4 indicates, in relevant part, the following
(b) Assessment.—... An assessment shall include,
but not be limited to, an examination of the
following:
(1) Facts of the current offense, including:
(i)

Whether the offense involved multiple
victims.

(ii) Whether the individual exceeded the
means necessary to achieve the offense.
(iii) The nature of the sexual contact with
the victim.
(iv) Relationship of the individual to the
victim.
(v) Age. of the victim.
(vi) Whether the offense included a display
of unusual cruelty by the individual
during the commission of the crime.
(vii) The mental capacity of the victim.
(2) Prior offense history, including:

App.205a

(i)

The individual’s prior criminal record.

(ii) Whether the individual completed; any
prior sentences.
(iii) Whether the individual participated in
available programs for sexual offenders.
(3) Characteristics of the individual, including:
(i)

Age of the individual.

(ii) Use of illegal drugs by the individual.
(iii) Any mental illness, mental disability,
or mental abnormality.
(iv) Behavioral characteristics that contrib­
ute to the individual’s conduct.
(4) Factors that are supported in a sexual
offender assessment filed as criteria reason­
ably related to the risk of reoffend.
(c) Release of information.—All state, County and
local agencies, offices or entities in this Com­
monwealth shall corporate by providing copies of
records and information as requested by the board
in connection with the court-ordered assessment
and the assessment request by the Pennsylvania
Board of Probation and parole.
42 Pa. C.S.A. § 9795.4(b), (c)
42 Pa. C.S.A. § 9799.3 provides that the Board
shall consist of psychiatrists, psychologists, and crim­
inal justice experts, who are experts in the behavior
and treatment of sexual offenders, that the Governor
shall appoint the Board members, and that the support
staff shall be provided by the Pennsylvania Board of
Probation and Parole.

App.206a

The Pennsylvania Legislature has also deterniined
that individuals who have a predisposition to commit
these kinds of offenses (which specifically include the
charges against this Defendant) are so potentially
dangerous, that the Commonwealth can seek to
impose mandatory minimum based on prior convic­
tions for offenses requiring Megan’s Law registration.
See 42 Pa. C.S.A. § 0718.2.3 If the Defendant had been
3 42 Pa. C.S.A. § 9718.2
§ 9718.2. Sentences for sex offenders.
(a) Mandatory sentence.—

I

(1)

Any person who is convicted in any court of this Commo­
nwealth of an offense set forth in section 9795.1(a) or
(b) (relating to registration) shall, if at the time of
the commission of the current offense the person had
previously been convicted of an offense set forth in
section 9795.1(a) or (b) or an equivalent crime under
the laws of this Commonwealth in effect at theitime
of the commission of that offense or an equivalent crime
in another jurisdiction, be sentenced to a minimum
sentence of at least 25 years of total confinement,
notwithstanding any other provision of this tifle or
other statute to the contrary. Upon such conviction,
the court shall give the person oral and written
notice of the penalties under paragraph (2) for a
third conviction. Failure to provide such notice 'shall
not render the offender ineligible to be sentenced
under paragraph (2).
|

(2)

Where the person had at the time of the commission
of the current offense previously been convicted of
two or more offenses arising from separate criminal
transactions set forth in section 9795.1(a) or (b) or
equivalent crimes under the laws of this Common­
wealth in effect at the time of the commission of the
offense or equivalent crimes in another jurisdiction,
the person shall be sentenced to a term of life
imprisonment, notwithstanding any other provision

t

App.207a

of this title or other statute to the contrary. Proof
that the offender received notice of or otherwise
knew or should have known of the penalties under
this paragraph shall not be required.
(b) Mandatory maximum.—An offender sentenced to a
mandatory minimum sentence under this section shall be
sentenced to a maximum sentence equal to twice the
mandatory minimum sentence, notwithstanding 18 Pa.
C.S. § 1103 (relating to sentence of imprisonment for
felony) or any other provision of this title or other statute
to the contrary.
(c) Proof of sentencing.—The provisions of this section
shall not be an element of the crime, and notice thereof to
the defendant shall not be required prior to conviction, but
reasonable notice of the Commonwealth’s intention to pro­
ceed under this section shall be provided after conviction
and before sentencing. The applicability of this section
shall be determined at sentencing. The sentencing court,
prior to imposing sentence on an offender under subsection
(a), shall have a complete record of the previous convic­
tions of the offender, copies of which shall be furnished to
the offender. If the offender or the attorney for the
Commonwealth contests the accuracy of the record^ the
court shall schedule a hearing and direct the offender and
the attorney for the Commonwealth to submit evidence
regarding the previous convictions of the offender. The
court shall then determine, by a preponderance of the evi­
dence, the previous convictions of the offender and, if this
section is applicable, shall impose sentence in accordance
with this section. Should a previous conviction be vacated
and an acquittal or final discharge entered subsequent to
imposition of sentence under this section, the offender
shall have the right to petition the sentencing court for
reconsideration of sentence if this section would not have
been applicable except for the conviction which was vacated.
(d) Authority of court in sentencing.—Notice of the appli­
cation of this section shall be provided to the defendant
before trial. If the notice is given, there shall be no author­
ity in any court to impose on an offender to which this

App.208a

convicted of the offenses in New York, the Common­
wealth could have sought a 25 or lifetime mandatory
minimum sentence if he were convicted in this case.
The Charges are serious and the past offense history
is relevant to an assessment of his potential danger
to the community. Thus the interests of justice
weight heavily in favor of the unsealing of the records.
The unsealing of the records is also necessary to
the successful prosecution of the case as evidence of
prior bad acts, as indicated below.
B.)Even Without the New York Records, the
Evidence of the Pier Arrests Is Admissible as
Prior Bad Acts
Although the records are relevant and necessary
to the successful prosecution of the case as evidence
of prior bad acts, and the suppression of them may
substantial handicap the Commonwealth’s case, the
evidence of the Defendant’s prior Incidents would
section is applicable any lesser sentence than provided for
in subsections (a) and (b) or to place the offender on
probation or to suspend sentence. Nothing in this section
shall prevent the sentencing court from imposing a sentence
greater than that provided in this section. Sentencing
guidelines promulgated by the Pennsylvania Commission
on Sentencing shall not supersede the mandatory sentences
provided in this section.
(e) Appeal by Commonwealth.—If a sentencing court shall
refuse to apply this section where applicable, the Common­
wealth shall have the right to appellate review of the
action of the sentencing court. The appellate court, shall
vacate the sentence and remand the case to the sentencing
court for the imposition of a sentence in accordance with
this section if it finds that the sentence was imposed in
violation of this section.
,

I
i

I

,

App.209a
still be admissible, if the Commonwealth were still able
to go forward.
It is irrelevant if he was actually charged or the
charges were dismissed after completing a probation
period.
Rule of evidence permitting admission of evi­
dence of prior bad acts for limited purposes is not
limited to evidence of crimes that have been proven
beyond a reasonable doubt in court; it encompasses
both prior crimes and prior wrongs and acts, , the
latter of which, by their nature, often lack definitive
proof. Commonwealth v. LockcufE, 813 A.2d 857, Super.
2002, appeal denied 826 A.2d 638, 573 Pa. 689.
The New York statute applies only to official
records. There is nothing in the statute nor the law
that prohibits the detective involved in the New York
arrests from testifying to what actually happened.
CPL 160.50(1) authorizes the sealing of the record of
an action against a defendant in instances in which
the action was terminated favorably to the defendant
and CPL 160.50(l)(c) applies the sealing requirement
to “all official records and papers [with limited
exceptions not relevant here] ... on file with... pros­
ecutor’s office.” Such sealed records shall “not be
made available to any person or public or private
agency.” There is almost no guidance on the issue of
what constitutes a record or document that is offibial.
CHynes v. Karassik, 63 AD2d 597, 598 [1st Dept 1978],
affd on other grounds 47 NY2d 659[l979].) The only
“records” mentioned in the Governor’s Approval Memo­
randum are the defendant’s fingerprints and
photographs and his “arrest records.” (Governor’s
Mem approving L 1976, ch 877, 1976 McKimjey’s
Session Laws of NY, at 2451.) The memo says these

I

App.210a

i

items are to be returned to the defendant. People v.
i
Roe, 165 Misc.2d 554, 628 N.Y.S.2d 997.
There was no gag order and thus there is no
prohibition from the detective involved in the case
from testifying at trail.
C.) The Prior Bad Acts Are Even More Relevant
Based on the Defendant’s Defense of Mistake
and Lack of Intent, According to His Own
Experts.
Mr. Lawson opines that “the risk of targeting
suspects who do not in fact intend to contact actual
minors ... is particularly high” and that anonymous
internet chatting “by its very nature is a highly
fantasy based endeavor.” And that the “fantasy basis”
is such that “people tend to not believe much of what
is said”.
The Defendant has already stated in his chats
with Detective Venneman, once he was confronted
with what he had done, that he believed this was all
fantasy, in accordance with the proffered experts antici­
pated testimony. And if he testifies, it is expected he
will testify to the same.
!
i

Mr. Lawson infers that Detective Veneman’s
intent is to “trick people” And is engaged in nothing
more than “a hunt for arrest statistics”
He opines that the investigation was not long
enough or in depth enough to determine if this
defendant was a “valid target” let alone a “danger to
children”.
Mr. Lawson opines that “people who use adult
chat rooms have an expectation that others ini the
!

I

i.

App.211a

room will be adults over 18” and puts forth his
opinion as fact that uses have this expectation! He
also states that “anyone using yahoo chat services
would necessarily expect that other users had gone
through this registration process ...”
Mr. Lawson states: “I do not believe that there
was even close to sufficient interaction or time to
convince Mr. Ritter that “Emily” was not an adult
playing games ...” Further, he concludes that t lere
was not even “close to sufficient interaction or time to
convince Mr. Ritter that “Emily” was not an adult
playing games”
j
Mr. Lawson states: “I find it highly unlikely that
actual 15 year old females would encourage a milddle
age man in his 40’s to expose himself and masturbate
on camera.” He also states that a photo exchange
would be “unlikely” for a real 15 year old female
speaking with a 44 year old man, and more likely
that of an adult. He further opines that type of
behavior is far more indicative of the typical fantasy
banter . . . ”.
Mr. Lawson states that “[i]n my experience, the
method employed by Officer Venneman tends to
result in arrests of persons who have no interest in
children but rather are caught up in the fantasy of
the moment and believe they are engaged anony­
mously with another adult.”
Mr. Lawson also performed a forensic review of
the Defendant’s computers. He opines that because of
his forensic examination, and the absence of child
pornography or any other chats with minors, the
Defendant has no predisposition to engage in illegal
behavior with minors.

App.212a

Dr. Hamil’s whole report deals with the defense
that these chats were fantasy and the Defendant had
no real criminal intent to contact actual minors, nor
any motive to sexually abuse a real minor.
i
Pa. Rules of Evidence Rule 404, in relevant part
provide:
(b) Other Crimes or Wrongs, or acts.
(1) Evidence of other Crimes, wrongs, or acts is
not admissible to prove the character of person
in order to show action in conformity there­
with.
,
(2) Evidence of other crimes, wrong, or jacts
may be admitted for other purpose, suck as
proof of motive, opportunity, intent, prepara­
tion, plan, knowledge, identity or absence or
mistake or accident.
(3) Evidence of other crimes, wrongs, or acts
preferred under subsection (b)(2) of this rule
may be admitted in a criminal case only
upon a showing that the probative value of
the evidence outweighs its potential for pre­
judice.
(4) in criminal cases, the prosecution shall
provide reasonable notice in advance of trial,
or during trial if the court excuses pretrial
notice on good cause shown, of the general
nature of any such evidence it intends to
introduce at trial. Pa. RE 404(b).
The records themselves and the surrounding! cir­
cumstances are nearly identical to the instant case.
All three involves minors, all three involve females,
all three involve communications over the internet,

App.213a

all three involved undercover police, and all three
involved the Defendant’s desire to masturbate in the
presence of a minor while she watched him.
The prior bad acts demonstrate the Defendants
motive. The Defendant may claim he had no motive
to expose himself to a minor, but the Defendant’s
actions in all three cases demonstrate a sexually
deviant pathway to offending and a sexual deviancy
or particular sexual fetish, that being exhibitionism.
The prior bad acts show his intent to commit
this offense, and negate any absence of mistake. The
Defendant may claim he did not believe the victim
was a minor and never intended to expose himself to
a minor. However, the fact that he did so twice before
would negate this defense.
The prior bad acts of the two incidents in New York
are even more relevant and even more probative of
the Defendant’s intent, motive and absence of mistake
based on both of his experts reports and anticipated
testimony. Even if the prior bad acts were deemed
inadmissible in the Commonwealth’s case in c iief,
they would certainly be admissible upon rebutta l as
they would be relevant and necessary to rebut the
Defendant’s claims of mistake, lack of criminal intent
and lack of motive. Without a chance to rebut th ese
claims, the jury would be given a skewered version of
the facts and past history that would not be an
accurate representation of what really happened-. It
would also severely handicap the Commonwealth’s
case by allowing the Defendant to present a defe nse
that the Commonwealth could not rebut or refute,
even though it had the evidence to do so.

App.214a
IV. Conclusion
Based on the foregoing, the Commonwealth res Dectfully requests this Honorable Court to allow the evidence of prior bad acts at trial.
Respectfully Submitted,
Michael Rakaczewski, Esquire
I.D. No. 81290
Assistant District Attorney
Office of the District Attorney
Monroe County Courthouse
Stroudsburg, PA 18360
(570) 420-3470

■!

J

App.21-5a

AFFIDAVIT OF MICHAEL T. RAKACZEWSKI
(JUNE 2, 2010)
STATE OF NEW YORK SUPREME COURT
COUNTY OF ALBANY
In The Matter of
Records Pertaining to WILLIAM R.

Index No.
Commonwealth of Pennsylvania
County of Monroe
I, Michael T. Rakaczewski, being duly sworn, do
depose and state as follows:
1. That I am an Assistant District Attorney with
the Office of the District Attorney, Monroe County,
Pennsylvania. My duties include the prosecution of
sexual offenders.
2. I have received training in the prosecution of
cases involving the sexual exploitation of children
and child pornography. I have also conducted and
been involved in numerous prosecutions relating to
the sexual exploitation of children.
3. That this affidavit is submitted in support of
an ex parte motion by the Office of the Mojnroe
County District Attorney, Monroe County, Pennsylvania
requesting an Order from this Court (l) directing the
unsealing of tiles maintained by the Colonie Police
Department and the Albany County District Attor-

App.216a

ney’s Office relating to William R. and (2) making
these files available to only the Office of the District
Attorney, Monroe County, Stroudsburg, Pennsylvania
for their use and prosecution.
4. I have read news stories pertaining to this
matter, which are summarized as follows:
a.

William R., an adult male, was investigated
by the Colonie Police Department in April and
June of 2001. He was eventually arrestek for
trying to lure a minor he met on the Internet
to a Burger King.

b.

William R. utilized the Internet to meet som­
eone who he thought was a minor female, The
individual he communicated with was act­
ually an undercover investigator with the
Colonie Police Department. William R.
engaged in this conduct on two separate
occasions, once in April of 2001 and once in
June of 2001. William R.’s intent was to have
the minor watch him as he masturbated.

c.

William R. was charged with the crime of
attempting to endanger the welfare of a
child in Albany County. Subsequently, the
matter was adjourned in contemplation of
dismissal and all records have been sealed.

5. My office has been contacted by the Albany
County District Attorney’s Office. On May 26, 2010,
my office was-informed that all records have been
sealed and that they cannot provide any records or
evidence unless and until an unsealing order has
been obtained. Current and former members of the
Colonie Police Department may refuse to discuss the

App.217a
matter with me, citing the sealing order and possible
civil consequences.

,

6. On October 16, 2009, a criminal complaint
was filed in Monroe County Pennsylvania against
William R., charging him with Unlawful Contact with
a Minor (Felony-3) and related offenses. These charges
arose out of his utilizing the internet on February 7,
2009, to meet someone he thought was a minor
female. The individual he communicated with was
actually an undercover investigator with the Barret
Township Police Department, Monroe County Ppnnsylvania. During the course of this communication,
William R. performed a lewd act upon himself, mastur­
bating nude in front of a web cam.
7. The conduct of William R. in the past in New
York, if true, may constitute evidence that is relevant
and necessary for a successful prosecution of his
pending case in Pennsylvania.
8. In order to properly investigate this matter, it
is necessary to review the records and evidence bjeing
held by the Colonie Police Department andi the
Albany County District Attorney’s Office.
;
9. Evidence, including the online communications
between the undercover and William R. have presum­
ably been preserved by the Colonie Police Department.
William R.’s computers were also presumably seized
and searched. In addition, William R. was presum­
ably interviewed by members of the Colonie Police
Department.
10. This evidence, and other physical evidence
retained in this matter, cannot be obtained from any
other source.

/

App.218a

WHEREFORE, it is respectfully requested that
this Court issue an Order (l) directing the unsealing
of files maintained by the Colonie Police Department
and the Albany County District Attorney’s Office
relating to William R. and (2) making these files
available only to the Office of the District Attorney
Monroe County, Stroudsburg, Pennsylvania.
/s/ Michael. T. Rakaczewski
Assistant District Attorney
Sworn to before me this
2nd day of June, 2010.
/s/ Colleen M. Mancuso
Commonwealth of Pennsylvania
Notary public
Stroudsburg Boro., Monroe County
My Commission Expires April 25, 2013

App.219a

LETTER FROM W. GARY KOHLMAN TO
MONROE COUNTY DISTRICT ATTORNEY
(APRIL 23, 2010)
BREBHOFF & KAISER, p.uix.
AUamsysS'CaunsOcaB
RcAmU. WOsbets
Jeffrey!. CHW»
Julii Penny Out
J^cyR.fe.aad

Z2838SL
MndyCjlsoa

,805 Fj/tGOUtli Stroel, NW
Washington, DC. 26005
(202) 842*2500
Fiuirfmlla: (202) 842*1888
Www.breaiiofI.cain

BnJCtR. Iotvt
Andrew D.itoth

Ainu Soon*} Miryinbo

April 23, 2010

ss&s
SsSS*

Kimberly SiochtzOcuio

Lutwnce Gold ^
PutdcU Polecfc
SottaG.lilme
3a»hM.Ftix
KifrtocnKflW

ES/S*™.Robfct Alitandrff

MatliwwCbrivCJrffldor

%s!r
David Christine, District Attorney
Monroe County District Attorney’s Office
7th & Monroe Streets
Sti’oudsburg, PA 18360-2190
Re: Commonwealth v. William Scott Ritter, Jr.
CP-45-CR-0002238-2009
Dear Mr. Christine:
We write to you on behalf of William Scott Ritter,
Jr., the accused in the above-captioned matter.
We are in receipt of discovery from Assistant Dis­
trict Attorney Michael T. Rackeczewski, which contains
police reports concerning incidents in 2001 that took
place in New York. These records were subject to a
sealing and expungement court order requiring that
they be sealed and/or destroyed. Only a court order
would allow these records to be unsealed. Your office’s
possession of these records is in violation of New
York Criminal Procedure § 160.50 and § 170.55 We
find it deeply distressing that statutes designed to
protect privacy interests have been so clearly trans-

App.220a

gressed, perhaps by law enforcement agencies in two
states. Therefore, we are requesting that you not only
tum-over all copies of these records in your control
and in the possession of law enforcement in your
jurisdiction, but also divulge how your office <jame
into possession of these records.
This is far more serious than simply a technical
violation of a statute in another jurisdiction. WC are
convinced that Mr. Ritter has been treated differently
than other similarly situated defendants. In fact, [your
office held a press conference with regard to Mr. Rioter’s
arrest, which gained international media attention.
There were no press conferences regarding o|ther
defendants arrested in stings similar to the one
involving Mr. Ritter. At the press conference, Mr.
Rackeczewski mentioned that Mr. Ritter had previously
been arrested for similar charges. These charges were
not only expunged but sealed from public view.
It is clear that your office’s illegal possession of
the sealed records from New York has tainted jy our
office’s handling of this matter. In April 2009,1 Mr.
Kohlman met with Mr. Rackeczewski and proffered
several facts which counseled against the initiation
of a criminal prosecution. To start with, it was noted
that Mr. Ritter’s lack of criminal intent is dem onstrated by the fact that the encounter at issue
occurred after Mr. Ritter entered an adult chat rp om
clearly showing lack of intent to have impermissible
contact with a minor. Moreover, we proffered that (l)
a forensic examination of all the computers in the
Ritter household showed no evidence of child po rnography; (2) a polygraph examination administered by
a former FBI polygrapher determined that Mr. Ritter
has had no inappropriate contact with minors, and

App.221a
(3) a report from an experienced Clinical Psychologist
concluded that Mr. Ritter presented no danger to
minors.
At the meeting we offered Mr. Rackeczewski office
total access to the three experts as well as the oppor­
tunity to do an examination of Mr. Ritter’s computer.
We heard nothing from your office until the public at
large learned at a press conference that Mr. Ritter
was being charged, a decision unmistakably decided
based on the improper access to court sealed records.
Sincerely,
/s/ W. Gary Kohlman
/s/ Todd Henry

